No. 20A18

In the Supreme Court of the United States
___________________

RECLAIM IDAHO, an Idaho Political Action Committee, and
LUKE MAYVILLE,
Respondents,
v.
BRADLEY LITTLE, in his official capacity as Governor of Idaho,
and LAWERENCE DENNEY,
in his official capacity as Idaho Secretary of State,
Applicants.
__________________
On Application to the Honorable Elena Kagan to Stay the Orders
of the U.S. District Court for the District of Idaho
__________________
RESPONDENTS’ OPPOSITION TO EMERGENCY
APPLICATION FOR STAY
_________________
Deborah A. Ferguson
Counsel of Record
Craig H. Durham
FERGUSON DURHAM, PLLC
223 N. 6th Street, Suite 325
Boise, Idaho 83702
T: (208) 484-2253
F: (208) 906-8663
daf@fergusondurham.com
chd@fergusondurham.com
Attorneys for Respondents

TABLE OF CONTENTS
TABLE OF AUTHORITIES ......................................................................................... iii
INTRODUCTION .......................................................................................................... 1
BACKGROUND ............................................................................................................. 3
A.

Reclaim Idaho and its “Invest in Idaho” citizens’ initiative ................... 3

B.

Reclaim Idaho seeks an official accommodation to continuing
exercising its First Amendment rights.................................................... 5

C.

Reclaim Idaho goes to court. The court gives Idaho officials
options – which they flat refuse – and then opens a window for
electronic signature gathering ................................................................. 8

REASONS WHY THE STAY SHOULD BE DENIED ............................................... 12
I.

II.

The Court is Unlikely to Grant Review ........................................................... 12
A.

This Court has long held that restrictions on citizen petitions
implicate core First Amendment rights – this case offers nothing
new .......................................................................................................... 15

B.

The district court’s ruling does not implicate Purcell ........................... 16

C.

There is no circuit split on the constitutional issue .............................. 19

Applicants Have Failed to Show a Fair Prospect that the Court Will
Reverse the Judgment ...................................................................................... 22
A.

The district court found the facts and applied the law in a wellreasoned decision to conclude that Reclaim Idaho’s First
Amendment rights were severely burdened ......................................... 22

B.

The district court’s remedy does not “seize control” of Idaho’s
election rules, nor does it unleash the parade of horribles that
the State Defendants conjure up ........................................................... 25
1.

The process and protocol to collect the remaining
signatures electronically is safe, reliable, and verifiable ........... 26

i

III.

2.

The only temporary change is to permit electronic
signature gathering for the remaining signatures needed.
State and county officials retain all other statutory duties ....... 30

3.

Voters will not be confused.......................................................... 32

The Balance of the Equities Weigh Heavily Against a Stay ........................... 33

CONCLUSION............................................................................................................. 35

ii

TABLE OF AUTHORITIES
Cases
Angle v. Miller,
673 F.3d 1122 (9th Cir. 2012) .................................................................... 8, 9, 15, 16
Atiyeh v. Capps,
449 U.S. 1312 (1981) ................................................................................................ 13
Barnes v. E-Systems, Inc. Grp. Hosp. Med. & Surgical Ins. Plan,
501 U.S. 1301 (1991) ................................................................................................ 33
Buckley v. Am. Constitutional L. Found., Inc.,
525 U.S. 182 (1999) .......................................................................................... passim
Democratic Exec. Comm. of Fla. v. Lee,
915 F.3d 1312 (11th Cir. 2019) .......................................................................... 11, 29
Fla. Democratic Party v. Detzner,
4:16CV607-MW/CAS, 2016 WL 6090943 (N.D. Fla. Oct. 16, 2016) ....................... 29
Graves v. Barnes,
405 U.S. 1201 (1972) ................................................................................................ 12
Heckler v. Redbud Hospital Dist.,
473 U.S. 1308 (1985) ................................................................................................ 13
Hollingsworth v. Perry,
558 U.S. 183 (2010) ............................................................................................ 13, 22
Initiative and Referendum Institute v. Walker,
450 F.3d 1082 (10th Cir. 2006) .......................................................................... 19, 20
INS v. Legalization Assistance Project of Los Angeles County Federation of Labor,
510 U.S. 1301 (1993) .......................................................................................... 13, 14
Jones v. Markiewicz-Qualkinbush,
892 F.3d 935 (7th Cir. 2018) .............................................................................. 20, 21
Marijuana Policy Project v. United States,
304 F.3d 82 (D.C. Cir. 2002) .............................................................................. 21, 22
Merrill v. Alabama,
No. 19A1063, 2020 WL 3604049 (July 2, 2020) ...................................................... 16
iii

Meyer v. Grant,
486 U.S. 414 (1988) .......................................................................................... passim
People First of Alabama v. Merrill,
2020 WL 3207824 (N.D. Ala. June 15, 2020) .......................................................... 17
Purcell v. Gonzalez,
549 U.S. 1 (2006) ............................................................................................ 1, 16, 18
Republican Nat’l Comm. v. Democratic Nat’l Comm.,
140 S. Ct. 1205 (2020) .................................................................................. 16, 17, 18
Sampson v. Murray,
415 U.S. 61 (1974) .................................................................................................... 34
San v. Paulson,
548 U.S. 1301 (2006) ................................................................................................ 13
Texas Democratic Party v. Abbott,
140 S. Ct. 2015 (Jun. 26, 2020) .......................................................................... 16, 17
Texas Democratic Party v. Abbott,
2020 WL 2541971 (W.D. Tex. May 19, 2020) .......................................................... 17
Williams v. Zbaraz,
442 U.S. 1309 (1979) ................................................................................................ 35
Constitution and Statutes
15 U.S.C. § 7001 et seq. ................................................................................................ 28
Idaho Const. III, sec. 1 ................................................................................................... 3
Idaho Code § 28-50-101 et seq. .................................................................................... 27
Idaho Code § 28-50-107(A) .......................................................................................... 27
Idaho Code § 28-50-107(D) .......................................................................................... 27
Other Authorities
A.P., June 22, 2020 at
https://apnews.com/7669cbfffc9e896b686b8326bd35cbca ...................................... 19
iv

David Daley, Unrigged: How Americans are Battling Back to Save Democracy
(2020) .......................................................................................................................... 4
“How Coronavirus Cases Have Risen Since States Reopened,” NY Times, at
https://www.nytimes.com/interactive/2020/07/09/us/coronavirus-casesreopening-trends.html ............................................................................................... 5
“No. 51, Again: IEA Decries Per-Pupil Spending, IEA News, July 7, 2020, at
https://tinyurl.com/yxk75lm5..................................................................................... 4

v

To the Honorable Elena Kagan, Associate Justice of the Supreme Court of
the United States and Circuit Justice for the Ninth Circuit:
INTRODUCTION
Respondents Reclaim Idaho and Luke Mayville (“Reclaim Idaho”) oppose the
Emergency Application for Stay brought by the Governor and Secretary of State of
Idaho (“State Defendants”). There is no emergency that warrants this Court’s
intervention.
Contrary to the tenor and tone of the State Defendants’ entire application,
this case involves a narrow, well-supported, and fact-bound decision by a district
court applying clearly established First Amendment law. It is about a minor and
temporary modification to a small aspect of Idaho’s initiative process in the middle
of a pandemic – allowing for industry-standard electronic signature gathering and
extending the deadline for doing so – which is itself one small part of Idaho’s
electoral laws and regulations. The district court granted temporary relief for one
grassroots group trying to get one citizens’ initiative on this November’s ballot. The
district court’s order changes nothing about how people will vote in Idaho on
November 3rd. The district court’s order changes nothing about the statutorily
required percentages of registered voters’ signatures that Reclaim Idaho must still
collect or the geographical distribution of the signors. And the district court’s order
changes nothing permanently.
This case does not present the same “on-the-eve-of-an-election” concerns that
existed in recent cases before the Court or in Purcell v. Gonzalez, 549 U.S. 1 (2006).
The district court entered its injunction over four months before the election. Also,
1

unlike the cases cited by the State Defendants, the relief in this case will not cause
voter confusion or undermine voter confidence because it has nothing to do with
how Idahoans will vote on election day. The court simply gave Reclaim Idaho an
opportunity – far from a sure thing – to meet Idaho’s rigorous standards to qualify
its initiative for the fall ballot. If they are successful, voters can vote against the
initiative if they so choose.
Nor does this case present any unsettled questions of constitutional law.
There is no circuit split. See Stay App. at 25. The established law from this Court is
that when states allow for citizens’ referenda or initiatives, that process implicates
core First Amendment rights. See e.g., Buckley v. Am. Constitutional L. Found.,
Inc., 525 U.S. 182, 186–87 (1999) (“Petition circulation, we held, is ‘core political
speech,’ because it involves ‘interactive communication concerning political change.
First Amendment protection for such interaction, we agreed, is ‘at its zenith.’”)
(quotation omitted). Neither the Tenth Circuit nor the Seventh Circuit nor the D.C.
Circuit has ever said anything to the contrary. The cases cited by the State
Defendants from those circuits instead found that the burdens on speech on the
particular facts before them were not significant enough to cause constitutional
concern. They did not find that no First Amendment right exists in this context.
On top of all that, the Court of Appeals has already set an expedited briefing
and argument schedule in the State Defendants’ appeal. See Exhibit Q to
Respondents’ Opposition to Stay, at 169. The appeal will be ripe for a decision on
the merits in three weeks, still nearly three months before the election. The State
2

Defendants will not be harmed in the interim. During that time, state and county
officials will be required to check handwritten and electronic signatures to make
sure that they are from registered voters and that the requisite geographical
distribution of signatures is met, but that is not “irreparable” harm that justifies
such an extraordinary remedy. On the other hand, if this Court were to grant the
requested stay, Reclaim Idaho’s initiative would be dead in the water. It would have
no chance of collecting the remaining signatures to qualify its initiative for the
ballot. It would be irreparably harmed.
There is no reason to disrupt regular appellate procedure and stay the
district court’s order before the Court of Appeals has even had a chance to assess
the merits. Applicants have not shown that it is likely that four members of this
Court would grant a petition for certiorari (which has not yet been filed) in a case
that lacks any nationwide implications or a true circuit split. They have also not
shown a fair prospect that if certiorari were granted, the Court would reverse. And
the equities heavily favor Reclaim Idaho.
BACKGROUND
The State Defendants have omitted material facts and have downplayed
others to hype an emergency that does not exist. Respondents wish to provide the
Court with a more complete story here.
A.

Reclaim Idaho and its “Invest in Idaho” citizens’ initiative.

Citizen initiative drives have deep roots in Idaho. For over 100 years the
Idaho Constitution has granted voters authority to put initiatives on the ballot.
Idaho Const. Art. III, sec. 1. Over the years, the Idaho legislature has enacted
3

conditions on qualifying initiatives, which are described in the State Defendants’
stay application, but the basic right endures.
Reclaim Idaho is a local grassroots movement driven by passionate and nonpartisan volunteers who have broad public support. See, generally, David Daley,
Unrigged: How Americans are Battling Back to Save Democracy, pp. 23-34 (2020). It
has no paid signature collectors. Its most active volunteers are retired senior
citizens. Ex. D at 45.
This November, it is seeking to put before the voters its “Invest in Idaho”
initiative, an option to increase funding in K – 12 education in a state that ranks
dead last in school funding per pupil. See, “No. 51, Again: IEA Decries Per-Pupil
Spending”, IEA News, July 7, 2020, at https://tinyurl.com/yxk75lm5 .
The district court found that Reclaim Idaho had diligently built and doggedly
pursued its campaign over several months. It modeled its petition circulation and
signature-gathering strategy for “Invest in Idaho” on its previously successful
initiative in 2018 “Medicaid for Idaho.” Ex. A at 6-7; Ex. D at 41-43. The model
included “early stage” volunteer recruitment events, where the group worked to
build teams in Idaho’s legislative districts. Ex. A at 6-7. The model also included a
plan to gradually scale up signature collection efforts in the final months before the
May 1, 2020 submission deadline. Id. at 7. Invest in Idaho’s size, momentum, and
enthusiasm grew exponentially as the April 30 deadline loomed. Ex. D at 42-44. The
gradual scaling of Reclaim Idaho’s efforts reached “critical mass” in early March
2020—the surge in volunteers, favorable springtime weather, and daylight hours
4

was anticipated to boost its organizing efforts in the final stages of its drive. Ex. I at
87-88.
By mid-March of 2020, Reclaim Idaho was ahead of the pace of its effective
2018 campaign, with over 30,000 signatures collected of the 55,057 it needed. Ex. D
at 43-44. Experience showed that it would have reached the statutory threshold had
the public health crisis not occurred. Ex. A at 27.
Then the COVID-19 pandemic hit, and momentum slowed considerably. Ex.
D at 48. Reclaim Idaho’s leadership began to communicate with its local volunteer
leaders regarding a set of guidelines it developed for safer signature collection. Id.
at 44. Around that time, the Centers for Disease Control (CDC) issued guidance to
curb the spread of COVID-19. Id at 45. Maintaining a distance between oneself and
others of at least six feet was – and is – one of the CDC’s main recommendations to
prevent the spread of the virus. See Id. 1
B.

Reclaim Idaho seeks an official accommodation to
continuing exercising its First Amendment rights.

Two days before Reclaim Idaho finally determined that it had no option but
to suspend (not terminate) its canvassing, it approached the Governor and the

Since the district court’s preliminary injunction, COVID-19 cases have
continued to soar in Idaho. As of July 9, Idaho ranked third in the United States in
percentage increase of COVID-19 cases since reopening - a 1491% increase. See,
“How Coronavirus Cases Have Risen Since States Reopened,” NY Times, at
https://www.nytimes.com/interactive/2020/07/09/us/coronavirus-cases-reopeningtrends.html.
1

5

Secretary of State of Idaho seeking an accommodation. What the State Defendants
continue to dismiss as “a few token contacts” “between staffers” in which Reclaim
Idaho “requested a meeting between Reclaim’s founder and the Governor”, Stay
App. at 7, 32, was quite a bit more than that.
Reclaim Idaho’s Executive Director, Rebecca Schroeder emailed Andrew
Mitzel, a Senior Advisor to Governor Little on the morning of March 16, 2020. Ex. A
at 9-10. The back and forth that day with state officials showed Reclaim Idaho’s
concern about the potential negative health effects involved with in-person
signature gathering on its volunteers, many of whom are in the elderly demographic
most susceptible to serious consequences from COVID-19, and the public generally.
Id.
Ms. Schroeder indicated in her emails to Mr. Mitzel that Reclaim Idaho had
already collected over 30,000 signatures and was “well on [its]way to qualifying the
initiative.” Ex. E at 63. Mr. Schroeder wrote that “Idahoans are no longer able to
exercise their constitutional right to bring forward a ballot initiative.” Id. She
informed the Governor’s Senior Advisor that “this extraordinary situation requires
action by the Governor to ensure the public safety is maintained” while Reclaim
Idaho exercised its Constitutional rights. Id. In one email, she wrote that electronic
signature gathering is “the only safe method at this point.” Id. (emphasis in
original).
Advisor Mitzel referred her to the Secretary of State. Ex. A at 10; Ex. E at 63.
Ms. Schroeder responded to Mr. Mitzel that the Secretary of State’s office had
6

advised that “a change to electronic signature gathering would require Legislative
or Executive action.” Ex. E at 63. Mr. Mitzel responded with a definitive answer:
“the Governor’s Office has no intention of taking executive action on this matter.”
Id. at 64. Similarly, the Secretary of State’s Office wrote that “we are sorry to say
that there is no statute allowing electronic signatures for petitions in Idaho
Statutes 34 Chapter 18.” Id. at 65.
March 13, 2020, five days before Reclaim Idaho temporarily suspended its
signature gathering campaign, Governor Little declared a state of emergency. Ex. D
at 44. Responsibly following the CDC guidance and rising health concerns voiced by
its volunteers, and receiving no accommodation from Idaho’s executive branch,
Reclaim Idaho cancelled all door-to-door canvassing events and signature gathering
efforts at larger public events on or around March 18. Ex. A at 8. A week later, on
March 25, Governor Little issued an executive order requiring all Idahoans who
were not essential workers to stay at home. Id. at 8-9. There were no exceptions for
petition circulators or similar First Amendment activities. He extended the order to
April 30, which would have also been the deadline for Reclaim Idaho to provide all
signatures to county clerks. Id. at 9.
Despite the Governor’s response to Reclaim Idaho that he would “take no
executive action” on the group’s reasonable request, he did take other significant
executive action to alter election statutes during the pandemic. He extended
numerous election deadlines and issued an emergency proclamation that “provided

7

for all-absentee voting in the 2020 primary elections due to COVID-19” for the first
time in Idaho’s history. Ex. A at 23; Ex. M at 110-116.
C.

Reclaim Idaho goes to court. The court gives Idaho officials
options – which they flat refuse – and then opens a window
for electronic signature gathering.

On June 6, less two weeks after it was able to secure pro-bono counsel,
Reclaim Idaho filed this lawsuit seeking an injunction that would give it back the
time it lost and would permit it to continue gathering signatures electronically. 2
The district court expedited the matter and granted Reclaim Idaho’s motion
for a preliminary injunction from the bench. See Dist. Ct. Dkt. 13. It followed with a
written Decision and Order four days later. Ex. A.
In its decision, the district court cited this Court’s precedents in Meyer v.
Grant, 486 U.S. 414, 422 (1988), and Buckley v. Am. Constitutional L. Found., Inc.,
525 U.S. at 186–87. It then applied binding Circuit precedent from Angle v. Miller,
673 F.3d 1122, 1132 (9th Cir. 2012). Id. at 18. It concluded that the circumstances
created by COVID-19, the State’s refusal to accommodate Reclaim Idaho with any
alternative, and the Governor’s stay-at-home orders severely burdened Reclaim
Idaho’s First Amendment right to make its initiative the focus of statewide
discussion by getting it on the ballot. Id. at 22. The court further found that “[o]nce

The State Defendants persist in chiding Reclaim Idaho for not filing this
lawsuit before June 6, 2020. Stay App at 3, 8 and 37. This argument ignores the
reality of people’s lived experiences during this pandemic. Until May 1, the
Governor’s orders required all non-essential persons to stay at home. As co-founder
Luke Mayville explained, the grassroots group lacked the legal know-how or
funding to hire attorneys, so they needed extra time to develop a plan for legal
action. Ex. K at 97. Once they found experienced counsel willing to work pro bono,
they filed for an expedited preliminary injunction in 12 days. Id.
2

8

the group started its drive, there is no real argument to diligence in effort.” Id at 21.
Strict scrutiny was necessary. Id.
The district court determined that Reclaim Idaho had “established it is likely
to succeed on the merits, it will suffer irreparable harm in the absence of
preliminary relief, the balance of the equities tips in its favor, and an injunction is
in the interests of the public.” Id. at 26.
The district court initially gave the State Defendants two options. First,
based on the evidence that showed Reclaim Idaho was well on its way to meeting
the statutory requirements when it was shut down, they could choose simply to
certify the initiative. Id. at 27. Or, they could reopen and extend the deadline for
gathering signatures by the period that Reclaim Idaho had lost – 48 days – and
permit Reclaim Idaho to circulate its petition electronically and to accept electronic
signatures with the assistance of DocuSign, a world leader in electronic signature
gathering. Id. The district court gave the State four days to decide. Id at 28.
The State Defendants choose neither option. Two hours before their deadline,
they filed a document styled, “Notice and Motion to Stay Pursuant to F.R.C.P. 62(d)
and F.R.A.P. 8.” See Dist. Ct. Dkt. 16. They informed the district court that “neither
option is acceptable to the Governor nor the Secretary of State…” Id. at 2.
On June 30, the district court ordered that the deadline would be extended
and the State would accept electronic signatures. Ex. B at 37- 38. The district court
gave the parties nine days to meet and confer “to implement the process and
protocol for accepting signatures gathered through the DocuSign technology” after
9

which Reclaim Idaho may “resume the solicitation of signatures for a period of 48
days.” Id. at 38. Should the parties not agree, Reclaim Idaho was directed that it
could proceed to implement an industry standard process and protocol” that ensures
the “highest available standards are used to verify a signer’s identity, legislative
district, and the authenticity of the signature.” Id.
Reclaim Idaho diligently worked with the State in several meetings to refine
the process and procedure to collect electronic signatures with DocuSign’s
technology, and made numerous modifications to the system in response to the
State’s requests and inquiries. See Ex. N. At no time during these discussions did
the State make any alternative electronic signature gathering proposals for Reclaim
Idaho to consider. Id. It also did not accept a single part of the process Reclaim
Idaho proposed. Id.
The State Defendants’ motions to stay have failed in the district court and in
the Court of Appeals. The Court of Appeals has set an expedited briefing schedule,
with oral argument on August 10. Ex. Q at 169. The State Defendants come to this
Court seeking, yet again, to stay the district court’s preliminary injunction.
The State Defendants use considerable briefing space to challenge the district
court’s remedy. See Stay App. at 5-15, and passim. Respectfully, as set forth in more
detail in this memorandum, they mischaracterize the remedy and grossly
exaggerate its consequences. Their “sky-is-falling” rhetoric is divorced from the facts
on the ground. It is necessary to note here the following:

10

•

The district court did not “seize control” of Idaho’s initiative process. Id. at 1.
Its remedy is narrow, limited in scope, and temporary. It was also entered
four months before the general election, which it does not affect.

•

The only part of Idaho’s initiative rules that has been temporarily enjoined is
the in-person signature gathering requirement and the deadline to collect
signatures. Every other stringent condition remains, and Reclaim Idaho must
comply with them all to qualify for the ballot. Those include collecting
signatures of 6% of the total number of registered voters in the entire state
and 6% of the registered voters in at least 18 legislative districts.

•

Today, technology offers a safe, secure, and reliable alternative to in-person
signature gathering through electronic petition circulation and electronic
signatures. Courts rely on the authenticity of electronic signatures every day.
That includes Idaho courts.

•

Federal Courts have found that visual “wet” signature matching, the 100year-old practice that the State so ardently defends, is unreliable at
preventing fraud and regularly disenfranchises legitimate voters. See
Democratic Exec. Comm. of Fla. v. Lee, 915 F.3d 1312, 1320 (11th Cir. 2019)
(holding that visual signature matching is unreliable and often
disenfranchises voters because of the variable nature of signatures).
Regardless, the district court did not order state officials to abandon that
practice or to use electronic signatures in the future. Electronic signatures
offer a reasonable and brief accommodation for Reclaim Idaho to retain its
11

First Amendment rights during this extraordinary public health emergency.
It is limited to this one initiative, for this one group, in this one election cycle.
•

Contrary to the State Defendants’ claim, Stay App. at 12, Reclaim Idaho has
offered to disclose to state officials the certificates of completion (the “audit
trail”) from DocuSign of all the electronic signatures that it gathers. Reclaim
Idaho will also give the State the last four digits of the social security
numbers it collects from signers, once a protective order is in place to protect
this personal information from public disclosure. See Ex. N.

•

It is true that the county clerks will not need to visually match wet
signatures, but they will still be required to verify the signers’ authenticating
information on the petition, as they have normally done. All other statutory
duties for state officials and county clerks remain in place.

•

There is no evidence that the remedy will cause “voter confusion” or endanger
“voter confidence” in Idaho’s elections. The State Defendants draw no logical
connection between electronic signature gathering for an initiative petition
drive and voter confusion or lack of confidence in the election on November 3.
That is because they cannot.
REASONS WHY THE STAY SHOULD BE DENIED

I.

The Court is Unlikely to Grant Review.
Generally, “[s]tays pending appeal to this Court are granted only in

extraordinary circumstances.” Graves v. Barnes, 405 U.S. 1201, 1203 (1972) (Powell,
J., in chambers). “To obtain a stay pending the filing and disposition of a petition for
12

a writ of certiorari, an applicant must show (1) a reasonable probability that four
Justices will consider the issue sufficiently meritorious to grant certiorari; (2) a fair
prospect that a majority of the Court will vote to reverse the judgment below; and
(3) a likelihood that irreparable harm will result from the denial of a stay.”
Hollingsworth v. Perry, 558 U.S. 183, 190 (2010).
The State Defendants have not yet filed a petition for a writ of certiorari, and
it is not clear when, or if, they will. They are instead seeking a stay – already twice
rejected – before the Court of Appeals has heard their appeal.
Several Justices have noted that this type of premature request is “rarely
granted.” Heckler v. Redbud Hospital Dist., 473 U.S. 1308, 1311-1312 (1985)
(Rehnquist, J., in chambers); Atiyeh v. Capps, 449 U.S. 1312, 1313 (1981)
(Rehnquist, J., in chambers) (citation omitted); San v. Paulson, 548 U.S. 1301
(2006) (Kennedy, J., in chambers). This is so because it is “a difficult and
speculative” inquiry to try to predict “whether four Justices would vote to grant
certiorari should the Court of Appeals affirm the District Court order without
modification; try to predict whether the Court would then set the order aside; and
balance the so-called ‘stay equities.’” INS v. Legalization Assistance Project of Los
Angeles County Federation of Labor, 510 U.S. 1301, 1304 (1993) (O’Connor, J., in
chambers); see also Heckler, 473 U.S. at 1311-1312 (Rehnquist, J., in chambers).
This pre-certiorari application illustrates how “difficult and speculative” the
inquiry is. First, the extraordinary remedy is not necessary to avoid any true harm
to the Applicants. The Court of Appeals in this case has set an expedited briefing
13

schedule, which will be completed in two weeks. Ex. P at 164. Oral argument is
scheduled for August 10. Ex. Q at 169. One can reasonably expect that the Court of
Appeals’ decision will be prompt. While Reclaim Idaho expects that the Court of
Appeals will affirm the district court, and perhaps the State Defendants do also, see
Stay App. at 26 (“It can only be assumed the Ninth Circuit will follow its precedents
in ruling on this matter in the upcoming appeal”), they will have a chance in short
order to convince the Court of Appeals otherwise. If they are successful, then that
decision will occur long before the November election (and even well before the
printing of ballots). There would be no lasting harm to the State Defendants in the
interim. And if they are successful in the Court of Appeals, then they will not file a
petition for writ of certiorari.
But even if one assumes that the Court of Appeals will affirm the district
court, the State Defendants still cannot show that it is likely that four justices will
vote to grant their subsequent petition for a writ of certiorari. What will that
petition look like? We simply do not know because we do not know what the Court
of Appeals’ decision will look like. Such crystal ball gazing is “difficult and
speculative,” at best. Legalization Assistance Project of Los Angeles County
Federation of Labor, 510 U.S. at 1304. The Applicants seem to assume that if the
Court of Appeals affirms it will adopt all the reasoning of the district court’s ruling.
That is far from certain.
And yet even if the Court of Appeals does adopt the district court’s reasoning
and remedy verbatim, there still would be no reason for this Court to take the case
14

up. The constitutional law governing First Amendment rights as part of citizen
initiative drives is well-settled. The district court applied that law to the particular
facts before it. It narrowly tailored its temporary remedy to address an as-applied
First Amendment violation. It does not go beyond this group and this one election
cycle. The district court did not alter any procedures “on the eve of the election.”
There is no circuit split.
A.

This Court has long held that restrictions on citizen petitions
implicate core First Amendment rights – this case offers
nothing new.

For over 30 years, this Court has also recognized that petition circulation is
“core political speech,” because it involves “interactive communication concerning
political change.” Meyer, 486 U.S. at 422. Part of the First Amendment right also
includes the opportunity to turn matters of political concern into a statewide
discussion by qualifying them for the ballot. Id. at 421-22 (1988). Petition
circulation “of necessity involves both the expression of a desire for political change
and a discussion of the merits of the proposed change." Id. at 421.When restrictions
impinge on political speech like this, “First Amendment protection is at its zenith.”
Id. at 425; see also e.g., Buckley, 525 U.S. at 186–87 (citing Meyer). Restrictions that
burden this First Amendment right are subject to “exacting scrutiny.” Meyer, 486
U.S. at 421; Buckley, 525 U.S. at 204.
The Ninth Circuit has interpreted this Court’s case law in Angle v. Miller,
673 F.3d 1122, 1132 (9th Cir. 2012). Angle is faithful to the Court’s precedents.
There, the Court of Appeals held that if a petitioner has been reasonably diligent
and if the state’s regulations significantly inhibit the petitioner’s ability to get on
15

the ballot, the petitioner’s First Amendment rights have been severely burdened.
Id. at 1132. Strict scrutiny then applies. Id. at 1133.
The district court broke no new ground. It cited Meyer and Buckley. Ex. A at
22-23. It applied the test from Angle to find that Reclaim Idaho had been reasonably
diligent in pursuing its “Invest in Idaho” initiative. Id. at 18. It concluded that state
officials’ strict application of the in-person signature and deadline requirements
during COVID-19, their refusal to grant any accommodation when asked coupled
with the Governor’s stay-at-home orders, constituted state action that injured
Reclaim Idaho’s ability to get the initiative on the ballot. See Id. at 19. As such,
Reclaim Idaho’s First Amendment rights were severely burdened. The district court
fashioned a remedy that accounts for the state’s interests while giving Reclaim
Idaho a chance to meet Idaho’s statutory requirements. There is nothing about the
district court’s decision in this case that warrants review by this Court.
B.

The district court’s ruling does not implicate Purcell.

The State Defendants repeatedly claim that the district court has interfered
in its election processes at the last minute, sowing confusion and uncertainty. See,
e.g. Stay App. at 20, 21 and 29. In support, they cite Purcell v. Gonzalez, 549 U.S. 1,
4 (2006) and other recent cases from this Court, including Merrill v. Alabama, No.
19A1063, 2020 WL 3604049 (July 2, 2020), Texas Democratic Party v. Abbott, 140
S. Ct. 2015 (Jun. 26, 2020); and Republican Nat’l Comm. v. Democratic Nat’l
Comm., (“RNC v. DNC”), 140 S. Ct. 1205, 1207 (2020). None of those cases are like
this one.
16

Reclaim Idaho has no quibble with the general principle that “lower federal
courts should ordinarily not alter election rules on the eve of an election,”e.g.,
Republican Natl. Comm. v. Democratic Natl. Comm., 140 S. Ct. at 1207. But the
district court neither altered the rules of how the election on November 3rd will be
conducted nor did it make any changes on the “eve of an election.”
In Merrill, the district court directly changed voting procedure by removing
in three counties a witness requirement for absentee voters, and a photo I.D.
requirement, and by ending “the state’s de facto prohibition on curbside voting.”.
People First of Alabama v. Merrill, 2020 WL 3207824, *29 (N.D. Ala. June 15, 2020).
The district court’s order came only 29 days before in-person voting began, and
voters were already casting absentee ballots well before the order came out.
Furthermore, that decision created an inconsistent patchwork of election law within
Alabama that could cause confusion.
In Texas Democratic Party v. Abbott, the district court entered a preliminary
injunction about eight weeks before the election, providing that any eligible Texas
voter, not just those over age 65, could apply for, receive, and cast an absentee
ballot. Texas Democratic Party v. Abbott, 2020 WL 2541971 at *5, 6 (W.D. Tex. May
19, 2020). The Fifth Circuit stayed that order and this Court denied an emergency
request to overturn the Fifth Circuit. See Texas Democratic Party, 140 S. Ct. 2015
(2020).
In RNC v. DNC, just days before a primary election, the district court
extended the date on which absentee ballots must be post-marked before the
17

election. See Republican Nat’l Comm., 140 S. Ct. 1205, 1206-07 (2020). Also, this
Court found it significant that the district court’s injunctive relief went well beyond
what the plaintiffs requested. Id. at 1207-08. The Court stayed that order. Id.
And in Purcell v. Gonzalez, the Court overturned a Court of Appeals’
injunction that prevented enforcement of Arizona’s law that required voter I.D. at
the polls about a month before election day. 549 U.S. 1, 4-5 (2006). The Court of
Appeals gave no reason for its decision. In vacating the order, this Court wrote that
“orders affecting elections, especially conflicting orders, can themselves result in
voter confusion and consequent incentive to remain away from the polls. As an
election draws closer, that risk will increase.” Id. at 5-6.
The concerns that animated Purcell and the other cases cited by the State
Defendants do not exist here. The orders in each of those cases were issued by a
district court much closer to election day, and each order altered the rules of how
the election would be conducted.
Here, in contrast, the district court’s order took effect nearly four and a half
months before the election. More to the point, the district court’s order does not
change how the general election will be conducted. It does not change who may vote,
when they may vote, or how they may vote. The State Defendants do not explain
why a temporary modification to the way signatures are gathered during a preelection initiative drive will cause “voter confusion” or undermine “voter confidence”
in the general election.

18

And there is recent evidence that their concerns are exaggerated. Public confusion
in Idaho did not occur this past spring when the Governor made sweeping changes
to the primary elections by executive order. Ex. M. For the first time in Idaho’s
history physical polls were closed and voting was by absentee ballot only. Ex. M at
110-116. Further, numerous election deadlines were modified. Despite these many
modifications, there was record voter turnout, the highest in decades. See “Idaho
state primary has highest recorded turnout in decades,” A.P., June 22, 2020 at
https://apnews.com/7669cbfffc9e896b686b8326bd35cbca
The idea that the use of electronic signature gathering in an attempt to place
a single citizen’s initiative on the ballot will sow mayhem and voter distrust of the
election this fall is unfounded. The voters will either see the initiative on the ballot
this fall, or they will not. If it is on the ballot, they can vote it either up or down.
There is no confusion.
C.

There is no circuit split on the constitutional issue.

The State Defendants also try to manufacture a circuit split “as to whether
state laws regulating the mechanics of the initiative process can violate the Free
Speech Clause of the First Amendment.” Stay App. at 25. No such split exists. This
Court has unequivocally ruled that laws regulating state initiative processes can be
subject to First Amendment scrutiny, as set out in Meyer and Buckley above.
The cases cited by State Defendants discuss Meyer and acknowledge this
well-established principle. In Initiative and Referendum Institute v. Walker, 450
F.3d 1082 (10th Cir. 2006), the Tenth Circuit wrote, “[t]he First Amendment
19

undoubtedly protects the political speech that typically attends an initiative
campaign, just as it does speech intended to influence other political decisions.” Id.
at 1099.
The State Defendants would have it seem that the Tenth Circuit held that all
laws regulating initiatives are laws that “determine the process by which legislation
was enacted,” and therefore are not subject to First Amendment scrutiny. Stay App.
at 25 (quoting Initiative and Referendum Institute, 450 F.3d at 1099-1100). In
reality, the Tenth Circuit held that the particular law at issue in that case,
requiring a supermajority for passing wildlife-related initiatives, was a law which
“determine[d] the process by which legislation was enacted,” and therefore did not
violate the First Amendment. Initiative and Referendum Institute, 450 F.3d at 10991100. The Tenth Circuit clarified which initiative related laws it believed are
subject to First amendment scrutiny and those which are not: “The distinction is
between laws that regulate or restrict the communicative conduct of persons
advocating a position in a referendum, which warrant strict scrutiny, and laws that
determine the process by which legislation is enacted, which do not.” Id.
The sections of the Idaho Code challenged here, as applied during the global
pandemic, fall into the former category because their enforcement makes circulation
of the petition impossible, which surely “restrict[s] the communicative conduct of
persons advocating a position in a referendum.”
The State Defendants similarly misconstrue the Seventh Circuit’s holding in
Jones v. Markiewicz-Qualkinbush, 892 F.3d 935 (7th Cir. 2018). Stay App. at 26.
20

That opinion, which held that an Illinois law limiting the number of referenda on
any election ballot was not unconstitutional, stood for the uncontroversial principle
that the right to propose initiatives was a state created right and not guaranteed by
the First Amendment. See Jones, 892 F.3d at 937-938. In the Seventh Circuit’s
discussion of Meyer, it clearly signals that once the ballot has been opened to an
initiative process, the First Amendment applies: “a state that does open the ballot
cannot impose unconstitutional conditions—but [Meyer] did not reject the premise
that the right to propose initiatives is an exclusively state-created right that the
First Amendment does not guarantee.” Id.
Nor does the D.C. Circuit’s opinion in Marijuana Policy Project v. United
States, 304 F.3d 82 (D.C. Cir. 2002) create a disagreement “as to whether state laws
regulating the mechanics of the initiative process can violate the Free Speech
Clause of the First Amendment.” Stay App. at 29. The law at issue in Marijuana
Policy Project was a federal statute that denied the District of Columbia authority
to “enact any law” reducing penalties associated with possession, use or distribution
of marijuana. Marijuana Policy Project, 304 F.3d at 83. The D.C. Circuit narrowly
held that legislatures (Congress in that case) can withdraw subject matter from the
initiative process without violating the First Amendment; it did not hold that laws
regulating the initiative process cannot implicate the First Amendment. Id. at 86.
The Court explained the scope of its decision while distinguishing Meyer and
Buckley: “In none of these cases, however, did anyone question whether the ballot
initiative at issue addressed a proper subject. The cases thus cast no light on the
21

issue before us—whether a legislature can withdraw a subject from the initiative
process altogether.” Id.
These cases recognize the rule established in Meyer and Buckley that laws
regulating the initiative process can implicate First Amendment rights. The courts
of appeal merely found that in their cases on their specific facts that the laws before
them did not. These cases do not support the proposition that there is a circuit split
“as to whether state laws regulating the mechanics of the initiative process can
violate the Free Speech Clause of the First Amendment.”
II.

Applicants Have Failed to Show a Fair Prospect that the Court Will
Reverse the Judgment.
The State Defendants also cannot show a fair prospect of a reversal. See

Hollingsworth, 558 U.S. at 190. The State Defendants go to great lengths to make
the district court’s ruling on the constitutional issue and its remedy appear to be an
outlier that tramples over Idaho’s election laws. That is inaccurate.
A.

The district court found the facts and applied the law in a wellreasoned decision to conclude that Reclaim Idaho’s First
Amendment rights were severely burdened.

The district court’s order neither “fundamentally alters” nor “rewrites”
Idaho’s initiative procedures. No Idaho election regulation was altered or struck
down as facially invalid. This was a narrow, as-applied challenge to select statutory
provisions – specifically in-person signature gathering for initiatives and the
deadline for completion – and the remedy applies only to this election cycle. The
district court enjoined nothing permanently. The State Defendants utter barely a
word about Reclaim Idaho’s core First Amendment rights that were severely
22

burdened by strict application of the in-person signature gathering requirement in
the middle of the worst pandemic in this country in over 100 years. The district
court’s decision that Reclaim Idaho’s First Amendment right was severely burdened
rests easily within Meyer, Buckley, and similar cases.
Still, the State Defendants press an argument again here that Reclaim Idaho
lacks standing to bring the lawsuit, which the district court rejected. Ex. A at 16. In
doing so, they have repeatedly minimized the nature of the contacts between
Reclaim Idaho and the Governor and the Secretary of State as Idaho was rapidly
starting to go dark. These were not mere “token” contacts, as Applicants suggest,
between low-level staffers seeking a brief audience with the Governor. Stay App. at
3, 6, 32, and 33. Instead, the Governor’s office gave a definitive “no” to
accommodating Reclaim Idaho’s First Amendment rights when the pandemic made
compliance with in-person circulation impossible. Ex. A at 10. A matter of days
later, the Governor shut everything down by official order. The district court’s
finding of state action is well supported factually and legally. 3

The State Defendants try to pin a concession on Reclaim Idaho’s counsel that
she did not make. They write that, “[c]ounsel for Reclaim Idaho admitted at oral
argument that there was no state action involved in its decision to stop collecting
signatures and that it would not have mattered if the Governor had made an
exception for their First Amendment activities.” Stay App. at 33. The context of this
exchange with the district court was whether an exception for First Amendment
activities in the Governor’s stay-at-home orders would have made a difference. She
admitted that, by then, it probably would not have mattered because of the severe
health risk in personal contact. But she did not admit anything close to “there was
no state action.” Ex. R at 171-73.
3

23

The State Defendants continue to argue that Reclaim Idaho was not diligent
before the shut-down, essentially claiming that any constitutional harm was selfinflicted. They point to the fact that the group did not use the full 18 months that
Idaho law gave them to collect signatures. As the district court cogently observed,
though, “the [constitutional] rights exist throughout the duration of the petition
circulation process, whether on the first day or in the last months.” Id. at 16.
Reclaim Idaho could not have predicted that a pandemic would strike in the last six
weeks, and it “began collecting signatures as soon as their data from a previous
successful campaign suggested they do so.” Id. at 21. It was well ahead of that
campaign. The overwhelming evidence presented to the district court supports its
finding that “[o]nce the group started its drive, there is no real argument to
diligence in effort.” Id. The State Defendants ignore the evidence that all volunteer
initiatives work very differently than those with paid circulators. Grassroots
campaigns like Reclaim Idaho’s benefit enormously from the highly motivating
sense of urgency that kicks in during the final stretch of time before a deadline. Ex.
D at 42-43.
Oblivious to the real consequences that COVID-19 is inflicting on society, the
State Defendants suggest that Reclaim Idaho was overly concerned that its
volunteers were “uncomfortable” collecting signatures from the public during the

24

pandemic, when no state law prevented Reclaim Idaho’s volunteers from continuing
before the official shut down. 4 Stay App. at 7.
The district court credibly found the facts based on the record before it. The
court applied clearly established law from this Court and the Court of Appeals to
find a First Amendment violation.
B.

The district court’s remedy does not “seize control” of Idaho’s
election rules, nor does it unleash the parade of horribles that
the State Defendants conjure up.

The State Defendants devote considerable briefing space to attacking the
district court’s remedy. Their rhetoric – an attempt to catch this Court’s eye –
simply doesn’t match the facts on the ground.
Altogether, the district court’s remedy strikes a balanced and appropriate
compromise. In the short term, the State Defendants will be required to accept
industry-standard electronic signatures for those that remain to be collected, in the
place of “wet ink” signatures signed in person. But everything else in Idaho’s
election laws remains the same. The State Defendants are not required to put
Reclaim Idaho’s initiative automatically on the ballot. Idaho’s clerks must still
check all signers’ authenticating information to ensure that it matches an identified
registered voter at the proper address within the correct legislative district. The

State Defendants also opine that Reclaim Idaho’s volunteers could have ignored
COVID-19 and marched onward to collect signatures even after the Governor’s stayat-home order was in place, as “election personnel” which were exempt as “essential
critical infrastructure workers” by the United States Department of Homeland
Security. The Reclaim Idaho volunteers clearly were not personnel or election
infrastructure workers. Stay App. at 7-8.
4

25

Secretary of State, who does not verify the signatures, must still count them, to
determine whether the petition includes the requisite number of signatures
statewide, and in at least 18 districts.
1.

The process and protocol to collect the remaining signatures
electronically is safe, reliable, and verifiable.

Reclaim Idaho did not “unilaterally decide” a process. Stay App. at 11. The
district court gave the State Defendants an opportunity to confer with Reclaim
Idaho on an acceptable process and protocol. The State made no alternative
electronic signature gathering proposals. Reclaim Idaho responded to the State’s
concerns and modified the process in response. See Ex. N at 123-126. Because the
State did not agree to any electronic signature gathering protocol, the district
court’s order permitted Reclaim Idaho to “implement an industry standard process
and protocol…[that] must ensure the highest available standards are used to verify
a signer’s identity, legislative district, and the authenticity of the signature.” Ex. C
at 38.
Reclaim Idaho has developed a process and protocol that meets the court’s
order. The State Defendants introduced no evidence that the method that Reclaim
Idaho has put together with the assistance of industry leader DocuSign is
unreliable or subject to fraud. Reclaim Idaho’s evidence on that score stands
undisputed. This system was not created in nine days, as the State inaccurately
claims. Stay App. at 11. Reclaim Idaho worked on a solution prior to the filing of the
district court case to propose a path forward, realizing the onus would be upon it to
suggest a secure alternative system. It made a detailed proposal for the use of
26

electronic signatures through DocuSign, “a company trusted by financial
institutions with an impeccable tradition for reliability in gathering electronic
signatures” when it filed for a preliminary injunction. Ex. C at 38; Ex. D a 50-56.
DocuSign is officially certified by the Federal Risk and Authorization Management
program (FedRAMP) a federal government service that vets technology providers
for security and risk. Ex. D at 50. DocuSign has been used in other jurisdictions
such as Massachusetts for petition signatures. Ex. O at 130. More than 775,000
signatures a day are verified by DocuSign. Ex. D at 50.
The State Defendants emphasize how greatly the electronic signature
gathering and validation process differs from the wet ink requirement in Idaho’s
statutes established over a century ago, when no alternative existed. Idaho has
recognized that electronic signatures have the full force and effect of a handwritten
signature for the past twenty years. In fact, the provisions that the State
Defendants rely upon requiring a wet signature are inconsistent with the Uniform
Electronic Transactions Act, Idaho Code § 28-50-101, et seq. (“If a law requires a
signature, an electronic signature satisfies the law.” Idaho Code § 28-50-107 (D) and
“A record or signature may not be denied legal effect or enforceability solely because
it is in electronic form.” Idaho Code § 28-50-107 (A)). There is no merit to the
contention that electronic signatures are not functionally real and legally binding
signatures or that by using one, “the signer does not sign the petition.” Stay App. at
12. This denies the reality that electronic signatures are widespread and an
accepted protocol of the 21st century.
27

Their position is also disingenuous. Idaho allows for voter registration and
requests for absentee ballots online with the use of an electronic signature. The
State Defendants assert that there is “a vital difference between registering to vote
online and collecting petition signatures.” Stay App. at 10. On this the parties
agree. Signing a single citizen’s initiative petition is less impactful to the State than
indefinitely registering a voter who can cast a ballot in all future elections and sign
all future petitions.
Numerous fraud protections are in place. Reclaim Idaho’s DocuSign initiative
petition form confirms each signer’s intent to sign and their consent to do business
electronically. These are the essential measures that must be taken to ensure that
signatures are authentic and legally binding under the federal electronic signatures
act. See 15 U.S.C. § 7001 et seq. They must provide the last four digits of their social
security number. They must sign under penalty of perjury. See, e.g., Meyer, 486 U.S.
at 426–27 (finding that provisions like these “seem adequate to the task of
minimizing the risk of improper conduct in the circulation of a petition, especially
since the risk of fraud or corruption, or the appearance thereof, is more remote at
the petition stage of an initiative than at the time of balloting.”)
For every signature Reclaim Idaho collects, it is storing a certificate of
completion. Ex. N at 125. This certificate is a legally binding document that
provides an audit trail. Id. The audit trail includes a time stamp for when the
person signed along with their GPS location and IP address. Id. Once the signing
process is complete, all documents are digitally sealed using Public Key
28

infrastructure, an industry-standard technology. Ex. D at 51. Reclaim has offered to
provide a certificate for each signature collected to the State if it desires to review or
audit this data. Ex. N at 125. Contrary to the Applicants’ assertion that Reclaim
Idaho has refused to provide the personal authenticating data to the State it
collects, it has offered to provide exactly that (pending a protective order). Id.
The State Defendants did not provide a scintilla of evidence in the district
court questioning DocuSign’s verification process. It also offered no evidence that its
process of having untrained county clerks and their staff visually review petition
signatures to authenticate them is superior to a state-of-the-art electronic signature
verification process. There are many reasons a voter’s signature might appear
differently on their voter registration card versus an initiative petition. The clerks
simply strike any signature they deem does not look “right.” As the Eleventh Circuit
has noted, “even if election officials uniformly and expertly judged signatures,
rightful ballots still would be rejected just because of the inherent nature of
signatures . . .. [T]he writer’s body position, writing surface, type of pen, and mental
and physical states, as well as the surrounding noise, can alter a person’s signature
and produce mismatches.” Democratic Exec. Comm. of Fla. v. Lee, 915 F.3d at 1320;
see also Fla. Democratic Party v. Detzner, 4:16CV607-MW/CAS, 2016 WL 6090943,
at *7 (N.D. Fla. Oct. 16, 2016) (holding that signature matching disenfranchised
voters “arguably for no reason other than they have poor handwriting or their
handwriting has changed over time.”)

29

Contrary to the State Defendants’ hyperbolic concerns about a technological
tool briefly replacing the manual task of visually matching hand-written signatures
to those on file, signing electronically is a safe, reliable, and commonly used method
to legally bind parties. All federal courts have long accepted declarations with an
electronic signature signed under penalty of perjury in the place of a hand-written
one.
In short, the State Defendants have never explained how having hundreds of
different staffers in far-flung counties across the state fly-speck hand-written
signatures in the absence of a uniform standard is more likely to ferret out fraud
than accepting an electronic signature that requires the last four digits of the
signer’s social security number, that is signed under penalty of perjury, and that
can be confirmed through an audit trail. 5
2.

The only temporary change is to permit electronic signature
gathering for the remaining signatures needed. State and
county officials retain all other statutory duties.

The State Defendants complain that the court has outsourced electoral
responsibilities to a private party while also inconsistently complaining about the
allegedly huge burden on clerks to process these petitions under a “new” protocol on
a tight timeline. They omit that approximately 30,000 hand-written signatures

The State Defendants assert that the county clerks typically reject 30 to 40
percent of signatures on initiative petitions during the verification process. Stay
App. at 6. Setting aside the lack of any standard supporting this rejection rate, it is
not accurate for Reclaim Idaho. Its volunteers computer check the information
provided by petition signers before submission to the county clerks, and as a result
of this diligence, the rejection rate is a far lower rate of 14 percent. Ex. F at 68, 70.

5

30

were collected before the pandemic, roughly half of the signatures needed. Despite
the fact Reclaim Idaho began delivering batches of petition as early as last
November, it appears that the county clerk of Idaho’s most populated county – Ada
County – never began the verification process. Ex. L at 107. Other clerks thoughout
the state have already verified 10,000 signatures and Reclaim Idaho has delivered
those to the Secretary of State’s office, as Idaho law provides. The county clerks
need to complete the verification of the remaining 20,000 handwritten petition
signatures just as they have always done.
As to the electronic signatures, the State Defendants ignore that the county
clerks will still be required to verify that the signers of the petition are registered
voters in their county and that the address provided on the petition matches the
address for which they are registered to vote. If not, these names will be stricken
from the petition by the clerks, as in the past. The county clerks will still be
provided with the same information they have always been provided, for other
petitions: name, address, and city or zip code, only without a wet signature. Ex. N
at 125. Because the names and addresses of the electronic signatures will be
submitted in typewritten form, this will simplify and accelerate the clerks’
validation process. This will eliminate the need for clerks to compare physical
signatures with the voter’s registration card and decipher the signers’ hand-printed
names and addresses, as they must do with physical petitions. This will reduce the
administrative burden on the clerks, of which the State Defendants complain.

31

The State Defendants protest that the clerks will not be given the last four
digits of the social security number of a signer, but Reclaim Idaho has already
offered to share this information with the Secretary of State. Id.
The clerks have already completed or have had the opportunity to verify one
half of the signatures Reclaim Idaho has submitted to them. The verification of the
balance can be accomplished by the August 26 deadline. The State has provided no
evidence of why this statutory duty is “near impossible’ given the extra time
allowed, the reduction in the task (no handwritten signatures to compare) and the
fact that Reclaim Idaho is providing the clerks with the petitions on a weekly basis.
Moreover, the opinion that the clerks’ tasks are “near impossible” under the court’s
order is the opinion of a single clerk, from just one of Idaho’s forty-four county
clerks. 6 Likewise, the Court made no adjustments to the deadlines concerning the
ballot printing and mailing, as these deadlines will still be met.
3.

Voters will not be confused.

Voting will not be affected in any way by Reclaim Idaho’s use of electronic
signature gathering for an initiative petition, so it will not cause voter confusion or
undermine voter confidence. If Reclaim Idaho’s army of volunteers can work to
qualify its citizen initiative under Idaho’s rigorous process, then it will appear on
the ballot for the consideration of the electorate in November. Because Idaho has

This is the same county clerk that has not returned any of Reclaim Idaho’s
petitions as verified, despite the fact that approximately 10,000 petition signatures
have been dropped off at his office since last November. Ex. L at 107. His sense of
“near impossibility” may be of his own making.
6

32

some of the most difficult initiative requirements in the country this is hardly a
forgone conclusion. If Reclaim Idaho can qualify its initiative for the ballot, then
voters still have an opportunity to reject it or accept it.
This is a garden-variety case with a remedy that rests easily within the
district court’s discretion. There is nothing in this fact-bound and reasonable
district court decision that warrants reversal.
III.

The Balance of the Equities Weigh Heavily Against a Stay.
Applicants have not established that they will suffer irreparable harm in the

absence of a stay or that the balance of equities tips in their favor. See Barnes v. ESystems, Inc. Grp. Hosp. Med. & Surgical Ins. Plan, 501 U.S. 1301, 1304-05 (1991)
(Scalia, J., in chambers).
The equities strongly favor Reclaim Idaho. If this Court were to grant the
stay as requested by the State Defendants, Reclaim Idaho will not be able to repair
the injury to its First Amendment rights. It will not have a chance to get its
initiative on the ballot and make a matter of political concern the subject of a much
larger public debate. The State Defendants argue that Reclaim Idaho can just start
over and aim for the next ballot “the very next year.” Stay App. at 10. Actually, the
next general election is over two years from now, in 2022. The district court saw the
irreparable harm in this approach, as Reclaim Idaho seeks a change in the law
concerning the funding of public education. “[A] delay in this process by two years
will affect tens of thousands of Idaho students, which has been the plaintiffs’
concern here. And therefore, it strikes right at the heart of their advocacy under the
33

First Amendment.” Ex. R at 174. Reclaim Idaho would be irreparably harmed, as “a
constitutional delay in protecting a constitutional right is a true denial of that
right.” Id.
The State Defendants, conversely, will not be irreparably harmed in the
absence of a stay. The Court of Appeals will likely decide their appeal on the merits
well before the election and before ballots would need to be printed and distributed.
State officials may suffer administrative inconvenience in the interim and may need
to divert resources to complete these tasks, but that is not irreparable harm. E.g.
Sampson v. Murray, 415 U.S. 61, 90 (1974) (“The key word in this consideration is
irreparable. Mere injuries, however substantial, in terms of money, time and energy
necessarily expended in the absence of a stay, are not enough.”) (emphasis in
original) (citation omitted).
Even without the expedited schedule in the Court of Appeals, the district
court’s order would not cause irreparable harm to the State Defendants. Any
intrusion into Idaho’s ability to regulate its initiatives is limited to one part of
Idaho’s election rules. It does not dictate who may vote, how they may vote, or when
they may vote. It does not dictate that Idaho must put the initiative on the ballot.
And, most important, it is a reasonable and temporary fix tailored to the injury in
this moment.
The Court should resolve any doubt in favor of Reclaim Idaho: “Whether or
not the plaintiffs prevail in this Court, the fact is that they did in the District Court.
. . .Where there is doubt, it should inure to the benefit of those who oppose grant of
34

the extraordinary relief which a stay represents.” Williams v. Zbaraz, 442 U.S. 1309
at 1315-16 (1979) (Stevens, J. in chambers).
CONCLUSION
For all these reasons, the emergency application for stay should be denied.
Respectfully submitted on this 21st day of July 2020.

_________________________
Deborah A. Ferguson
Counsel of Record
Craig H. Durham
FERGUSON DURHAM, PLLC
223 N. 6th Street, Suite 325
Boise, Idaho 83702
T: (208) 484-2253
F: (208) 906-8663
daf@fergusondurham.com
chd@fergusondurham.com
Attorneys for Respondents

35

No. 20A18

In the Supreme Court of the United States
___________________

RECLAIM IDAHO, an Idaho Political Action Committee, and
LUKE MAYVILLE,
Respondents,
v.
BRADLEY LITTLE, in his official capacity as Governor of Idaho,
and LAWERENCE DENNEY,
in his official capacity as Idaho Secretary of State,
Applicants.
__________________
On Application to the Honorable Elena Kagan to Stay the Orders
of the U.S. District Court for the District of Idaho
__________________
RESPONDENTS’ EXHIBITS TO OPPOSITION TO
EMERGENCY APPLICATION FOR STAY
_________________
Deborah A. Ferguson
Craig H. Durham
FERGUSON DURHAM, PLLC
223 N. 6th Street, Suite 325
Boise, Idaho, 83702
T: (208) 484-2253
F: (208) 906-8663
daf@fergusondurham.com
chd@fergusondurham.com
Attorneys for Respondents

RESPONDENTS' EXHIBITS TO OPPOSITION TO APPLICATION
FOR STAY
INDEX
EXHIBIT

DOCUMENT

PAGES

A

District Court’s Decision Granting Preliminary
Injunction, June 26, 2020 (Dkt. 14)

1 – 28

B

District Court’s Order Denying Stay of
Preliminary Injunction, June 29, 2020 (Dkt. 17)

29 – 33

C

D

E

District Court’s Order Granting in Part and
Denying in Part Motion to Enforce the Court’s
Order, June 30, 2020 (Dkt. 19)
Declaration of Luke Mayville in Support of
Motion for Preliminary Injunction and Exhibit A,
June 5, 2020 (Dkt. 2-2)
Declaration of Rebecca Schroeder in Support of
Motion for Preliminary Injunction, June 5, 2020
(Dkt. 2-3)

34 – 38

39 – 56

57 – 66

F

Declaration of Ashley Prince in Support of Motion
for Preliminary Injunction, June 5, 2020 (Dkt. 2-5)

67 – 70

G

Declaration of Linda Larson in Support of Motion
for Preliminary Injunction, June 6, 2020 (Dkt. 2-6)

71 – 76

H

I

Declaration of Karen Lansing in Support of
Motion for Preliminary Injunction and Exhibit A,
June 5, 2020 (Dkt. 2-7)
Declaration of Deborah Silver in Support of
Motion for Preliminary Injunction, June 5, 2020
(Dkt. 2-4)

77 – 83

84 – 89

J

K

L

Declaration of Counsel in Support of Motion for
Preliminary Injunction, June 21, 2020 (Dkt. 9-3)
Supplemental Declaration of Luke Mayville in
Support of Motion for Preliminary Injunction and
Exhibit A, June 21, 2020 (Dkt. 9-2)
Second Supplemental Declaration of Luke
Mayville in Support of Motion for Preliminary
Injunction, June 22, 2020 (Dkt. 10)

90 – 93

94 – 104

105 – 108

M

Governor Little’s April 1, 2020 Proclamation
Modifying Idaho Election Laws

109 – 116

N

Status Report on Compliance with Court’s June 30
Order and Exhibit A, July 10, 2020 (Dkt. 25; 25-1)

117 - 126

O

Fourth Supplemental Declaration of Luke
Mayville in Support of Motion for Preliminary
Injunction and Exhibits 1 and 2, July 10, 2020
(Dkt. 25-2; 25-3; 25-4)

127 – 162

P

Court of Appeals Order Denying Emergency Stay
and Dissent (July 9, 2020) (Cir. Dkt. 14)

163 – 167

Q

Notice of Oral Argument Scheduled for August
10, 2020 – 9:30 A.M., July 10, 2020 (Cir. Dkt. 15)

168 – 169

R

Selected Excerpts from the Oral Argument
Transcript (June 23, 2020)

170 – 174

Reclaim Idaho Exhibit A
District Court’s Decision and Order Granting
Preliminary Injunction

1

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 1 of 27

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, a political action
committee, and LUKE MAYVILLE,

Case No. 1:20-cv-00268-BLW
MEMORANDUM DECISION
AND ORDER

Plaintiffs,
v.
BRADLEY LITTLE, in his official
capacity as the Governor of Idaho, and
LAWERENCE DENNEY, in his
official capacity as Idaho’s Secretary
of State,
Defendants.

INTRODUCTION
On June 23, 2020 the Court heard oral argument on Plaintiffs’ Expedited
Motion for Preliminary Injunction. Dkt. 2. At the close of arguments, the Court
orally granted the motion. As stated during the hearing, oral decision was
warranted given the expedited nature of the situation and the rights at issue. This
written order further details the facts, circumstances, and legal framework the
Court considered in conducting its analysis of the motion and in fashioning relief.

2

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 2 of 27

BACKGROUND
Reclaim Idaho is a volunteer-run political action committee that is seeking to
place a citizen initiative on the November 2020 general election ballot. Dkt. 2-1 at
1. Luke Mayville is the committee’s co-founder. Id. The Court will refer to the
Plaintiffs collectively as “Reclaim Idaho.” Reclaim Idaho filed suit against the
Governor of Idaho, Bradley Little, and Idaho’s Secretary of State, Lawrence
Denny. The Court will refer to the Defendants collectively as “the State.” Reclaim
Idaho sued the State for alleged violations of federal constitutional rights within
Idaho’s citizen initiative process. See Compl., Dkt. 1. The complaint was
accompanied by Reclaim Idaho’s expedited motion for preliminary injunction
seeking redress for the alleged constitutional violations.
Reclaim asks the Court to: (1) declare the State’s application of I.C. § 341802 in the unprecedented COVID-19 pandemic scenario violates the U.S.
Constitution by unfairly burdening the initiative process; (2) declare that the
State’s application of I.C. § 34-1807 on the facts and circumstances violates the
U.S. Constitution by unduly the burdening signature gathering efforts in support of
the Invest in Idaho initiative; (3) issue a preliminary injunction enjoining the
State’s enforcement of I.C. § 34-1802 and I.C. § 34-1807 for as long as necessary
to remove the undue burden; (4) issue a preliminary injunction extending the
deadline to submit petition signatures to county clerks for verification; (5) issue a

3

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 3 of 27

preliminary injunction extending the deadline to submit petition signatures to the
Secretary of State; (6) issue a preliminary injunction to permit the electronic
circulation of the initiative and to the State to accept electronic signatures. Dkt. 1 at
11.
The State filed a response in opposition, asserting Reclaim Idaho lacks
standing to bring this matter due to its own dilatory conduct and, relatedly, is
barred by the doctrine of laches due to its delay in bringing the suit and motion
more than a month after the applicable deadline. Dkt. 8 at 1-2. In addition, the
State argues Reclaim Idaho asks the “Court to aggressively invade the Idaho
Legislature’s constitutionally-created authority and create a signature-gathering
alternative that is nowhere contemplated by the Idaho Constitution or Code.” Id. at
2. The State argues also that, the Court should decline the request for preliminary
relief because Reclaim Idaho will not be successful on the merits of its claim and
the burdens the relief would impose on the State are substantial. Id. at 3.
The following facts and circumstances form the backdrop of this dispute.
A.

Idaho’s Ballot Initiative Process

Idaho citizens may enjoy the right reserved by Idaho’s Constitution to
propose and enact laws independent of any act of the state legislature. See Idaho
Const. Art. III, sec. 1. Since the 1890 approval of Idaho’s Constitution, the state
legislature has enacted a statutory scheme to define the citizen initiative process.

4

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 4 of 27

See Idaho Code §§ 35-1801 et. seq. The laws set forth conditions that a petitioner
must meet before an initiative will be placed on a general election ballot by the
Secretary of State. Id.
A petitioner begins the process by filing a proposed ballot initiative with the
Secretary of State’s office. Idaho Code § 34-1801(a). After review and approval of
the initiative’s form, the Secretary of State provides the petitioner with a ballot
title. Id. at § 34-1809(2)(b). With the ballot title and approval in hand, the
petitioner may begin to collect signatures in support of the initiative. The statue
allows petitioners up to 18 months to collect signatures—with a final submission
deadline of April 30 in the election year the initiative will be held. Idaho Code §
34-1802.
Idaho law requires petitioners to gather the signatures of legal voters equal
to 6 percent of the qualified electors from the last election in 18 of Idaho’s
legislative districts. Idaho Code § 34-1805. In this case, the last election was the
November 2018 general election. Considering the number of qualified electors
from 2018, a petitioner seeking to place an initiative on the November 2020 ballot
must have collected 55,057 or more valid signatures. Dkt. 1 at 4. The law requires
also that, any person working to gather signatures be a citizen of Idaho. Idaho
Code § 34-1807. The signature gatherer must verify that they personally witnessed

5

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 5 of 27

each person sign the petition—in other words, Idaho has an in-person signature
requirement. Id.
All signatures must be submitted to the appropriate county clerk for
verification no later than the close of business on May 1 in the year of the election,
(or 18 months from the date the petitioner receives the official ballot title from the
SOS, whichever is earlier). Idaho Code § 34-1802(2). County clerks must verify
the signatures by June 30 of the election year. Id. at § 34-1802(3). The verified
signatures are submitted to the Secretary of State’s office, which makes the final
count to determine if enough signatures have been collected to meet the statutory
requirement. Id. If so, the initiative is included on the general election ballot for
citizen consideration and vote.
B.

Reclaim Idaho’s Initiative Actions

In 2019, Reclaim Idaho started “Invest in Idaho,” an initiative drive aimed at
getting an initiative on the 2020 general election ballot which would allow voters
to approve an increase in funding for kindergarten through 12th grade education in
Idaho. Dkt. 2-1 at 2. Reclaim Idaho was formed in 2017 and successfully
petitioned to place an initiative to expand Medicaid on the November 2018 ballot.
Id. at 4. Idaho citizen voters passed the initiative into law. Id.
Reclaim Idaho used the successful model it developed for the Medicaid
petition to organize its Invest in Idaho initiative drive. Id. The model included

6

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 6 of 27

“early stage” volunteer recruitment events, where the group worked to build teams
in Idaho’s legislative districts. Id. at 4–5. The model also included a plan to
gradually scale up signature collection efforts in the final months before the May 1,
2020 submission deadline. Id. at 5. According to declarations submitted in support
of the motion, the gradual scaling of Reclaim Idaho’s efforts reached “critical
mass” in early March 2020—the surge in volunteers and favorable springtime
weather and daylight hours was anticipated to boost its organizing efforts in the
final stages of its drive. Silver Decl., Dkt. 2-4 at 4.
According to its model, Reclaim Idaho began its initiative drive in
September 2019. Schroeder Decl., Dkt. 2-3 at 3. Reclaim Idaho held twenty-five
volunteer organizing meetings and signature gathering events between September
14, 2019 and December 15, 2019. Id. at 2–3. Reclaim Idaho held five more events
between the first of the year and January 3, 2020. Id. at 4. Thereafter, Reclaim
Idaho’s organizing leaders held signature gathering events in their own districts
throughout the month of February and into early March. Id. In some districts, such
as District 4, Reclaim Idaho held a signature gathering event each week. Id.; see
also Prince Decl., Dkt. 2-5 at 2.
These efforts slowed with the news of the COVID-19 pandemic. Dkt. 2-3 at
4–5. During the week of March 8, 2020, Reclaim Idaho’s leadership began to
communicate with its local volunteer leaders regarding a set of guidelines it

7

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 7 of 27

developed for safer signature collection. Id. Around that time, the Centers for
Disease Control (CDC) issued guidance to curb the spread of the novel
coronavirus. Id. at 5. Maintaining a distance between oneself and others of at least
six feet was – and still is – one of the CDC’s main recommendations to prevent the
spread of the virus. See id. Provided this guidance and rising health concerns
voiced by its volunteers, Reclaim Idaho cancelled all door-to-door canvassing
events and signature gathering efforts at larger public events on or around March
18, 2020. Id. at 8.
C.

Executive COVID-19 Response

Meanwhile the State of Idaho was also responding to the threat of the virus.
As news of Idaho’s first confirmed case broke, Idaho Governor Bradley Little
quickly took executive action to curb the spread of COVID-19 in the state. See
Dkt. 8 at 5–6. On March 13, 2020, he declared a state of emergency by
proclamation due to “the occurrence and imminent threat to public health and
safety arising from the effects of the 2019 novel coronavirus (COVID-19).” Dkt. 21 at 7. On March 25, 2020, the Governor issued an extreme emergency
proclamation which contained a broad stay-at-home order for most Idahoans. Id. at
9. The stay-at-home order was in effect until April 15, 2020. The order required
“all individuals anywhere in the State of Idaho to self-isolate – that is, stay at home
– except for certain essential activities and work to provide essential business and

8

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 8 of 27

government services or perform essential public infrastructure construction,
including housing.” The order stated that failure to comply with its provisions
could constitute a misdemeanor. It included exceptions for certain people or
activities, but did not include an exception for First Amendment activities.1 The
stay at home order was amended on April 15, 2020 and extended to April 30, 2020.
The amended order also did not include an exception for First Amendment
activities. When the amended order expired, it was replaced with Idaho’s first
“Stay Healthy Order,” which was part of the State’s staged reopening plan set forth
in the broader “Idaho Rebounds” action. Idaho began to reopen according to the
staged plan on May 1, 2020.
D.

State Response to Reclaim Idaho’s Inquiries

On March 16, 2020, Reclaim Idaho contacted the offices of the Governor
and Secretary of State. Dkt. 2-1 at 12; Dkt. 8 at 5. Because the parties dispute the
express intent of the communications, the Court will briefly detail their content.
According to the record before the Court, the public relations director for
Reclaim Idaho, Rebecca Schroeder, emailed Andrew Mitzel, Senior Advisor to
Governor Little, the morning of March 16, 2020. Dkt. 2-3 at 5. Ms. Schroeder’s

1

The Court takes judicial notice pursuant to the authority granted in Federal Rule of
Evidence 201(b) and (c)(1) of the full text of the Governor’s emergency proclamations and stayat-home orders to the extent they have not been fully referenced and included in the briefing on
this matter.

9

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 9 of 27

email voiced Reclaim Idaho’s concerns about the potential negative health effects
involved in in-person signature collection efforts. She indicated that continuing to
gather petitions face-to-face would put volunteers and the general public at risk
and was contrary to the guidelines from public health officials. Id. at 6. Ms.
Schroeder noted that, as a result of health risk posed by in-person signature
gathering, “Idahoans are no longer able to exercise their constitutional right to
bring forward a ballot initiative.” Id. She asked for the opportunity for Reclaim
Idaho to meet with the Governor to discuss the safest way to move forward and
stated the “extraordinary situation requires action by the Governor to ensure the
public safety is maintained” while Reclaim Idaho exercised its Constitutional
rights. Id.
Mr. Mitzel’s response to the email was as follows: “Thanks for reaching out.
I would encourage you to reach out to the Secretary of State’s office with your
concerns regarding ballot initiatives as they oversee the process.” Id. Ms.
Schroeder sent a reply that she had simultaneously reached out to the Secretary of
State’s office, and had been advised that it would take Legislative or Executive
action to extend the signature deadline. Id. The email exchange included a final
response from Mr. Mitzel where he indicated “the Governor’s Office has no
intention of taking executive action on this matter.” Id. at 7.

10

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 10 of 27

Ms. Schroeder also contacted the Secretary of State’s office on March 16,
2020. Her email to Secretary Denny included in part:
Dear Mr. Denney:
We are faced with a global pandemic. Idahoans are responding by
cancelling public events and dramatically reducing face-to-face
interactions. This reality creates extraordinary obstacles for Idaho's
ballot initiative process and the constitutional right of every Idahoan to
participate in that process. Idaho's initiative qualification laws, which
are among the strictest in the country, require tens of thousands of faceto-face interactions. In the interest of safeguarding the health of the
public and protecting the constitutional rights of Idahoans, we are
asking to authorize temporary online petitioning for Idaho ballot
initiatives. The state of Idaho conducts much of our public business
online, from voter registration to campaign finance documentation to
the registration of new corporations. It is well within our capacity as a
state to process petition signatures online. During these extraordinary
times, online petitioning is the most effective way to protect public
safety while maintaining the constitutional right of Idahoans to
participate in the ballot initiative process.
Please advise if this is within the realm of the SOS, or whether it would
require Legislative or Executive action.
Dkt. 2-3 at 7-8.

In response to the inquiry, a member of the Secretary of State’s staff replied as
follows:
Thank you and your fellow supporters for sharing your concern with us
via email. While we understand the current situation we are in is
unprecedented and can appreciate how the further efforts in attaining
the remaining signatures for your petition will be complicated
logistically, we are sorry to say that there is no statute allowing
electronic signatures for petitions in Idaho Statutes 34 Chapter 18.
Dkt. 2-3 at 8.

11

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 11 of 27

According to the record before the Court, the exchanges detailed above
represent the entirety of communications between the parties regarding the issue of
signature collection during the pandemic.
The Court considered Reclaim Idaho’s motion for temporary restraining
order with these facts and circumstances in mind. Next, the Court will set forth the
standard of law and applicable legal framework for its analysis of the motion and
the State’s opposition.
STANDARD OF LAW
Motions for preliminary injunctions are governed by Federal Rule of Civil
Procedure 65. A plaintiff seeking a preliminary injunction must establish that: 1) it
is likely to succeed on the merits; 2) it is likely to suffer irreparable harm in the
absence of preliminary relief; 3) the balance of equities tips in its favor; and 4) an
injunction is in the public interest. See Winter v. Natural Resources Defense
Council, Inc., 555 U.S. 7, 20 (2008). A preliminary injunction is “an extraordinary
remedy never awarded as of right.” Id. at 24. “In each case, courts ‘must balance
the competing claims of injury and must consider the effect on each party of the
granting or withholding of the requested relief.’ Id. (citation omitted).
ANALYSIS
In addition to arguing Reclaim Idaho is unlikely to succeed on the basis of
its First Amendment-based claim, the State argues Reclaim Idaho lacks Article III

12

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 12 of 27

standing. Prior to addressing the Winter factors, the Court will provide greater
detail regarding its finding that Reclaim Idaho has standing to bring this action and
seek a preliminary injunction.
A.

Standing

To establish standing under Article III, Reclaim Idaho had the burden of
establishing three elements: (1) it has “suffered an injury in fact—an invasion of a
legally protected interest which is (a) concrete and particularized, and (b) actual or
imminent, not conjectural or hypothetical”; (2) the injury is “fairly traceable to the
challenged action”; and (3) “it [is] likely, as opposed to merely speculative, that the
injury will be redressed by a favorable decision.” Lujan v. Defenders of Wildlife,
504 U.S. 555, 560–61 (1992) (internal citations and footnote omitted).
When the suit is one challenging the legality of government action or
inaction, the nature and extent of facts that must be averred […] to establish
standing depends considerably upon whether the plaintiff is […] an object of
the action (or forgone action) at issue. If he is, there is ordinarily little
question that the action or inaction has caused him injury, and that a judgment
preventing or requiring the action will redress it.

Id. at 561–62.
As I noted during the motion hearing, the first and third elements of the
standing inquiry are easily recognized and established under these facts and
circumstances. Indeed, the State focused its standing argument on the second
element, arguing the alleged First Amendment violation was not fairly traceable to
the actions or inaction of the State. See Dkt. 8 at 7.

13

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 13 of 27

Reclaim Idaho is challenging the legality of the State’s refusal to make
reasonable accommodations for the continuation of its signature gathering and
petition circulation activities during the pandemic, which resulted in the stay-athome order discussed above. See Dkt. 1 at 11. As primary support for the
contention that the State’s refusal to act resulted in injury to its First Amendment
rights, Reclaim Idaho cites the declaration of Ms. Schroeder. Dkt. 2-3. In the
declaration, Ms. Schroeder details her communications with the offices of
Governor Little and Secretary Denny. Id. In her communication with the
Governor’s office, Ms. Schroeder was clear that the impact of health concerns and
the guidance of public health officials made it impossible for Idahoans to continue
to exercise their constitutional rights to bring forth a ballot initiative. Id. at 6. She
noted also that, the “extraordinary situation requires action by the Governor to
ensure the public safety is maintained” while also preserving the constitutional
rights within the initiative process. Id.
In response, the State argues that because the Governor is not involved in the
oversight, management, or legislation of the initiative process, his inaction does
not give Reclaim Idaho standing to sue. Dkt. 8 at 5. The Court finds the State’s
argument unpersuasive in light of the extraordinary situation imposed on all parties

14

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 14 of 27

by the COVID-19 pandemic and the Governor’s authority to issue executive orders
in times of declared emergency.2
Using similar reasoning, the State argues that the Secretary of State did not
act and could not act to provide a remedy. The email correspondence between Ms.
Schroeder and a staff member of the Secretary’s offices shows the Secretary’s only
response to Reclaim Idaho’s inquiry was to refer back to the limitations of the
statue—in other words, to interpret the statutory conditions narrowly, even in the
face of the pandemic. See Dkt. 8 at 7. This was the Secretary’s response and a
choice that arguably impacted the ability of Reclaim Idaho to continue to exercise
its constitutional rights within the petition process. Provided the foregoing, the
Court finds that the inaction of the State resulted in the alleged injury to Reclaim
Idaho.
The Court must also address the State’s arguments that it was Reclaim
Idaho’s own decisions that resulted in its failure to collect the requisite number of
signatures. Dkt. 8 at 7. The State argues that by deciding to begin its signature
collection campaign in September 2019, Reclaim Idaho failed to take advantage of
the entire 18-month signature collection window permitted within the statute. Id.

2

As an example of such authority, during the hearing on the motion, the undersigned
noted actions taken by the Governor and the State to extend the deadline for submission of
absentee ballots, revise primary election deadlines, and to all but eliminate in-person primary
voting due to the pandemic and stay-at-home order.

15

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 15 of 27

However, reason dictates that there is no way Reclaim Idaho could have predicted
the global COVID-19 pandemic when it began to plan its initiative drive—
planning which necessarily must have occurred in advance of August 2019 when
its petition was first submitted to the Secretary of State’s office. See Dkt. 8 at 7.
Further, Reclaim Idaho’s constitutional rights in the petition process are not
forfeitable based on a timeline. The rights exist throughout the duration of the
petition circulation process, whether on the first day or in the last months. The
Court properly addresses these concerns by determining the severity of the burden
within the context of the level of scrutiny that should be applied to evaluate the
effect of the State’s actions. See infra at pp. 17–22.
In sum, the Court finds the evidence shows Reclaim Idaho was reasonably
diligent in collecting signatures until the news of COVID-19 in Idaho and the
subsequent stay-at-home order made it impossible to do so. The Court finds the
evidence shows also, absent a preliminary injunction, Reclaim Idaho will be unable
to get the initiative on the ballot in November 2020. If the State had been willing to
extend the submission deadline or accept electronic signatures as urged by Reclaim
Idaho, the State could have redressed the alleged injury. As such, the Court finds
Reclaim Idaho has standing to proceed in this matter.

16

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 16 of 27

B.

Likelihood of Success on the Merits

Reclaim Idaho asserts an as-applied challenge to Idaho’s initiative process
laws. As detailed above, Reclaim Idaho argues the decisions by the Governor and
Secretary of State to strictly enforce the conditions of Idaho’s ballot initiative laws
without reasonable accommodation has violated their First and Fourteenth
Amendment rights by making it impossible for the initiative to appear on the
November 2020 ballot. See Dkt. 1; Dkt. 2-1.
In response, the State argues Reclaim Idaho did not act with diligence in
collecting signatures before the 2020 general election given the 18-month
timeframe allowed by statute, and that Reclaim Idaho suspended its own campaign
in advance of the issuance of Idaho’s stay-at-home order. See Dkt. 8. To the merits
of the motion for preliminary injunction, the State argues Reclaim Idaho cannot
show the burden to their First Amendment rights was severe, due to the alleged
delay and action cited immediately above, and that the State’s regulatory interest
outweighs any harm to Reclaim Idaho—especially because they can begin the
initiative process anew for the 2022 election—and will have the entire 18-month
period to do so. Dkt. 8 at 2.
1. Constitutional Framework
Courts generally apply the framework established in Anderson v. Celebrezze,
as later refined in Burdick v. Takushi (the Anderson-Burdick framework) when

17

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 17 of 27

considering the constitutionality of ballot access restrictions. 460 U.S. 780 (1983);
504 U.S. 428 (1992). However, because Reclaim Idaho is not challenging the base
constitutionality of Idaho’s ballot access conditions, but rather their application,
this Court finds, as did the U.S. District Court for the District of Nevada in Fair
Maps Nevada, that the test set out by the Ninth Circuit in Angle v. Miller is the
framework the Court should apply to determine whether the State’s inaction
amounts to an unconstitutional burden in this case. See 673 F.3d 1122, 1132 (9th
Cir. 2012). Notably, neither party contests the law on this issue.
In Angle, the Ninth Circuit explained the Supreme Court of the United States
has found there are two ways in which restrictions on the initiative process can
burden core political speech. 673 F.3d 1122, 1132 (9th Cir. 2012). First, when
regulations that restrict one-on-one communication between petition circulators
and voters. Id. Second, when regulations make it less likely proponents will be able
to get enough signatures to place an initiative on the ballot. Id.
The first type of restriction is largely not at issue in this case. The
management of the spread of COVID-19 has foreclosed in-person one-on-one
communication between Reclaim Idaho’s petition circulator volunteers and voters.
However, the second type of restriction is at issue because the question before the
Court is whether the State’s strict application of the statutory initiative conditions

18

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 18 of 27

make or made it less likely for Reclaim Idaho to get enough signatures to place the
Invest in Idaho initiative on the ballot.
Reclaim Idaho has shown that the State refused to take executive action to
ensure Reclaim Idaho could continue to safely gather signatures from March 16,
2020, when the request was made to both the Governor and the Secretary of State,
through the end of the amended stay-at-home order, or April 30, 2020.
Coincidently, April 30th was also the last day permitted by statute to gather
signatures. Therefore, the Court finds the State’s refusal to make reasonable
accommodations during this time period made it less likely for Reclaim Idaho to
get enough signatures to place the Invest in Idaho initiative on the November 2020
ballot. In reality, the State’s refusal to act made it impossible for Reclaim Idaho to
get the initiative on the ballot absent an order of relief from this Court.
Having found a burden on Reclaim Idaho’s core political speech, the Court
must determine whether strict scrutiny or some lesser form of review applies to the
State’s conduct. See Arizonans for Fair Elections v. Hobbs, 2020 WL 1905747, at
*8 (D. Ariz. Apr. 17, 2020); see also Ariz. Green Party v. Reagan, 838 F.3d 983,
985 (9th Cir. 2016). Courts apply strict scrutiny when: (1) the proponents of the
initiative have been “reasonably diligent” as compared to other initiative
proponents; and (2) when the restrictions significantly inhibit the proponents’

19

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 19 of 27

ability to place an initiative on the ballot. Fair Maps Nevada v. Cegavske, 2020
WL 2798018, at *11 (D. Nev. May 29, 2020).
a. Reasonable Diligence
As detailed above, by the start of 2020, Reclaim Idaho had held 25 volunteer
organizing and signature gathering events since receiving their ballot title a few
months prior. By the middle of February 2020, Reclaim Idaho had collected
approximately 15,000 signatures. By mid-March, they had collected approximately
30,000 signatures. At that time, they had qualified in 5 out of Idaho’s 18 legislative
districts. Dkt. 2-1 at 6. “[S]even additional districts [were] within a few hundred
signatures of qualification.” Id.
According to the committee’s records, their signature collection numbers for
the Invest in Idaho drive exceeded those for their successful Medicaid initiative
drive in the last general election cycle. In other words, by mid-March they were on
track, according to their data, to collect the necessary number of signatures, in all
legislative districts, by the May 1, 2020 submission deadline.
In presenting their argument to the Court, Reclaim Idaho stressed that, in
volunteer-led signature gathering campaigns, the momentum of the final months
prior to submission results in a significant increase in the number of signatures
gathered per week or even per day. Thus, the time Reclaim Idaho lost due to the

20

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 20 of 27

pandemic and the subsequent stay-at-home order, was key to reaching their goal
and was anticipated in their organizing plan.
The State argues, however, that Reclaim Idaho’s decision to voluntarily
suspend its own signature collection efforts on or around March 16, 2020 and prior
to the March 25, 2020 state-at-home order, forecloses their ability to bring this
claim. The State’s logic being that it was Reclaim Idaho’s act, not any act of the
State, that suspended their signature collection efforts. This argument ignores the
elephant in the room, which is COVID-19. In reality, it was the impact of the virus
that resulted in the suspension of Reclaim Idaho’s in-person signature collection
activities. As the record shows, Reclaim Idaho immediately sought to work with
the State’s officials to come up with a State-sanctioned solution so its volunteer
members could continue the petition drive. Reclaim Idaho sought that relief on
March 16, 2020.
The State argues also that Reclaim Idaho simply should have begun its
petition drive sooner—as it had an entire 18 months to conduct the drive under
law. However, under the reasonable diligence standard applicable here, the Court
finds the argument unpersuasive. Reclaim Idaho began collecting signatures as
soon as their data from a previous successful campaign suggested they do so. Once
the group started its drive, there is no real argument to diligence in effort.

21

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 21 of 27

Considering the foregoing, the Court finds that Reclaim Idaho was reasonably
diligent in collecting signatures.
b. Ability to Place Initiative on the Ballot
This case is about Reclaim Idaho’s First Amendment rights pertaining to the
2020 election cycle. The State argues Reclaim Idaho’s ability to place the initiative
on the ballot is not inhibited because they may simply try again in 2022. This
argument is connected to the State’s laches argument—where the State argues
Reclaim Idaho lost its opportunity for relief by failing to file this lawsuit before
May 1, 2020, the signature submission deadline. The State’s argument asks the
Court to set aside the right Reclaim Idaho had to carry its initiative process through
its final stages during this election cycle.
As the Supreme Court has recognized, “when an initiative fails to qualify for
the ballot, it does not become ‘the focus of statewide discussion.’” Angle v. Miller,
673 F.3d 1122, 1133 (9th Cir. 2012) (citing Meyer, 486 U.S. at 423). In this case,
the State’s action to strictly enforce Idaho’s ballot access conditions, i.e. to refuse
to make reasonable accommodation, during the unprecedented time of the
pandemic, reduced “the total quantum of speech” on the public issue of education
funding. See id. The State’s purported remedy belies the reason Reclaim Idaho
staged its initiative campaign during this cycle—which was to give Idaho voters a
chance, on the November 2020 ballot, to make a change to tax law to provide

22

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 22 of 27

additional funding to public school students in the coming years. Delay in the
process until 2022 could result in impact to tens of thousands of public students
over that time—which strikes to the heart of Reclaim Idaho’s First Amendment
activity.
In its inquiry, the Court recognizes that the State has a significant regulatory
interest in its own processes—including mandating adherence to the ballot access
conditions set in statute. See Angle, 673 F.3d at 1135. However, that interest must
be weighed against the effects of strict enforcement when an extraordinary
situation arises that prevents its citizens from exercising a constitutional right. See
Buckley v. Am. Constitutional Law Found., Inc., 525 U.S. 182, 191–92 (1999)
(states have “considerable leeway” in regulating the electoral process, provided
their choices do not produce “undue hindrances to political conversations and the
exchange of ideas.”).
As acknowledged by the State during oral argument on the motion, the State
recently recognized the limits to its regulatory authority when it came to the need
to provide electronic avenues for online voter registration and absentee ballot
requests. See also Dkt. 9 at 7. The Governor provided for all-absentee voting in the
2020 primary elections due to COVID-19. Id. To do so, the Governor worked with
the Secretary of State to suspend certain statutory requirements. Id. Notably,
Idaho’s online voter-registration processes requires the individual to attest to their

23

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 23 of 27

identity by way of a digital signature—which, presumably, state election officials
must verify.
Ultimately, even if the State decides to include the Invest in Idaho initiative
on the ballot by deeming the signatures gathered thus far sufficient, the State
retains the ultimate opportunity to verify each and every vote cast for or against the
initiative through the ballot review process.
For these reasons, the Court finds the State’s refusal to make reasonable
accommodations inhibited Reclaim Idaho’s ability to place the Invest in Idaho
initiative on the November 2020 general election ballot. As such, the Court finds
Reclaim Idaho is likely to succeed on the merits of its claims.
C.

Irreparable Harm

Absent a preliminary injunction, there is no chance their Invest in Idaho
initiative will appear on the Idaho ballot. Indeed, the deadline for signature
submission has expired. As such, without Court order, the initiative will not
appear on the 2020 general election ballot. Therefore, the Court finds Reclaim
Idaho is likely to suffer irreparable harm in the absence of preliminary relief.
D.

Balance of Equities

The Court must also balance the relative hardships on the parties should it
provide preliminary relief or decline the request. Winter v. Natural Res. Def.

24

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 24 of 27

Council, Inc., 555 U.S. 7, 20 (2008); University of Hawaii Prof. Asm. v. Cayetano,
183 F.3d 1096, 1108 (9th Cir. 1999).
The State cites the significant burden that will be placed on its employees
and offices due to the delay in signature gathering and submission as it will take
considerable resources to verify the additional signatures that will be submitted.
The Court is sympathetic to the plight of the State and its officers and employees.
During the course of the pandemic, the courts have likewise experienced the strain
placed on employees and departments due to the need to manage new situations
and scenarios. However, this Court in particular is aware of the great resource
provided by technology to solve problems. The use of new technologically based
processes has allowed the Court to hold hearings without exposing litgants,
attorneys, or the public to the risk of COVID-19 all the while, preserving
constitutional rights and liberties.
Considering the foregoing, when balancing the harm of a severe burden on
core political speech and the not insignificant burden reasonable accommodation
may place on the State, the Court must find in favor of preserving constitutional
rights. This finding acknowledges the faith the Court has in the State’s abilities to
devise reasonable accommodations to preserve the rights at issue—as it has
successfully done in other contexts during this trying time.

25

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 25 of 27

E.

Public Interest

Finally, the Court must consider whether issuing preliminary relief is in the
public interest. As the Court’s discussion of the other Winter factors makes clear, it
is in the public’s interest to issue relief that would provide a remedy to preserve
Reclaim Idaho’s right to have the ability to place the Invest in Idaho initiative on
the November 2020 ballot. Because the public itself would be the final arbiter of
whether the initiative is passed into law, the Court finds issuing a preliminary
injunction requiring the State to make reasonable accommodation to protect
Reclaim Idaho’s core political speech rights in the initiative process is in the
public’s interest.
In sum, the Court finds Reclaim Idaho has established it is likely to succeed
on the merits, it will suffer irreparable harm in the absence of preliminary relief,
the balance of the equities tips in its favor, and an injunction is in the interests of
the public. Having so found, the Court will now discuss the issue of a remedy.
F.

Remedy

The Court struggled in determining what would be an appropriate remedy.
The Court is disinclined to tell the State how to run the initiative process.
However, as the analysis herein explains, the First and Fourteenth Amendments do
place some restrictions on the State’s authority through the preservation of
constitutional rights. See supra at pp. 20–22.

26

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 26 of 27

The Court considered the following facts when fashioning its remedy and
order of accommodations. First, Reclaim Idaho and its volunteers were well on
their way in obtaining the signatures necessary for inclusion of the initiative on the
November 2020 ballot. Due to Reclaim Idaho’s projected chance of success in
obtaining the necessary signatures absent the extraordinary event of the COVID-19
pandemic, the first remedy the State can choose to provide is to certify the
signatures that have been collected and place the initiative on the November 2020
ballot for voter consideration. In fashioning this remedy, the Court also considered,
as argued by Reclaim Idaho during the hearing, that Idaho’s ballot conditions are
more stringent than those found in other states. As such, the State providing some
leeway in its requirements in this extraordinary moment is a viable option.
However, recognizing the State’s interest in upholding its conditions,
specifically the numerical and geographical requirements, the Court provided that
the State may instead choose to allow Reclaim Idaho an additional 48-days to
gather signatures through online solicitation and submission. The Court declined to
issue relief simply allowing the additional time for in-person signature collection.
There is ongoing uncertainty surrounding the current and future spread of COVID19. Close personal encounters still pose an ongoing and substantial risks to health
of Idaho’s citizens and Reclaim Idaho’s volunteers who would be contacting and
communicating with them. Finally, the State has demonstrated it is comfortable

27

Case 1:20-cv-00268-BLW Document 14 Filed 06/26/20 Page 27 of 27

relying on digital signature collection in both the voter registration and online
ballot collection processes. Neither of these processes is different from the
initiative process in that all require the verification and certification of the digital
signature. The Court’s order permits the State until 5:00 p.m. M.S.T. on June 26,
2020 to choose between the two alternative remedies.
ORDER
IT IS ORDERED that:
1.

Plaintiffs’ Expedited Motion for Preliminary Injunction (Dkt. 2) is

GRANTED.
2.

On or before June 26, 2020 at 5:00 p.m. M.S.T., Defendants must file

with the Court a notice detailing the reasonable accommodation they have
chosen to make to preserve Plaintiffs’ core political speech rights as detailed
in this Memorandum Decision and Order.

DATED: June 26, 2020
_________________________
B. Lynn Winmill
U.S. District Court Judge

28

Reclaim Idaho Exhibit B
District Court’s Order Denying Stay of Preliminary Injunction

29

Case 1:20-cv-00268-BLW Document 17 Filed 06/29/20 Page 1 of 4

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, a political action
committee, and LUKE MAYVILLE,
Plaintiffs,
v.

Case No. 1:20-cv-00268-BLW
ORDER DENYING MOTION TO
STAY

BRADLEY LITTLE, in his official
capacity as the Governor of Idaho, and
LAWERENCE DENNEY, in his
official capacity as Idaho’s Secretary
of State,
Defendants.
On June 23, 2020, the Court heard oral argument on Plaintiffs’ Expedited
Motion for Preliminary Injunction. Dkt. 2. At the close of arguments, the Court
orally granted the motion. A written order was subsequently filed to set forth the
facts, circumstances, and legal framework the Court considered in conducting its
analysis of the motion and in fashioning relief. Dkt. 14.
In its oral pronouncement and written order, the Court applied the test set
out by the Ninth Circuit in Angle v. Miller, to conclude that the State’s refusal, in
the face of a global pandemic, to extend the statutory deadline and permit online

30

Case 1:20-cv-00268-BLW Document 17 Filed 06/29/20 Page 2 of 4

solicitation and gathering of signatures to have a citizen’s initiative placed on the
2020 ballot amounts to an unconstitutional burden on the Plaintiffs’ First
Amendment rights. See 673 F.3d 1122, 1132 (9th Cir. 2012). Based on that
determination, the Court concluded that Plaintiff had established it is likely to
succeed on the merits, it will suffer irreparable harm in the absence of preliminary
relief, the balance of the equities tips in its favor, and an injunction is in the
interests of the public.
The Court acknowledged in its decision that the issue of an appropriate
remedy was challenging. Ultimately, however, the Court concluded that the State
could either certify the signatures already gathered are sufficient to have the
initiative placed on the 2020 ballot, or could allow Reclaim Idaho an additional 48days to gather signatures through online solicitation and submission. The Court’s
order gave the State until Friday, June 26, 2020 to choose between the two
alternative remedies.
The State declined the Court’s invitation and, instead, filed a Notice and
Motion to Stay Pursuant to F.R.C.P. 62(d) and F.R.A.P. 8. Dkt. 16. The State’s
motion challenges the Court’s decision, and requests that the Court stay the effect
of its decision pending an appeal.
Unless the Court orders otherwise, “an interlocutory or final judgment in an
action for an injunction” is not stayed after being entered, even if an appeal is

31

Case 1:20-cv-00268-BLW Document 17 Filed 06/29/20 Page 3 of 4

taken. Fed. R. Civ. P. 62(c)(1). Federal Rule of Civil Procedure 62(d) governs
injunctions pending an appeal. The rule provides that, “[w]hile an appeal is
pending from an interlocutory order or final judgment that grants or refuses to
modify an injunction” the Court may “suspend, modify, restore, or grant an
injunction” on “terms that secure the opposing party’s rights.” Fed. R. Civ. P.
62(d). Thus, Rule 62(d) affords the Court discretion when a party requests a stay of
an injunction pending appeal.
A stay pending appeal overlaps with the function of a preliminary
injunction—each prevents “some action before the legality of that action has been
conclusively determined.” Nken v. Holder, 556 U.S. 418, 428-29 (2009). “A stay is
an ‘intrusion into the ordinary processes of administration and judicial review.’”
Id. at 427 (citing Virginia Petroleum Jobbers Assn. v. FPC, 259 F.2d 921, 925
(C.A.D.C.1958) (per curium). Accordingly, a stay pending resolution on appeal “is
not a matter of right, even if irreparable injury might otherwise result to the
appellant.” Virginian R. Co. v. United States, 272 U.S. 658 (1926).
Here, the Court will exercise its discretion to deny the State’s motion.
Simply put, staying the effect of the Court’s decision will deny the Plaintiffs an
effective remedy. There is a narrow window of opportunity to provide Reclaim
Idaho and the State the time necessary to establish the process and protocol for
gathering signatures on-line and then provide Recall Idaho with the requested 48-

32

Case 1:20-cv-00268-BLW Document 17 Filed 06/29/20 Page 4 of 4

days to complete the on-line solicitation and gathering of signatures. Granting a
stay of the Court’s decision would effectively prevent Reclaim Idaho from having
its initiative placed on the 2020 general ballot, and thereby deny it the remedy
required by the First Amendment.
ORDER
IT IS ORDERED that:
1.

Defendants’ Notice And Motion To Stay Pursuant To F.R.C.P. 62(D)

and F.R.A.P. 8 (Dkt. 16) is DENIED.

DATED: June 29, 2020
_________________________
B. Lynn Winmill
U.S. District Court Judge

33

Reclaim Idaho Exhibit C
District Court’s Order Granting in Part and Denying in
Part Motion to Enforce the Court’s Order

34

Case 1:20-cv-00268-BLW Document 19 Filed 06/30/20 Page 1 of 4

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, a political action
committee, and LUKE MAYVILLE,
Plaintiffs,
v.
BRADLEY LITTLE, in his official
capacity as the Governor of Idaho, and
LAWERENCE DENNEY, in his
official capacity as Idaho’s Secretary
of State,

Case No. 1:20-cv-00268-BLW
ORDER GRANTING IN PART
AND DENYING IN PART
PLAINTIFFS’ MOTION TO
ENFORCE THE COURT’S
ORDER

Defendants.
INTRODUCTION
Pending before the Court is Reclaim Idaho’s Expedited Motion to Enforce
the Court’s Order. Dkt. 18. For the reasons that follow, the Court will grant in part
and deny in part Plaintiffs’ motion.
BACKGROUND
On June 23, 2020, the Court heard oral argument on Plaintiffs’ Expedited
Motion for Preliminary Injunction. Dkt. 2. At the close of arguments, the Court
orally granted the motion. A written order was subsequently filed to set forth the
facts, circumstances, and legal framework the Court considered in conducting its

35

Case 1:20-cv-00268-BLW Document 19 Filed 06/30/20 Page 2 of 4

analysis of the motion and in fashioning relief. Dkt. 14. Thereafter, Defendants
filed a motion seeking a stay of the Court’s order pending their appeal to the Court
of Appeals for the Ninth Circuit. Dkt. 16. The Court denied the motion for a stay—
and its order granting Plaintiff’s motion for injunction stands. Dkt. 17.
The Court’s decision allowed the State to choose between two options
available to secure Reclaim Idaho’s constitutional rights in the initiative process.
The State could choose between (1) certifying the signatures already gathered are
sufficient to have the initiative placed on the 2020 ballot; or (2) allowing Reclaim
Idaho an additional 48-days to gather signatures through online solicitation and
submission. The State has indicated it will file an appeal, and declined to choose
either option. See Dkt. 16. Citing the State’s refusal, Reclaim Idaho now asks the
Court to order Defendants to certify the initiative for the November ballot. Dkt. 18
at 2.
DISCUSSION
Reclaim Idaho argues the option to gather signatures through an online
process would require the State to engage in developing a “process and protocol”
with Reclaim Idaho. Id. Reclaim Idaho argues that, “Defendants’ clear response
shows that they have no intention of cooperating with Reclaim Idaho” and thus the
only relief available is an order that Defendants certify the initiative for the
November 2020 ballot. Id. However, it is not clear that the State is unwilling to

36

Case 1:20-cv-00268-BLW Document 19 Filed 06/30/20 Page 3 of 4

work with Reclaim Idaho in fashioning an online solicitation process if ordered to
do so by the Court. And, ordering an online solicitation pays greater respect to the
State’s right to limit the initiative process in ways which do not violate the
Plaintiffs’ First Amendment rights. Finally, online solicitation is the specific
remedy originally sought by the Plaintiffs. For these reasons, the Court will grant
the Plaintiffs’ motion in directing the State to comply with the Court’s order, but
will not require immediate certification of the Plaintiffs initiative for the 2020
ballot.
At this point, no appeal has been filed by the State, and it necessarily follows
that no stay has been granted by the Ninth Circuit Court of Appeals. Unless such a
stay is granted, the State must fully comply with the Court’s orders. Having
declined to choose between certifying the initiative for the 2020 ballot and
accepting online solicitation of signatures, the Court will direct the State to
immediately begin implementation of the remedy originally requested by the
Plaintiffs – online solicitation and acceptance of signature.
According to Reclaim Idaho’s motion for injunction, “it has developed a
plan to contract with DocuSign, a company trusted by financial institutions with an
impeccable tradition for reliability in gathering electronic signatures.” Dkt. 2-1 at
2. Reclaim Idaho stated that DocuSign, “stands ready to provide its service
immediately.” Id. at 10. Counsel will be ordered to meet and confer by Thursday,

37

Case 1:20-cv-00268-BLW Document 19 Filed 06/30/20 Page 4 of 4

July 2, to implement the process and protocol for accepting signatures gathered
through the DocuSign technology. Absent an agreement of counsel to the
contrary, that process and protocol shall be completed by Thursday, July 9, and
Plaintiffs may thereafter resume the solicitation of signatures for a period of 48
days. Should counsel be unable to reach an agreement as to the process and
protocol, Reclaim Idaho may implement an industry standard process and protocol.
Such process and protocol must ensure the highest available standards are used to
verify a signer’s identity, legislative district, and the authenticity of the signature.
ORDER
IT IS ORDERED that:
1.

Plaintiff’s Expedited Motion to Enforce the Court’s Order (Dkt. 18) is
GRANTED IN PART and DENIED IN PART as explained in this
decision.

2.

The 48-day period provided for Reclaim Idaho to resume its petition
gathering activities begins July 9, 2020.

DATED: June 30, 2020
_________________________
B. Lynn Winmill
U.S. District Court Judge

38

Reclaim Idaho Exhibit D
Declaration of Luke Mayville

39

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 1 of 17

Deb o rah A. F ergus o n
C rai g H. Durham
FER GUS ON DUR H AM , P LLC
2 2 3 N. 6 t h S t reet , S ui t e 325
B o i s e, Id aho 83702
T: (2 0 8 ) 724-2617
F: (2 0 8 ) 906-8663
d af@fe rg us ondurha m .com
ch d @ferg us ondu rha m .com
At t o rn ey s for P l ai nt i ffs
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, an Idaho Political
Action Committee; LUKE MAYVILLE
Plaintiffs,
v.
BRADLEY LITTLE, in his official
capacity as Governor of Idaho;
LAWERENCE DENNEY, in his official
capacity as Idaho Secretary of State;
Defendants.

Case No. 1:20-cv-00268-BLW
DECLARATION OF LUKE
MAYVILLE IN SUPPORT
OF MOTION FOR
PRELIMINARY
INJUNCTION

I, Luke Mayville, having first been duly sworn upon oath, declare as follows:
1.

My name is Luke Mayville, and I am a Co-founder of Reclaim Idaho, the other plaintiff

in this case.
2.

I have served as a volunteer leader and organizer for Reclaim Idaho since spring 2017,

when I co-founded the organization in my hometown of Sandpoint. My role with Reclaim Idaho

40

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 2 of 17

includes setting strategic priorities for the organization, fundraising, communicating with media,
writing opinion columns, drafting initiative proposals, and traveling the state to recruit volunteers
and leaders. I am an academic by training and was most recently employed by Columbia
University as a postdoctoral fellow and lecturer in the fields of History and American Studies. I
have also held teaching and research positions at Yale University and American University. In
2016, I published a book on the political thought of President John Adams.
3.

Reclaim Idaho is a grassroots movement designed to protect and improve the quality of

life of working Idahoans. Reclaim organizes to pass citizens’ initiatives and to elect candidates
who believe in strengthening public schools, protecting public lands, and extending healthcare
to working families.
4.

Reclaim filed an “Invest in Idaho” K-12 educational funding initiative with the Secretary

of State in the fall of 2019. If put on the ballot and passed, this initiative would invest $170
million in education in Idaho.
5.

Reclaim was operating on the model of organizing that it had successfully used during

the Medicaid expansion drive, a model of organizing we had begun to develop in 2017.
6.

That year, we filed a Medicaid Expansion initiative—a proposal that eventually qualified

for the ballot with well over the 56,000 signatures required. Several additional advocacy groups
contributed to signature collection in the final months of petitioning, but the vast majority of
required signatures were collected by Reclaim Idaho volunteers.
7.

Moreover, Reclaim Idaho volunteers easily surpassed Idaho’s requirements for

geographic distribution by collecting signatures from more than 6% of registered voters in well
over 18 of Idaho’s 35 legislative districts.

41

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 3 of 17

8.

We attribute the success of our Medicaid signature drive to a highly effective and labor

intensive model of organizing.
9.

In the early stages of the effort, members of our statewide team visited over 20 counties

and worked to recruit volunteers and organize those volunteers into county-based teams. This
method of organizing didn’t yield large numbers of signatures during the early months of the
drive, but it did build strong, well-trained teams capable of scaling up the operation
exponentially during the final few months before the deadline.
10.

By mid-March, with just six weeks left before the deadline, we had collected fewer than

half of the required signatures. But we were able to accelerate the rate of signature collection
rapidly in the final weeks.
11.

One factor in particular contributed to our ability to ramp up signature collection in the

final stretch: the sense of urgency brought about by the impending deadline. With the deadline
looming, our most active volunteers grew more committed and more efficient in their work, and
hundreds of new volunteers joined the effort for the first time. (The motivating effects of the
looming deadline was compounded by changing weather. In the final stretch, just as volunteers
were growing more motivated, the weather warmed up and enabled them to collect signatures
much more effectively.)
12.

In my own observations and studies of different signature-drive models, I have found that

the motivating effect of a looming deadline is especially important for grassroots drives that rely
mainly on volunteers. When signature drives rely mainly on paid-signature gatherers, the final
stretch of a signature drive is not much different than the early months. Throughout the drive,
petitioners are motivated by the wages they earn. In contrast, grassroots campaigns stand to

42

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 4 of 17

benefit enormously from the highly motivating sense of urgency that kicks in during the final
stretch of time before a deadline.
13.

The model of organizing we developed during our Medicaid drive prepared us well to

capitalize on the sense of urgency during the final weeks of the effort. By investing time and
resources during the early months in volunteer-recruitment and team-building, we were wellpoised in the final stretch to absorb hundreds of new volunteers and scale up our work
dramatically.
14.

When we began the signature drive for our “Invest in Idaho” K-12 funding initiative, we

made every effort to replicate the success of our Medicaid drive. Beginning in September
2019—over one month before our petition was approved for circulation by the Idaho Secretary
of State, organizers visited counties in every region. They recruited volunteers, organized them
into county-based teams, and trained them with effective signature-gathering tactics.
15.

Our rate of signature collection was low during the first several months, comparable to

what it had been during our Medicaid signature drive. By February 15th, we had collected an
estimated 15,000 signatures—roughly one quarter of the signatures needed to qualify the
initiative.
16.

But in the weeks that followed, as the deadline began to loom on the horizon, our rate of

signature collection accelerated dramatically. Our most active volunteers grew even more
committed and efficient in their work. Hundreds of new volunteers were motivated by the
impending deadline to join the effort.
17.

During the four weeks between mid-February and March 12th, we more than doubled our

total number of signatures from 15,000 to over 30,000. We progressed from zero legislative

43

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 5 of 17

districts qualified to 5 districts qualified and 7 additional districts within a few hundred
signatures of qualification.
On March 12th, the day before the first case of COVID-19 was confirmed in Idaho, we

18.

were significantly ahead of where we had been by that same date during our Medicaid drive two
years earlier.
On March 13th, the first case of COVID-19 was confirmed in Idaho and Governor Little

19.

declared a state of emergency in order to prevent the spread of the coronavirus. It was on that
date that it became apparent to our team that we would need to take significant steps to adapt to
changing circumstances.
20.

On that same day, we sent an email newsletter to all supporters with the following

guidelines:

21.

•

Stay home if you are exhibiting any symptoms of illness.

•

Avoid approaching anyone that is symptomatic of illness for a signature.

•

Practice excellent hand hygiene before and after collecting signatures. Carry a small
bottle of hand sanitizer if possible.

•

Wipe down clipboards before and after a signature gathering shift.

•

Avoid shaking hands or direct physical contact when collecting signatures.

•

We recommend adopting a “KEEP THE PEN” policy. In an effort to reduce transmission
of germs, volunteers should carry packages of “disposable” pens. If the signer doesn’t
have a pen of their own, simply allow them to keep the pen. Our campaign is committed
to providing pens and/or reimbursing volunteers for the cost of pens.
We also notified volunteers that we would be transitioning toward more outdoor

signature-collection activities, considering that staying outdoors would reduce the risk of the
airborne spread of germs.

44

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 6 of 17

22.

That week, the CDC issued guidelines for individual and community organizations

operating under conditions of “minimal to moderate” spread of COVID-19. Those guidelines
included:

23.

•

Reduction of in-person activities, especially for organizations with individuals at
increased risk of severe illness

•

Cancellation of large gatherings of 250 or more people

•

Implementation of personal protection measures such as staying home when sick,
handwashing respiratory etiquette, and cleaning frequently touched surfaces daily

Over the next five days, between March 13th and March 18th, we observed a dramatic
escalation of the public health risk. Relevant developments during those days included:

24.

On the evening of Friday, March 13th, we received an email from retired Idaho appellate

Judge Karen Lansing—one of our most active and committed volunteers—notifying us that she
was suspending her efforts to gather signatures. She wrote:
I feel that my commitment and desire to gather signatures for this critical
initiative directly conflicts with my obligation as a citizen to practice social
distancing to protect my fellow Idahoans. I appreciate the suggestion that use of
disposable pens and frequent cleaning of clipboards would reduce the risk of
disease transmission. Those measures undoubtedly would help, but it is not
possible for anyone to sign the petition without touching the page as they write, so
it seems to me that the risk substantially remains. As important as the initiative
is, I reluctantly conclude that it is outweighed by my responsibility to avoid
possibly putting others at risk.
Judge Lansing’s email was the first of many similar messages sent to us from volunteers from all
around the state.
25.

Guidelines from the CDC and other public health authorities made clear that the health

risk posed by the coronavirus was especially severe for older adults. This fact weighed heavily
on our decision-making, considering that the majority of Reclaim Idaho’s most active
volunteers are retirees over the age of 60.

45

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 7 of 17

26.

On Saturday, March 14th, Meridian Library District announced that all libraries were

closing operations due to the coronavirus. Likewise, the City of Boise closed all libraries on
Monday, March 16th, and in subsequent weeks libraries would close across the state. On
Tuesday, March 17th, DMV offices closed in Ada and Canyon counties. This was highly
significant because libraries and DMVs had proven to be the most promising public locations
for volunteers to collect signatures.
27.

On Sunday, March 15th, the CDC recommended cancellation or postponement of all

gatherings of 50 or more. Most dramatically, the CDC also began recommending a six-foot
“social distancing” rule which quickly became a widespread norm of behavior.
28.

As I would later explain in an April 9th interview with CityLab 1, our organization

struggled over those five days to adapt to rapidly changing circumstances. As a last resort, we
considered setting up “drive-through” signature collection stations. (We had recently learned
that the Save Our Schools Arizona initiative—an initiative that would eventually suspend
operations due to the pandemic—was experimenting with drive-through signature-gathering).
But it quickly became clear that in-person signature gathering of any kind was simply too
hazardous in the midst of a deadly pandemic. The announcement of the six-foot rule made this
especially clear.
29.

As I would later explain in my interview with CityLab :
We were trying to adapt with the guidelines as they grew more and more stringent…But
once the six-foot rule settled in, it just became impractical. It also became clear at that

1

CityLab describes itself on its web site as “a partnership between Bloomberg Philanthropies, the Aspen Institute
and The Atlantic, CityLab is the preeminent meeting of city leaders and the top minds in urbanism and city
planning, economics, education, art, architecture, public sector innovation, community development, and business
— convened with the goal of creating scalable solutions to major challenges faced by cities everywhere.”

46

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 8 of 17

point that any continuation of a signature drive would put volunteers and the wider
public at risk.
30.

On Monday, March 16th, having concluded that in-person signature gathering would be

too great a public health risk, we decided to appeal to Governor Brad Little with a request for the
authorization of electronic signature gathering. We sent an email newsletter inviting supporters
to sign our online petition to the Governor.
31.

The text of the newsletter included the following:
This pandemic is obstructing the ability of every Idahoan to participate in the ballot
initiative process…In the interest of safeguarding the health of the public and protecting
the constitutional rights of Idahoans, we're calling on Governor Brad Little to exercise
his executive powers to authorize temporary online petitioning for Idaho ballot
initiatives.

32.

As soon as supporters signed the petition online, they were then prompted with an

opportunity to email the Governor’s office and ask the Governor to authorize electronic signature
collection.
33.

That same day, Reclaim Idaho Executive Director Rebecca Schroeder corresponded via

email with Andrew Mitzel, a member of the Governor’s staff. When Mitzel directed Schroeder
and Reclaim Idaho to bring our request for electronic signature capabilities to the Idaho
Secretary of State, Schroeder immediately made contact via email with the Secretary of State’s
office. The Secretary of State’s office then claimed, in reply, that “there is no statute allowing
electronic signatures for petitions in Idaho Statutes 34 Chapter 18,” and that they were therefore
unable to take action. When Schroeder then brought this information to Mitzel and the
Governor’s office, Mitzel replied as follow:
Given our intense focus on spending as much time and resources on protecting the health
and safety of the broader population, the Governor’s Office has no intention of taking
executive action on this matter.

47

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 9 of 17

34.

Later that day, in a public statement given to BSU Public Radio, the Governor’s Press

Secretary Marissa Morrison Hyer said “Idaho statute does not allow for the suspension of rules
regarding the physical collection of signatures, even in times of emergency.”
35.

Upon learning that the Governor did not intend to take action, we made one last attempt

to save the signature drive. I contacted Representative John Gannon and asked him to propose
legislation in the Idaho House of Representatives that would temporarily adjust Idaho’s ballot
initiative rules. The following day, Rep. Gannon reported to me that he shared a legislative
proposal with at least one member of majority leadership, but that he was unable to find support
for the bill. In his judgment, there was no legislative path forward for the proposal.
36.

By Wednesday, March 18th, we determined that we had exhausted all avenues of action.

Neither the Governor, the Secretary of State, nor the Legislature were willing to take action, and
there were no available tactics for collecting in-person signatures while also preserving the
safety of our volunteers and the wider public.
37.

That morning, we sent the following message to our supporters via email newsletter and

social media:
After carefully reviewing the latest recommendations of public health authorities, we
have concluded that it is no longer safe for volunteers to engage in the face-to-face
interactions that are necessary for effective signature gathering. In order to protect the
health of our volunteers and the wider public, we are calling on all Reclaim Idaho
volunteers to suspend signature collection until further notice.
We do not make this decision lightly. Tragically, the coronavirus pandemic brought our
signature drive to a standstill at the exact moment when we’d built our strongest
momentum. Thanks to the hard work of volunteers across the state during the past month,
our campaign cleared 30,000 signatures—more than we’d collected at this stage of the
Medicaid Expansion campaign.
But health and safety must come first. There is simply too much at risk to take chances.

48

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 10 of 17

38.

Governor Little’s proclamation of a stay-at-home order was issued on March 25th. That

order remains in partial effect today and remained in full effect through April 30th, which
coincidentally was the final day before the official signature-gathering deadline on May 1st.
39.

Our decision to suspend operations was based on our assessment of the risks of signature

gathering in the midst of a pandemic.
40.

The stay-at-home order exacerbated the risk and made signature-gathering impossible.

41.

Reclaim Idaho has invested time in developing a model for an online signature-

collection plan that will allow the initiative campaign to obtain sufficient and verifiable
signatures of Idaho electors. Our plan will enable the county clerk offices to verify electronic
signatures in a process that closely resembles the normal verification process. In order to reduce
the burden on county clerks, we plan to submit all signatures currently in our possession that
have not yet been verified in order to give county clerks time to process these signatures prior to
the time period when electronic signatures will need to be processed. We estimate this total
amount to be approximately 20,000 signatures.
42.

Moreover, our plan will not impose significant additional burdens on the Idaho Secretary

of State. The following email, sent to me by Deputy Secretary of State Jason Hancock on
Wednesday, June 3rd, clarifies that the Secretary of State is not involved in verifying the validity
of signatures, but only in counting them in order to determine whether the petition includes the
requisite number of signatures statewide and the requisite number of signatures in 18 districts:
Since the county clerks, individually, are not in a position to know whether or not the
petition includes the requisite number of valid signatures statewide, or the requisite
number of valid signatures in at least 18 legislative districts, these tasks are performed
by the Secretary of State after the various county clerks submit their reports showing the
signatures that were submitted to them that they were able to verify.

49

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 11 of 17

43.

Furthermore, we are prepared to reduce the additional burden on the Secretary of State by

immediately providing them with 10,593 signatures that have been verified already by county
clerks.
44.

Attached to this affidavit are slides that show how the electronic signature process would

work. It will be under a contract with DocuSign, the country’s leading company for execution of
electronic signatures on legal documents.
45.

Regarding the reliability of DocuSign as a system for collecting authentic signatures, the

following information has been published by DocuSign, Inc.:
•

In 2017, DocuSign was officially certified by the Federal Risk and Authorization
Management Program (FedRAMP), a government-wide service that vets technology
providers for security and risk. DocuSign is now used by 800 federal, state, and local
government agencies, including the Federal Communications Commission (FCC), the
state of North Carolina, the Nevada Department of Transportation, and 400 California
cities.

•

DocuSign is used by Fortune 500 companies and global financial institutions including TMobile, Apple, Aetna, VISA, and Prudential Financial.

•

More than 775,000 documents are signed using DocuSign each day, yet only in 2-3
instances have DocuSign documents been challenged in court. DocuSign maintains a
court admissible certificate of completion that provides proof of the signing process –
including who signed what, when and where – for all parties in the transaction. A
DocuSign electronic signature is more enforceable than a wet signature because of the
court-admissible evidence it contains.

•

Unlike wet signatures, e-signatures also come with an electronic record that serves as an
audit trail and proof of the transaction. The audit trail includes the history of actions taken
with the document, including the details of when it was opened, viewed and signed.
Depending on the provider, and if the signer agreed to allow access to their location, the
record will also show the geolocation where it was signed. If one of the signers disputes
their signature, or if there’s any question about the transaction, this audit trail is available
to all participants in the transaction and can resolve such objections.

•

As an additional layer of authentication, DocuSign signatures include certificates of
completion, which can include specific details about each signer on the document,
including the consumer disclosure indicating the signer agreed to use e-signature, the
signature image, key event timestamps and the signer’s IP address and other identifying
information.

50

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 12 of 17

•

46.

Once the signing process is complete, all documents are digitally sealed using Public Key
Infrastructure (PKI), an industry-standard technology. This seal indicates the electronic
signature is valid and that the document hasn’t been tampered with or altered since the
date of signing.
Working with DocuSign, Reclaim Idaho has developed a plan to comply with Idaho’s

requirements for state initiative petitions, with additional safeguards to ensure that signatures are
those of the persons whom they purport to be. The model will work as follows:
•

Reclaim Idaho will establish a dedicated website for on-line signature collection.

•

The landing page will ask for support to place the issue on the ballot to increase funding
for K-12 education. The page will provide a link for the person to read the full text. It will
notify persons that only Idaho registered voters are permitted to sign.

•

If the person elects to proceed, they will enter their name, voter registration address, city
or zip code, the last 4 digits of their social security number, and their email address.

•

They will hit 'next' and be directed to a PDF of the petition that looks exactly like the
paper version except that: 1. It will have only one signature line, 2. It will have fields for
the last 4 digits of their SSN and the county where the elector resides, and 3. The
circulator statement will have additional wording due to the on-line nature. All of the
fields will populate from the information provided by the person on the prior page and
they will be asked to confirm the information and authorize the placing of their signature
on the petition. If they do, a cursive version of their signature will be affixed to the
signature field or they can choose to draw their own signature electronically. Either way,
the signature is legally binding, complying with the ESIGN Act. The document will be a
self-contained single signature complete part-petition.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the foregoing is true

and correct.
EXECUTED ON this 5th day of June 2020.

/s/Luke Mayville

51

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 13 of 17

52

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 14 of 17

53

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 15 of 17

54

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 16 of 17

55

Case 1:20-cv-00268-BLW Document 2-2 Filed 06/06/20 Page 17 of 17

56

Reclaim Idaho Exhibit E
Declaration of Rebecca Schroeder

57

Case 1:20-cv-00268-BLW Document 2-3 Filed 06/06/20 Page 1 of 9

Deborah A. Ferguson
C r a i g H . Durham
FERGUSON DURHAM, PLLC
223 N. 6th Street, Suite 325
B o i se , I d a ho 83702
T: (208) 724 -2617
F : ( 2 0 8 ) 9 0 6-8663
d a f @ f e r g usondurham .com
chd@fergusondurham.com
Attorneys for Plaintiffs
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, an Idaho Political
Action Committee; LUKE MAYVILLE
Plaintiffs,

Case No. 1:20-cv-00268-BLW

v.

DECLARATION OF REBECCA
SCHROEDER IN SUPPORT OF
MOTION FOR PRELIMINARY
INJUNCTION

BRADLEY LITTLE, in his official
capacity as Governor of Idaho;
LAWERENCE DENNEY, in his official
capacity as Idaho Secretary of State;
Defendants.

I, Rebecca Schroeder, having first been duly sworn upon oath, declare as follows:
1.

My name is Rebecca Schroeder, and I am the Executive Director of Reclaim Idaho, a

Plaintiff in this case.
2.

I took the role of Executive Director of Reclaim Idaho on March 15th, 2019.

Declaration Of Rebecca Schroeder

p. 1

58

Case 1:20-cv-00268-BLW Document 2-3 Filed 06/06/20 Page 2 of 9

3.

During the spring and summer of 2019, my work was focused on advocating to keep

Idaho’s current ballot-initiative rules intact following a controversial legislative attempt to
dramatically restrict the process for qualifying an initiative for the ballot.
4.

Early in the fall, we filed our “Invest in Idaho” K-12 funding initiative with the Idaho

Secretary of State and we launched our first volunteer organizing tour in September 2019 to
build support for the policy and grow volunteer teams for signature gathering.
5.

I hosted volunteer organizing meetings in the following Idaho locations on the dates

listed. I was accompanied by my colleagues Alicia Abbott and Ashley Prince for most of these
meetings. Meetings were held in private homes, cafes, and libraries. Between 2 and 20
volunteers attended each of these organizing meetings.
9/14/19: Sandpoint, ID
9/14/19: Port Hill, ID
9/16/19: Bonners Ferry, ID
9/17/19: Wallace, ID
9/18/19: Lewiston, ID
9/18/19: Moscow, ID
9/19/19: Orofino, ID
9/19/19: Grangeville, ID
9/21/19: Nampa, ID
9/24/19: Ketchum, ID
9/24/19: Twin Falls, ID
9/26/19: Salmon, ID
9/26/19: Idaho Falls, ID
9/27/19: Driggs, ID
9/27/19: Pocatello, ID
10/2/19: McCall, ID
10/3/19: Weiser, ID
11/4/19: Lewiston, ID (meeting 2)
6.

These events garnered some earned media coverage and laid the groundwork for our

signature drive.
7.

At this point, we had identified volunteer leaders from communities all over Idaho.

Declaration Of Rebecca Schroeder

p. 2

59

Case 1:20-cv-00268-BLW Document 2-3 Filed 06/06/20 Page 3 of 9

8.

I felt confident that we were headed toward meeting Idaho’s distribution requirement of

signatures from 6% of registered voters in at least 18 Idaho Districts.
9.

After our first big week of signature gathering in early November, local volunteer teams

continued to build volunteer capacity and host local signature gathering events.
10.

The signature gathering process, in itself, helped us identify more supporters of the policy

that often converted to volunteering.
11.

The more signatures we gathered, the more our local volunteer teams grew.

12.

Volunteer organizing meetings and signature gathering events continued in:
11/18/19: Bonners Ferry Organizing (second meeting)
12/3/19: Boise Run-off election signature gathering day at the polls
12/6/19: Idaho Falls, ID Organizing meeting (second meeting)
12/7/19: Pocatello, ID Organizing meeting (second meeting)
12/7/19: Rexburg, ID Organizing meeting
12/9/19: Kooskia, ID Organizing meeting
12/15/19: Boise, ID Holiday signature gathering at the Egyptian Theater

13.

Volunteers continued to collect signatures through the holiday season. In January, local

teams began ramping up for higher volumes of signatures each week.
14.

We had built relationships and consistent communications with established local teams

by this time, and conducted countless phone calls, Zoom calls, and emails in between our in
person visits, to support volunteer efforts and help set local goals for signature collection.
15.

Signature gathering goals increased as teams built volunteer capacity and leadership, and

as the campaign moved closer to the April 30th deadline.
16.

The earned media, and volunteer team growth assisted our fundraising capability as

well—which enabled us to provide resources like clipboards, banners, literature, and petitions to
our local teams and increase the advertising opportunities for the Invest in Idaho campaign.

Declaration Of Rebecca Schroeder

p. 3

60

Case 1:20-cv-00268-BLW Document 2-3 Filed 06/06/20 Page 4 of 9

17.

In January, we continued to build the campaign by hosting a series of signature gathering

events alongside established local teams.
1/19/20--Boise Meeting and Canvass
1/25/20--McCall Winter Festival signature gathering
1/30/20--Moscow Meeting and Canvass
2/1/20--Sandpoint Meeting and Canvass
2/3/20—Coeur d’ Alene
18.

After the Coeur d’ Alene canvassing event, my colleague Plaintiff Luke Mayville took on

the rest of the event tour through central, southern, and eastern Idaho. I remained in the Idaho
Panhandle to continue ramping up signature gathering events in north Idaho
19.

During the month of February 2020, local teams participated in more signature gathering

events than ever—bringing in higher numbers of signatures each week.
20.

In my home District 4, we were hosting big signature gathering events every week, as

well as scheduling volunteer signature gathering shifts on most days outside the Public Library.
21.

This increased level of activity was replicated by established local teams throughout the

state in February and early March.
Enter Covid-19 Pandemic
22.

By the beginning of the second week of March, news of the coronavirus had begun to

impair our campaign efforts and negatively impact volunteer signature-gathering and
fundraising.
23.

With rapidly evolving information from the CDC, and a deep responsibility to the safety

of our volunteers and the general public—Reclaim Idaho attempted to adapt to “clean signature
gathering strategies” by recommending infection control guidelines and scrambling to provide
extra supplies like disposable pens and hand sanitizer to our volunteers.

Declaration Of Rebecca Schroeder

p. 4

61

Case 1:20-cv-00268-BLW Document 2-3 Filed 06/06/20 Page 5 of 9

24.

During the week of March 8th-14th, I reached out by phone to local volunteer leaders to

communicate our new guidelines for safer signature collection, and assess volunteer concerns
about safety.
25.

A large percentage of Reclaim Idaho volunteers are retirees, in a high risk group for

Covid-19 complications. It became clear through those conversations that volunteers were
fearful of contracting the virus.
26.

Volunteer-led door-to-door canvassing events were cancelled by concerned volunteers in

communities all around the state that week.
27.

Signature gathering at large public events also ground to an immediate halt as events

were cancelled.
28.

On March 12th, I removed my 12 year old son with cystic fibrosis from public school and

began self-isolating on the recommendation of his pulmonologist. Many of our volunteers also
received advice from their medical professionals to avoid interactions with the public.
29.

By Monday March 16th, it became abundantly clear that there was NO SAFE METHOD

to continue to encourage tens of thousands of face-to-face conversations with voters.
30.

The CDC guideline of social distancing by at least 6 ft., made in-person signature

gathering virtually impossible.
31.

On March 16th, I began communicating these concerns to Governor Little and the Idaho

Secretary of State.
Reclaim Idaho’s Communications with Governor Little’s Office Regarding Covid-19
32.

At 8:02 am I emailed Andrew Mitzel, Senior Advisor to Gov. Little the following:
Dear Andrew,
As you know, we are facing the unprecedented circumstances of a public health crisis.
Volunteers around the state have been working for months collecting signatures for the
citizen ballot initiative to increase funds to Idaho K-12 schools. Collecting signatures

Declaration Of Rebecca Schroeder

p. 5

62

Case 1:20-cv-00268-BLW Document 2-3 Filed 06/06/20 Page 6 of 9

face-to-face puts both volunteers and the general public at risk, and goes against the
guidelines that we are hearing from public health officials.
The result is that Idahoans are no longer able to exercise their constitutional right to
bring forward a ballot initiative. Please give Reclaim Idaho co-founder Luke Mayville
the opportunity to meet with the Governor about the safest way to move forward with our
ballot initiative. We have already collected over 30K signatures, and were well on our
way to qualifying the initiative. Hundreds of volunteers have already put in hundreds of
hours. Along with the Governor, our priority is the health and safety of
our Idaho communities. This extraordinary situation requires action by the Governor to
ensure the public safety is maintained while we exercise our Constitutional rights.
Sincerest thanks, Rebecca Schroeder
33.

Andrew Mitzel responded at 9:04 am and wrote:
Thanks for reaching out. I would encourage you to reach out to
the Secretary of State’s office with your concerns regarding ballot initiatives as they
oversee that process.- Andrew

34.

I responded that:
We have been simultaneously consulting with the SOS office. They advised us that it
would take a Legislative or Executive action to extend the signature deadline. We have
communicated with them about electronic signature gathering (the only safe method
at this point) also, and await their response. I hope that if Executive action is required-that Governor Little would consider a meeting with one of us. I know you all are
bombarded with trying to deal with this crisis...we are doing the same. Hundreds of
volunteers have put their hearts into this effort. We understand that this is an
extraordinary request--but we are certainly in extraordinary times.

35.

Andrew Mitzel again referred Reclaim to the Secretary of State’s office, stating:
Rebecca: We understand your concerns about the limitations that the current situation
presents. The Secretary of State’s office is actively working on ways to make the election
process move forward in light of the concerns about spreading coronavirus, and your
organization may benefit from using some of their ideas. The Governor’s Office is
intently focused on the health and safety of the broader population right now, and we are
referring you to the Secretary of State’s office to resolve these concerns.

36.

I again wrote to Andrew Mitzel that we were being advised that the Secretary of State’s

office did not have the jurisdiction to resolve this, and requested a meeting. I wrote:
Dear Andrew: The SOS has just informed us that a change to electronic signature
gathering would require Executive or Legislative action. I understand that the Governor's
office is very busy dealing with this crisis--but the SOS does not have jurisdiction to
Declaration Of Rebecca Schroeder

p. 6

63

Case 1:20-cv-00268-BLW Document 2-3 Filed 06/06/20 Page 7 of 9

resolve this--and it absolutely falls under the realm of protecting wider public safety. We
request a meeting or phone call about this urgent matter please.
37.

Andrew Mitzel replied for the final time indicated the Governor would not take executive

action, stating:
Given our intense focus on spending as much time and resources on protecting the
health and safety of the broader population, the Governor’s Office has no intention of
taking executive action on this matter.
38.

I responded yet again, and indicated:
that encouraging 100K face-to-face conversations as we exercise our constitutional
rights absolutely falls into the category of protecting the wider public health, and
requires the Governor's attention. Please consider at meeting or phone call to discuss this.
One more important consideration--the Governor could face unintended liability for
failing to address this urgent concern if people become ill due to his lack of action. We
have an online petition circulating asking Governor Little to take action. I am speaking
not just for our organization, but on behalf of the hundreds of folks who have volunteered
time and energy on this. This is the right thing to do to protect public safety. Thank you.

Reclaim Idaho’s Communications with Idaho Secretary of State regarding Covid-19
39.

On behalf of Reclaim, I also communicated with the Secretary of State. I emailed:
Dear Mr. Denney: We are faced with a global pandemic. Idahoans are responding by
cancelling public events and dramatically reducing face-to-face interactions. This reality
creates extraordinary obstacles for Idaho's ballot initiative process and the constitutional
right of every Idahoan to participate in that process. Idaho's initiative qualification laws,
which are among the strictest in the country, require tens of thousands of face-to-face
interactions. In the interest of safeguarding the health of the public and protecting the
constitutional rights of Idahoans, we are asking to authorize temporary online petitioning
for Idaho ballot initiatives. The state of Idaho conducts much of our public business
online, from voter registration to campaign finance documentation to the registration of
new corporations. It is well within our capacity as a state to process petition signatures
online. During these extraordinary times, online petitioning is the most effective way to
protect public safety while maintaining the constitutional right of Idahoans to participate
in the ballot initiative process.
Please advise if this is within the realm of the SOS, or whether it would require
Legislative or Executive action.
As the executive director of Reclaim Idaho, I have hundreds of volunteers (many retirees
and "at risk" individuals) reaching out to me for guidance. At this point, electronic
signature gathering is truly the only safe path forward. Over 30K signatures have already

Declaration Of Rebecca Schroeder

p. 7

64

Case 1:20-cv-00268-BLW Document 2-3 Filed 06/06/20 Page 8 of 9

been collected, and several districts have qualified with their 6% of voters. I understand
that this is an extraordinary request--but we are obviously facing extraordinary times.
40.

A staff member of the Secretary of State replied that electronic signatures were not

allowed per the Idaho Code:
Thank you and your fellow supporters for sharing your concern with us via email. While
we understand the current situation we are in is unprecedented and can appreciate how
the further efforts in attaining the remaining signatures for your petition will be
complicated logistically, we are sorry to say that there is no statute allowing electronic
signatures for petitions in Idaho Statutes 34 Chapter 18. Sincerely, Sheryl
Reclaim Idaho Forced to Suspend Campaign After State Refused to Modify Requirements
41.

In one final attempt to salvage our signature drive, our team contacted Representative

John Gannon on March 18th and asked him to propose legislation in the Idaho House of
Representatives that would temporarily adjust Idaho’s ballot initiative rules. After sharing a
legislative proposal with at least one member of majority leadership, Rep. Gannon informed us
that he was unable to find support for the bill and there was therefore no legislative path forward.
42.

Without accommodations from Governor Little, the Idaho SOS, or the Idaho Legislature,

Reclaim Idaho was left with no choice but to suspend signature gathering for the Invest in Idaho
ballot initiative.
43.

We had spent months building volunteer capacity, and were at the height of our signature

gathering when COVID-19 arrived.
44.

We were ahead of the pace that we had kept on our successful Medicaid Expansion

initiative when we were forced to suspend our efforts.
45.

Reclaim Idaho volunteers were on track to qualify the invest in Idaho initiative until

Covid-19 hit.

Declaration Of Rebecca Schroeder

p. 8

65

Case 1:20-cv-00268-BLW Document 2-3 Filed 06/06/20 Page 9 of 9

46.

It was heartbreaking to suspend the campaign that volunteers had worked so hard to

build. We launched an online petition urging Governor Little to intervene, but no action was
taken by Governor Little’s office.
47.

With signature gathering suspended—fundraising efforts also became impossible to

sustain.
48.

Because of the COVID-19 pandemic and public health orders, Idahoans were unable to

exercise their First Amendment constitutional rights.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the foregoing is true and
correct.
EXECUTED ON this 5th day of June 2020.
/s/Rebecca Schroeder

Declaration Of Rebecca Schroeder

p. 9

66

Reclaim Idaho Exhibit F
Declaration of Ashley Prince

67

Case 1:20-cv-00268-BLW Document 2-5 Filed 06/06/20 Page 1 of 3

Deb o rah A. F ergus o n
C rai g H. Durham
FER GUS ON DUR H AM , P LLC
2 2 3 N. 6 t h S t reet , S ui t e 325
B o i s e, Id aho 83702
T: (2 0 8 ) 724-2617
F: (2 0 8 ) 906-8663
d af@fe rg us ondurha m .com
ch d @ferg us ondu rha m .com
At t o rn ey s for P l ai nt i ffs
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, an Idaho Political
Action Committee; LUKE MAYVILLE
Plaintiff,
v.
BRADLEY LITTLE, in his official
capacity as Governor of
Idaho;LAWERENCE DENNEY, in his
official capacity as Idaho Secretary of State

Case No. 1:20-cv-00268-BLW
DECLARATION OF
ASHLEY PRINCE IN
SUPPORT OF MOTION FOR
PRELIMINARY
INJUNCTION

Defendants.

I, Ashley Prince, having first been duly sworn upon oath, declare as follows:
1.

My name is Ashley Prince, and I am the Field Director of Reclaim Idaho, the Plaintiff in

this case.
2.

The Invest in Idaho campaign started with 143 volunteers in October 2019.

68

Case 1:20-cv-00268-BLW Document 2-5 Filed 06/06/20 Page 2 of 3

3.

Throughout the signature drive, there were always a portion of our volunteers who

collected signatures at a relatively high and frequent rate. I’ll designate those volunteers here as
“highly active.”
4.

Not including big events we had around 25 highly active volunteers around the state

collecting an average of 12 signatures a week through December. By February we had around 80
highly active volunteers a week averaging 36 signatures a week.
5.

By March 10th we had grown to 546 volunteers statewide with 150 being highly active,

each with an average of 50 signatures per week.
6.

Our volunteer network grew not only in terms of the sheer number of volunteers but also

in geographic terms.
7.

To give one example: On March 1st we activated a new team of volunteers in the town of

Mountain Home, which is an area in which Reclaim Idaho had not previously organized. Within
their first week, the newly organized Mountain Home team collected over 100 signatures.
8.

We have a process to verify the signatures we collect by matching the signers of the

petition against a list of registered Idaho voters provided by the Secretary of State. We have been
able to do this work efficiently with the use of REACH, a smartphone app for data organization
and grassroots organizing. We signed a contract for the use of REACH for $300 per month
beginning in the fall of 2019.
9.

The purpose of prescreening the signatures before submitting them to the local county

clerks was to better keep track of how many signatures we collected so we knew as a campaign
how close we were getting to the qualifying goal. This is a necessary step because the county
clerks are not uniform on how quickly they verify signatures and certify petitions. The only
deadline counties have to verify signatures is within 60 days of the petition turn-in deadline or no

69

Case 1:20-cv-00268-BLW Document 2-5 Filed 06/06/20 Page 3 of 3

later than June 30th of an election year. This deadline does not allow our campaign to change
tactics to meet the goal or know how many signatures collected are valid until after the deadline.
10.

The process of internally validating signatures is to have volunteers match the signer. We

look for 3 key things. 1. Is the voters name legible? If it is not legible the clerks cannot find the
voters information to certify the signature 2. Are they registered to vote in Idaho? 3. Are they
registered to vote at the same address that they signed the petition with? If a volunteer finds that
all 3 of these metrics are met the signature is classified as likely valid and goes towards the total
of signatures needed to meet the qualifying goal.
11.

Based on the campaign’s internal verification of signatures we had qualified 5 legislative

districts with another 7 expected to qualify by the end of March. The final 6 legislative districts
were on pace to qualify in April before the deadline.
12.

We collected an estimated 33,000 signatures by March 18th. Our internal verification

indicated that 86% of those signatures were valid.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the foregoing is true
and correct. EXECUTED ON this 5TH day of June 2020.
/s/ Ashley Prince

70

Reclaim Idaho Exhibit G
Declaration of Linda Larson

71

Case 1:20-cv-00268-BLW Document 2-6 Filed 06/06/20 Page 1 of 5

Deb o rah A. F ergus o n
C rai g H. Durham
FER GUS ON DUR H AM , P LLC
2 2 3 N. 6 t h S t reet , S ui t e 325
B o i s e, Id aho 83702
T: (2 0 8 ) 724-2617
F: (2 0 8 ) 906-8663
d af@fe rg us ondurha m .com
ch d @ferg us ondu rha m .com
At t o rn ey s for P l ai nt i ffs
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, an Idaho Political
Action Committee, and LUKE
MAYVILLE,

Case No. 1:20-cv-00268-BLW

Plaintiffs,
v.
BRADLEY LITTLE, in his official
capacity as Governor of Idaho, and
LAWERENCE DENNEY, in his official
capacity as Idaho Secretary of State,

DECLARATION OF LINDA
LARSON IN SUPPORT OF
MOTION FOR
PRELIMINARY
INJUNCTION

Defendants.

I, Linda Larson, having first been duly sworn upon oath, declare as follows:
1.

My name is Linda Larson, and I am the Volunteer Leader for Bonner County of Reclaim

Idaho, a Plaintiff in this case.
2.

The Reclaim Idaho “Invest In Idaho” campaign was abruptly halted on March 18, 2020

due to the coronavirus pandemic, after Reclaim’s requests to state officials to allow electronic

72

Case 1:20-cv-00268-BLW Document 2-6 Filed 06/06/20 Page 2 of 5

signature gathering were denied. Our volunteer team in Sandpoint--working alongside a team of
volunteers in Bonners Ferry--had already qualified District 1 and was ready to help add
signatures to the statewide totals.
3.

Had Reclaim Idaho been able to continue, there is no doubt in my mind that we would

have successfully met the state requirements needed to see this put on the November ballot. I
have provided a summary here of the events as they happened in Sandpoint, Idaho, Bonner
County, District 1.
4.

I served as a volunteer for Reclaim Idaho in the capacity of co-Leader for Bonner County

during the 2017/2018 Medicaid Expansion campaign where our team collected over 4000
signatures. We easily qualified District 1 and helped collect additional signatures that went to
the statewide totals needed to put Medicaid Expansion on the ballot. Our team consisted of over
100 dedicated volunteers.
5.

The Invest in Idaho campaign started in November of 2019 and I accepted the volunteer

position of Bonner County Leader.
6.

Our team assembled quickly and collected over 300 signatures during our first one day

event.
7.

We began with the goal of collecting 100 signatures per week and easily exceeded that

during most weeks.
8.

On February 1, we held an event in Sandpoint to tell people more about the initiative and

65 people attended. We were able to recruit 55 new volunteers who committed to collect
signatures at events or from friends and family.
9.

The momentum from that event continued to build and we collected over 800 signatures

during the month of February.

73

Case 1:20-cv-00268-BLW Document 2-6 Filed 06/06/20 Page 3 of 5

10.

By early March, my team was beginning to become concerned about how the virus might

affect our campaign.
11.

We decided to set a new goal of qualifying no later than March 30 in case the virus

disrupted our collection activities.
12.

The majority of our team in Sandpoint is over 60 years old, and many had high risk

family members as well, so we were on high alert for potential risks.
13.

Starting in early March, we began purchasing masks, gloves, hand sanitizers and

disinfectant wipes.
14.

We started requiring that all volunteers use the extra hygiene precautions and provided

pocketed aprons and supplies to everyone collecting at public events.
15.

As the CDC guidelines began to be released, our team decided that the last public event

that we would collect signatures at would be March 13 as we no longer believed that we could
assure the safety of our volunteers and the public.
16.

Specifically, volunteers Nancy Gerth, Jill Trick, Carol Holmes, Rebecca Holland, and

Linda Byars, voiced concerns about safety for themselves and for the public.
17.

We all brainstormed about different possible methods for collecting in a safe manner, but

in the end Reclaim Idaho suspended the campaign on March 18 after the leadership of Reclaim
Idaho were informed we could not collect signatures electronically or get an extension to the
original signature deadline.
18.

In the absence of a solution to collect signatures during the pandemic, we were all very

discouraged, frustrated and disappointed. Reclaim Idaho’s volunteers called and emailed the
Governor and asked for an extension of the deadline or permission to collect signatures
electronically. Governor Little denied our requests which left us feeling demoralized.

74

Case 1:20-cv-00268-BLW Document 2-6 Filed 06/06/20 Page 4 of 5

19.

I believe the state of Idaho has a responsibility to protect our rights during these

unprecedented times.
20.

In an interview with National Public Radio that aired on March 31st, I spoke of the

importance of the initiative process for addressing the underfunding of Idaho schools: “If our
legislators aren't willing to solve it, then, OK, fine, we'll do this, but give us the tools to be able
to do this. That's all we're asking.”
21.

We immediately stopped all collection activities and turned in our last petitions to the

elections office on March 27.
22.

Because we had increased our collection efforts in early March, we were easily able to

qualify our district, five weeks before the April 30 deadline.
23.

From my experience with the Medicaid Expansion efforts, the last six weeks were by far

the most productive weeks during the collection window.
24.

This campaign was no different except that I feel we had a stronger, more experienced

team this time around.
25.

I have no doubt that our team would have continued to work hard right up to the deadline

to ensure that the statewide totals were met. We even had a dedicated team who was ready to
travel to other districts that needed assistance. One volunteer, Rebecca Holland, offered to lead
this venture and offered to fund the travel expenses as an in-kind donation to Reclaim Idaho.
26.

My team of volunteers understood that the current level of funding for education in Idaho

is a crisis. They recognized that this effort was critical and were ready to do the work necessary
to help this initiative succeed. They were every bit as dedicated to getting this initiative onto the
ballot as were my volunteers for the Medicaid Expansion effort.

75

Case 1:20-cv-00268-BLW Document 2-6 Filed 06/06/20 Page 5 of 5

27.

Based on my personal experience, I believe that had we been able to continue collecting

signatures our statewide team would have met the state requirements to put our initiative onto the
November 3, 2020 ballot.

Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the foregoing is true and
correct. EXECUTED ON this 6th day of June 2020.

/s/ Linda Larson

76

Reclaim Idaho Exhibit H
Declaration of Karen Lansing

77

Case 1:20-cv-00268-BLW Document 2-7 Filed 06/06/20 Page 1 of 7

Deb o rah A. F ergus o n
C rai g H. Durham
FER GUS ON DUR H AM , P LLC
2 2 3 N. 6 t h S t reet , S ui t e 325
B o i s e, Id aho 83702
T: (2 0 8 ) 724-2617
F: (2 0 8 ) 906-8663
d af@fe rg us ondurha m .com
ch d @ferg us ondu rha m .com
At t o rn ey s for P l ai nt i ffs
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, an Idaho Political
Action Committee, and LUKE
MAYVILLE,

Case No. 1:20-cv-00268-BLW

Plaintiffs,
v.
BRADLEY LITTLE, in his official
capacity as Governor of Idaho, and
LAWERENCE DENNEY, in his official
capacity as Idaho Secretary of State,

DECLARATION OF
KAREN LANSING IN
SUPPORT OF MOTION FOR
PRELIMINARY
INJUNCTION

Defendants.

I, Karen Lansing, having first been duly sworn upon oath, declare as follows:
1.

My name is Karen Lansing, and I am an active volunteer of Reclaim Idaho, the Plaintiff

in this case.
2.

I formerly sat as a judge on Idaho Court of Appeals from 1993 to 2015.

78

Case 1:20-cv-00268-BLW Document 2-7 Filed 06/06/20 Page 2 of 7

3.

I became associated with Reclaim Idaho in January 2018 when I volunteered to gather

signatures on the initiative petition to expand Medicaid in Idaho.
4.

When the organization launched its second initiative effort, this time to increase state

funding for public schools, I again participated. I began gathering petition signatures as soon as
the new petition form was released in October, 2019. I simultaneously gathered signatures for a
separate, unrelated initiative to raise the minimum wage in Idaho.
5.

In October and November, 2020, I also composed for publication a guest opinion

supporting the initiative which is attached to my declaration as Exhibit A. To gather historical
information and statistical data for the piece, I researched extensively on-line and at the Idaho
Law Library. This opinion piece was published in the November 17, 2019 issue of the Idaho
Stateman newspaper.
6.

I gathered petition signatures in a number of ways. These included going door-to-door in

residential neighborhoods in Boise and Eagle, Idaho; standing in the vicinity of polling places on
election days in November, 2019 and March 2020 to solicit signatures from voters, approaching
people attending rallies and other political events; standing near entrances to public libraries and
other public buildings in Boise and Nampa, Idaho; and requesting signatures of passers-by on
public sidewalks.
7.

During the winter, obtaining signatures was very challenging because of the weather.

Soliciting signatures in a rain or snow storm isn’t practical because the petitions will get wet.
When there was no precipitation, it was nevertheless difficult because I found that I often could
stand outside no longer than about an hour before I my hands became too cold to continue. I was
impressed, however, by the number of people who were willing to pause in the bitter cold to
write their names and addresses on the petition.

79

Case 1:20-cv-00268-BLW Document 2-7 Filed 06/06/20 Page 3 of 7

8.

As the weather improved in February and early March, 2020, I was able to greatly

increase time devoted to signature gathering. During that period, I spent several hours on most
days gathering petition signatures and doing related data entry.
9.

It became impossible to continue, however, due to the spread of coronavirus cases in

Idaho.
10.

Initially, when the coronavirus became a concern, Reclaim Idaho leaders considered

whether we could continue the initiative effort by taking special steps to protect signature
gatherers and petition signers. Ideas included having the volunteers wear gloves and providing a
separate ink pen for each signer to prevent virus transmission. Ultimately it was decided that no
such measures could assure participants’ safety because participants would inevitably come into
close contact and individuals could not sign the petition without touching the paper that had been
touched by others.
11.

Moreover, one of the most productive means of gathering signatures—taking positions at

public facilities with heavy foot traffic such as libraries and driver’s licensing offices—would
become impossible as those facilities were closing.
12.

For all of the above reasons, continuation of the signature drive was impossible.

Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the foregoing is true and
correct.
EXECUTED ON this 5th day of June 2020.
/s/Karen Lansing

80

Case 1:20-cv-00268-BLW Document 2-7 Filed 06/06/20 Page 5 of 7

Let’s stop starving our schools in Idaho
BY KAREN LANSING

NOVEMBER 17, 2019 07:00 AM

Our forebears who drafted the Idaho Constitution astutely recognized the importance of
quality public education. In Article IX, Section 1 of that document they provided: “The
stability of a republican form of government depending mainly upon the intelligence of
the people, it shall be the duty of the Legislature of Idaho, to establish and maintain a
general, uniform and thorough system of public free common schools.”
Despite that constitutional mandate, many Idaho school districts are operating in financial
crisis conditions. Forty-five of Idaho’s 115 school districts have four-day school
weeks because they cannot afford to heat school buildings and run school buses five days
a week. Some schools have classrooms without a sufficient number of desks to seat all
the students. Teachers are fleeing from rural districts to larger communities or to other
states for better pay. This failure to invest in Idaho’s public schools is nothing new. As a
lifelong Idahoan (and a graduate of Orofino High School), I have watched with alarm for
years as the adequacy of investment in our public schools has declined.
A few statistics illuminate the deficiency of this state’s investment in education.
According to the U.S. Census Bureau, Idaho ranked second-to-last nationally in per-pupil
investment for the 2017-18 academic year. Idaho schools received $7,486 per student in
state, local, and federal revenue compared to a national average of $12,201. Neighboring
Montana invested about $4,000 more per student than Idaho. Wyoming expended about
$9,000 more.
The perpetual inadequacy of state investment in Idaho schools is the impetus behind
a new voter initiative launched by Reclaim Idaho, the group that got Medicaid Expansion
on the 2018 ballot. The “Invest in Idaho” initiative would increase the corporate tax rate,

81

Case 1:20-cv-00268-BLW Document 2-7 Filed 06/06/20 Page 6 of 7

create a new marginal income tax rate for Idaho’s wealthiest individuals, and place the
resulting revenue into a fund earmarked for K-12 public education.
Currently, Idaho’s tax rate for personal incomes over $7,500 is 6.925 percent. The
initiative would add a new tax bracket, increasing the marginal rate to 9.925 percent for
income exceeding $250,000 for individuals and income over $500,000 for couples. In
other words, an individual making $250,000 or a couple making $500,000 would see no
tax increase — only the income above those amounts would be taxed at the new rate. The
initiative would also restore the corporate income tax rate to 8 percent, where it stood
before 2001. If passed, this initiative will generate about $170 million annually to invest
in K-12 schools.
Lest readers fear these enhanced rates for high-income Idahoans would be unfair, let’s
take a look at current tax burdens. First, Idaho’s present income tax structure is virtually
flat — people making less than $8,000 pay the same income tax rate as millionaires.
Second, low-wage earners pay a far higher percentage of their incomes for sales, excise,
and property taxes than the rich do. According to the Institute on Taxation and Economic
Policy, in 2018 the lowest-earning 20 percent of Idahoans paid out over 9 percent of their
wages for such taxes. The top one percent of earners paid only 2.5 percent. Consequently,
even when state income tax is added to those other state and local taxes, the poorest
Idahoans expended a higher share of their wages for taxes (9.2%) than did the wealthiest
Idahoans (7.2%). This regressive tax structure was made even worse in 2018 when the
legislature altered state law to conform to federal tax changes that heavily favored the
wealthy and corporations.
Lastly, consider the tax reductions enjoyed over the last several years by affluent
Idahoans. Despite the financial struggles of public schools, the legislature has reduced the
top income tax rates three times since 2004, when the highest rate was 8.2 percent. It was
decreased to 7.8 percent in 2005, then to 7.4 percent in 2012, and to the current 6.925
percent in 2018. During that same period, Idaho left unfilled thousands of high-paying
jobs worth hundreds of millions in unclaimed wages because Idaho cannot produce
enough skilled workers. This is not a coincidence.
It is apparent that if our public schools are ever to be adequately funded, Idaho voters will
have to create the mechanism to do it. That is why every Idahoan should get behind the

82

Case 1:20-cv-00268-BLW Document 2-7 Filed 06/06/20 Page 7 of 7

“Invest in Idaho” initiative. It’s easy — just sign the initiative petition and vote for it on
your 2020 ballot. Or better yet, volunteer to help with the effort!

83

Reclaim Idaho Exhibit I
Declaration of Deborah Silver

84

Case 1:20-cv-00268-BLW Document 2-4 Filed 06/06/20 Page 1 of 5

Deb o rah A. F ergus o n
C rai g H. Durham
FER GUS ON DUR H AM , P LLC
2 2 3 N. 6 t h S t reet , S ui t e 325
B o i s e, Id aho 83702
T: (2 0 8 ) 724-2617
F: (2 0 8 ) 906-8663
d af@fe rg us ondurha m .com
ch d @ferg us ondu rha m .com
At t o rn ey s for P l ai nt i ffs
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, an Idaho Political
Action Committee, and LUKE
MAYVILLE,
Case No. 1:20-cv-00268-BLW
Plaintiffs,
v.
BRADLEY LITTLE, in his official
capacity as Governor of Idaho;
LAWERENCE DENNEY, in his official
capacity as Idaho Secretary of State;
Defendants.

DECLARATION OF
DEBORAH SILVER IN
SUPPORT OF MOTION FOR
PRELIMINARY
INJUNCTION

85

Case 1:20-cv-00268-BLW Document 2-4 Filed 06/06/20 Page 2 of 5

I, Deborah Silver, having first been duly sworn upon oath, declare as follows:
1.

My name is Deborah Silver, and I am a resident of Twin Falls, ID and a Certified Public

Accountant. I became the volunteer treasurer for Reclaim Idaho in 2019, and am the Reclaim
Idaho volunteer district leader for legislative district 24 (Twin Falls).
2.

We got a jump start the initiative by gathering signatures on November 5, election day.

We collected over 300 signatures with the help of about eight volunteers.
3.

On January 3 of 2020, Abi Sanford and I began doorknocking. We started around 4:30

pm and knocked on about twelve doors. Less than half of those had people at home. We
gathered 8 signatures in less than an hour. It was fully dark before 5:30; and we went home. Of
the people who were home, everyone signed, and a couple had more than one voter who signed.
4.

We began doorknocking five-seven days a week. After the first week, we strategized that

after five o’clock, more people are home. After darkness falls, fewer doors open. We decided
that it is most effective to try to door knock up until total darkness, so we adjusted the start time
as the sun set later and later. We were starting around 4:00 at the beginning and going until 5:30.
5.

Our goal was 100 signatures a week. My personal goal was 60 and Abi and other

volunteers would make up the difference. The verified signature goal for our district is 1356.
6.

We used an app which showed us maps of registered voters, and we had another app

which allowed us to look up registered voters.
7.

We knew that some of the signatures we would collect would be people who had moved

and not changed their voter registration or were not registered- so we were collecting far more
than the required signatures.
8.

In January and February, we met our goal of over 800 signatures. (The county elections

office has been slow in verifying signatures. They verified the November and January petitions

86

Case 1:20-cv-00268-BLW Document 2-4 Filed 06/06/20 Page 3 of 5

with a combined verification rate around 80%. I turned in the February signatures around March
6. The county recently notified me that they have finished verifying those petitions, but I have
yet to pick them up.)
9.

At the end of February, the interest shown by volunteers was really picking up. We held

a new volunteer meeting the last week of February and had about eight new volunteers. About
ten people signed up to collect signatures on election day in Twin Falls.
10.

Due to a health issue, I was sidelined the first week of March, but volunteers kept us on

track collecting the 100 signatures per week as per our plan.
11.

Also, critically, the sun was setting just a little bit later each day, so that our shifts were

beginning after 5 and continuing until dark at or around 6:30. We were anticipating daylight
savings time on March 8, which would allow us to door knock for an additional hour each
evening. This would potentially double the amount of doors and signatures collected per shift. I
now had over ten people who volunteered to doorknock with me at least one day a week.
12.

March 10 was the presidential primary. Volunteers collected signatures in Twin Falls.

Abi Sanford and I traveled to Hailey, Idaho (Blaine county) and gathered signatures outside the
polling places there along with volunteers from the area. The success rate was incredible. This
was occurring around the state.
13.

By Friday of that week, we realized that continuing the effort with covid-19 looming was

endangering both our volunteers and the voters we were contacting. My husband and I self quarantined because it was evident that Blaine county was the epicenter of the pandemic.
14.

From January through early March, our records show that in Twin Falls, we made 2377

attempts at the doors, with a 39% contact rate. I am especially proud of this because this was
winter weather. We went in snow, wind, and cold.

87

Case 1:20-cv-00268-BLW Document 2-4 Filed 06/06/20 Page 4 of 5

15.

I am confident that with the increased participation of volunteers and with the change to

Daylight Savings Time, our district goal would have been achieved by April 1. Our local
volunteers would then expand beyond the city of Twin Falls and continue to collect signatures in
District 23-Jerome, Buhl and Kimberly.
16.

I had personally committed to moving to Blaine county for the month of April to help

with the signature gathering and organizing there.
17.

The fundraising for Reclaim Idaho was also picking up steam. Reclaim Idaho has

attracted hundreds of unique donors, which can be seen by our publicly filed campaign reports.
18.

January through March we were attracting between 50-75 new donors each month.

These were people who had not donated to us in 2019.
19.

We were meeting our fundraising goals as well as attracting new donors. We averaged

300 donations a month January-April from our online fundraising vendor ActBlue. There were
over 320 individual donations in March and April even after halting the signature gathering. For
reference, May saw 106 donations through ActBlue.
20.

Reclaim Idaho raised approximately $115,000 for our K-12 funding initiative. By March

18th, we had expended approximately $98,000 on the signature drive and we had approximately
$17,000 additional funds in the bank.
21.

Our fundraising, volunteer interest, and signature gathering events were reaching critical

mass in early March.
22.

The event on election day was the most successful in Reclaim Idaho’s history.

23.

The surge in volunteers and critically the change in weather and Daylight Savings Time

would have boosted all the organizing efforts.

88

Case 1:20-cv-00268-BLW Document 2-4 Filed 06/06/20 Page 5 of 5

24.

It was necessary to suspend because of Covid-19, but there is no doubt we were within

striking distance of qualifying this ballot initiative.

Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the foregoing is true and
correct.
Executed on this 5th day of June 2020.
/s/ Deborah Silver

89

Reclaim Idaho Exhibit J
Declaration of Counsel

90

Case 1:20-cv-00268-BLW Document 8-8 Filed 06/18/20 Page 1 of 3

LAWRENCE G. WASDEN
ATTORNEY GENERAL
STEVEN L. OLSEN, ISB #3586
Chief of Civil Litigation Division
ROBERT A. BERRY, ISB #7442
MEGAN A. LARRONDO, ISB #10597
Deputy Attorneys General
Civil Litigation Division
Office of the Attorney General
P.O. Box 83720
Boise, ID 83720-0010
Telephone:
(208) 334-2400
Facsimile:
(208) 854-8073
robert.berry@ag.idaho.gov
megan.larrondo@ag.idaho.gov
Attorneys for Defendants
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, an Idaho political action
committee, and LUKE MAYVILLE,
Plaintiff,
vs.
BRADLEY LITTLE, in his official capacity as
Governor of Idaho, and LAWERENCE DENNEY
his official capacity as Idaho Secretary of State,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No. 1:20-cv-00268-BLW
DECLARATION OF COUNSEL IN
SUPPORT OF DEFENDANTS

I, ROBERT A. BERRY, declare as follows:
1.

I am over the age of 18 years and competent to testify on the matters herein. I make

this declaration based upon my own personal knowledge.

DECLARATION OF COUNSEL IN SUPPORT OF DEFENDANTS – 1

91

Case 1:20-cv-00268-BLW Document 8-8 Filed 06/18/20 Page 2 of 3

2.

I am currently one of the counsel of record for the defendants in this matter and am

employed as a Deputy Attorney General for the State of Idaho.
3.

Attached hereto as Exhibit A is a copy of the 1933 Idaho Sess. Laws, Chapter 210

(H.B. No. 186).
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury under the laws of the
United States of America that the foregoing is true and correct.
DATED this 18th day of June, 2020.

/s/ Robert A. Berry
ROBERT A. BERRY

DECLARATION OF COUNSEL IN SUPPORT OF DEFENDANTS – 2

92

Case 1:20-cv-00268-BLW Document 8-8 Filed 06/18/20 Page 3 of 3

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on June 18, 2020, I electronically filed the foregoing with the
Clerk of the Court using the CMF/ECF system which sent a Notice of Electronic Filing to the
following persons:
Deborah A. Ferguson
daf@fergusondurham.com

Craig H. Durham
chd@fergusondurham.com
/s/ Robert A. Berry
ROBERT A. BERRY
Deputy Attorney General

DECLARATION OF COUNSEL IN SUPPORT OF DEFENDANTS – 3

93

Reclaim Idaho Exhibit K
Supplemental Declaration of Luke Mayville

94

Case 1:20-cv-00268-BLW Document 9-2 Filed 06/21/20 Page 1 of 10

Deborah A. Ferguson
Cr a i g H . Durham
FERGUSON DURHAM, PLLC
223 N. 6th Street, Suite 325
B o i se , I d a ho 83702
T: (208) 724 -2617
F : ( 2 0 8 ) 9 0 6-8663
d a f @ f e r g usondurham.com
chd@fergusondurham.com
Attorneys for Plaintiffs
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, a political action
committee, and LUKE MAYVILLE,
Case No. 1:20-cv-00268-BLW

Plaintiffs,
v.

SUPPLEMENTAL
DECLARATION OF LUKE
MAYVILLE IN SUPPORT
OF MOTION FOR
PRELIMINARY
INJUNCTION

LAWERENCE DENNEY, in his official
capacity as Idaho Secretary of State;
BRADLEY LITTLE, in his official
capacity as Governor of Idaho
Defendants.

I, Luke Mayville, having first been duly sworn upon oath, declare as follows:
1.

My name is Luke Mayville, and I am a Co-founder of Reclaim Idaho, the plaintiff in this

case. This is my supplemental declaration in support of a preliminary injunction.

Supplemental Declaration of Luke Mayville

1

95

Case 1:20-cv-00268-BLW Document 9-2 Filed 06/21/20 Page 2 of 10

2.

Defendants argue that our campaign was dilatory on the grounds that we did not begin

the signature-collection process a full 18 months before the deadline. My experience with
grassroots political organizing—including the experience of our successful Medicaid Expansion
signature drive in 2018—tells me that it is the final two months of a signature drive that are by
far the most productive for signature gathering. This is because the looming deadline gives
volunteers a sense of urgency, and they grow more committed and more efficient in their work.
Meanwhile, supporters who had remained on the sidelines in the early months are motivated by
that same sense of urgency to volunteer for the first time.
3.

It is true that we would have collected more signatures had we began our signature drive

several months earlier. But even with an early start, our drive still would have needed those
precious final weeks in order to collect the required number of signatures. An early start would
not have substituted for the loss of our final 48 days—days when the rate of signature collection
was likely to accelerate dramatically.
4.

In fact, we began our “Invest in Idaho” signature drive at a much earlier date on the

calendar than we had begun our Medicaid Expansion signature drive. Our Medicaid Expansion
signature drive did not begin until December of the year prior to the election (the petition was
officially certified for circulation by the Secretary of State on December 5th, 2017). By
comparison, we began our “Invest in Idaho” education initiative significantly earlier, in late
October of the year preceding the election (certified by the Secretary of State on October 25th,
2019). When planning our “Invest in Idaho” drive, we chose to begin the process earlier in order
to increase our chances of success.
5.

However, we had learned from the Medicaid drive that the final months were by far the

most productive for grassroots signature-collection, and we expected the pattern to be repeated

Supplemental Declaration of Luke Mayville

2

96

Case 1:20-cv-00268-BLW Document 9-2 Filed 06/21/20 Page 3 of 10

for our second initiative. Prior to the suspension of our “Invest in Idaho” signature drive, the
pace of signature gathering very closely resembled that of our Medicaid Expansion drive, with
our numbers ramping up dramatically beginning in late February and early March.
6.

Defendants are very likely correct in their prediction that an earlier start would have

yielded more signatures. But it would not have been enough. An early start would not have
replaced those precious final seven weeks that were denied us.
7.

Defendants also argue that our campaign lacked diligence on the grounds that we did not

immediately file a court case prior to early June. Reclaim Idaho is a grassroots organization
without a legal team or funding to hire legal representation. Since our inception, we have
operated mainly on small donations of between $3 and $100. We began considering a lawsuit as
early as March 16, 2020, which was the day we heard from the Governor’s Senior Advisor
Andrew Mitzel that the Governor did not intend to take action. At that point, we suspected that it
was a violation of our rights to force us to choose between public safety and our constitutional
right to petition our government. However, without legal know-how or funding to hire attorneys,
we needed extra time to develop a plan for legal action.
8.

As soon as we were able to articulate the outline of a legal argument, I immediately

scheduled a meeting with Deborah Ferguson of Ferguson Durham PLLC for Monday, May 25th,
2020. Shortly thereafter, Ferguson Durham offered to represent Reclaim Idaho on a pro-bono
basis. From that point forward, we worked swiftly with our attorneys and filed our case on June
6th, just twelve days after our initial meeting. Within the means at our disposal as a grassroots
organization, we worked as swiftly as we could to file our motion.
9.

Defendants argue that Reclaim Idaho willingly ended our signature drive on March 18th,

prior to the March 25th Stay-at-Home order. In fact, we suspended our signature drive on March

Supplemental Declaration of Luke Mayville

3

97

Case 1:20-cv-00268-BLW Document 9-2 Filed 06/21/20 Page 4 of 10

18th but did not terminate all efforts to keep the effort alive. Between March 18th and the
announcement of the Stay-at-Home order on March 25th, our campaign continued to explore
potential means of safe signature gathering.
10.

After several days of deliberating with our Bonner County volunteer team about the

challenge of collecting signatures during a pandemic, one highly active volunteer named
Rebecca Holland drafted a plan for safe signature gathering that she emailed to me and other
members of our statewide team on March 19th. The plan (attached as an exhibit) directed
volunteers to drop off packets of petitions at the homes of local teachers, who were encouraged
in turn to find friends and family members to sign the petition and then bring all signed petitions
to a local volunteer leader in order to be notarized.
11.

Over the next several days, I discussed the plan at length with members of the Bonner

County team. We discussed the practicality of the plan and whether we could possibly
implement it statewide. We eventually concluded that the plan required extensive in-person
contact and therefore posed too high a risk to the health of petitioners.
12.

On March 20th, we sent out a survey to our statewide email newsletter. The first question

was simply to ask whether our supporters and volunteers were okay in the midst of the rapidly
escalating public health crisis. Our second question was the following:
13.

This past week we announced a suspension of our campaign for the Invest in Idaho ballot

initiative. Do you have any ideas on how we might save the signature drive from being shut down
by the coronavirus? [Note: We have already called on the Legislature to adjust the initiative
rules; and we’ve already petitioned Governor Little to authorize online signature gathering. To
date, neither the legislative majority nor the Governor is willing to take action].

Supplemental Declaration of Luke Mayville

4

98

Case 1:20-cv-00268-BLW Document 9-2 Filed 06/21/20 Page 5 of 10

14.

Close to 600 Reclaim Idaho supporters responded to the survey. Some recommended

taking legal action, but none offered a clear plan for how we might build a legal case. Others
urged us to collect electronic signatures or mail-in signatures, without providing a plan for how
those signatures could be accepted as valid by the state. The most common response was merely
to lament the unwillingness of the Legislature and Governor to take action, and many volunteers
expressed hopelessness about the future of the Invest in Idaho initiative.
15.

All the way up until the announcement of the Stay-at-Home order on March 25th, we

continued to carry out discussions with volunteers and supporters about how the campaign might
be resumed. Once the Stay-at-Home order was issued, however, it became absolutely clear that
collecting signatures in-person would be impossible.
16.

The Stay-at-Home order remained in full effect all the way through April 30th, which also

happened to be the final day for collecting signatures. For the final 36 days before the official
deadline, it was a misdemeanor in Idaho to engage in non-essential, in-person activities—
including the collection of signatures.
17.

Defendants have argued that electronic signatures are not necessary for the safe collection

of signatures. “The State of Idaho,” Defendants declare, “is already in Stage 4 of the recovery
from the pandemic.”
18.

It is not at all clear what Defendants mean by the word “recovery.” On Friday, June 19th,

World Health Organization Director-General Dr. Tedros Adhanom Ghebreyesu announced that
the global pandemic is accelerating rapidly. Dr. Tedros said: "The world is in a new and
dangerous phase…We call on all countries and all people to exercise extreme vigilance."

Supplemental Declaration of Luke Mayville

5

99

Case 1:20-cv-00268-BLW Document 9-2 Filed 06/21/20 Page 6 of 10

19.

In Idaho, at the time of this writing on June 21st, 2020, we have seen 528 new cases in the

past five days. This is the largest spike in cases since the early peak of the outbreak in April.
During the past month, 16 deaths were attributed to COVID-19 in Idaho.
20.

All public health authorities are currently exhorting Idahoans to follow social distancing

guidelines. On Tuesday, June 16th, during a statewide call-in with the AARP, Governor Little
attributed the recent rise in COVID-19 cases to a failure of some Idahoans to follow guidelines to
maintain social distance. (https://www.idahopress.com/coronavirus/worried-idahoans-quiz-littleabout-rise-in-covid-19-cases/article_c519a4cd-f3c8-5fa4-9f92-33aa817c2635.html).
21.

In seven of the counties where our signature drive was most active, our volunteer leaders

are over the age of 60 and at heightened risk of contracting COVID-19. These seven counties
account for 13 of the 18 districts where we expected to qualify our initiative.
22.

We are certainly not in a period of “recovery” from the public health crisis brought about

by COVID-19. In the summer of 2020, we continue to live in the midst of a once-in-a-century
pandemic. If Reclaim Idaho is not provided with a safe, socially distant means of collecting
signatures, we will again be forced to choose between our health and our constitutional right to
petition our government.
23.

Defendants have argued that our request to collect e-signatures using DocuSign would be

“a fundamental departure from Idaho law and its Constitution.” In making their case, Defendants
have misconstrued the role of DocuSign in our proposed plan. We are not proposing that the
private entity DocuSign will “run the election”—as Defendants repeatedly suggest. DocuSign is
merely a technology for the verification of the signatures Reclaim Idaho collects, nothing more.
24.

Under our proposal, the management of signature verification and the running of the

election would remain entirely with the Secretary of State and the county clerks. Furthermore,

Supplemental Declaration of Luke Mayville

6

100

Case 1:20-cv-00268-BLW Document 9-2 Filed 06/21/20 Page 7 of 10

neither the DocuSign company nor its personnel would be the “circulator” of the petition.
Designated Reclaim Idaho personnel—all of whom are residents of Idaho—would circulate the
petition online. DocuSign would merely provide the technology required for the collection of
authentic electronic signatures.
25.

Regarding the authenticity of DocuSign signatures, it should be noted that the process of

collecting e-signatures via DocuSign is not substantially different from the process used by the
Idaho Secretary of State to receive absentee ballot requests online. In order to verify the identity
of a person requesting an absentee ballot, the Secretary of State collects a driver’s license
number and the last four digits of a social security number. It is well within the capacity of a
DocuSign platform to collect these same pieces of information for the purpose of authenticating
electronic signatures. (see https://www.docusign.com/blog/can-i-see-a-photo-of-your-id-digitalverification-of-real-world-ids/)
26.

Defendants have argued that the in-person requirement for signature gathering is

important for the purpose of allowing citizens of Idaho “to exercise their legislative powers in an
effective, valid, and informed manner.” We fully agree with this principle. We are of the opinion
that under ordinary conditions, the in-person requirement enhances the quality of civic
engagement. This is why we are not requesting any permanent change to the in-person
requirement. We are only requesting a temporary change in order to protect our First
Amendment right during a once-in-a-century pandemic.
27.

By Monday, June 22nd, the vast majority of Reclaim Idaho’s verified signatures will be in

the hands of the Secretary of State, and the vast majority unverified signatures will be en route to
the offices of the county clerks. This means that a large portion of the required signatures will be
available immediately for processing by the Secretary of State and county clerks.

Supplemental Declaration of Luke Mayville

7

101

Case 1:20-cv-00268-BLW Document 9-2 Filed 06/21/20 Page 8 of 10

28.

Finally, I would like to suggest to the Court at least one alternative form of relief that

would impose no burden on the Secretary of State and county clerks. Rather than permitting the
collection of e-signatures with an extended deadline, the Court might simply reduce the
requirements for the total amount of signatures and the geographic distribution of signatures, as
has occurred in other states.
29.

On March 14th, 2020, in response to COVID-19, the Governor of New York reduced the

signature requirements for candidates seeking ballot access to 30% of the statutory thresholds.
Likewise, this Court might temporarily reduce Idaho’s required number of signatures to 2%
(down from 6%) of the qualified electors of the state at the November 6th, 2018 general election;
and the Court might require signatures from 2% of the qualified electors at the November 6,
2018 general election in each of at least 6 legislative districts (down from 18 legislative districts).

Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the foregoing is true and correct.
EXECUTED ON this 21th day of June 2020.
/s/Luke Mayville

Supplemental Declaration of Luke Mayville

8

102

Case 1:20-cv-00268-BLW Document 9-2 Filed 06/21/20 Page 9 of 10

K-12 Education Initiative with Reclaim Idaho
Citizens are scrambling to get enough signatures before April 30 to qualify our
ballot initiative. Statewide, we need 55,000 and we’re currently now over 33,000.
But we’re unable to do face-to-face engagements due to COVID pandemic, so
we’re reaching out to educators to help us achieve this very important goal.
FACT: This Citizen-sponsored ballot initiative will raise $170-200 Million per year.
That’s around $600 for every student in public & charter schools awarded to their
school district. Can you image the benefits for your school?
LAW: New “Quality Education Fund” will be established, when Citizens pass this
initiative into law in November. The State Education Committee (?) will distribute
funds directly to school districts for only these specified uses:
• Salaries for teachers and support staff
• Reduction of class sizes
• Classroom materials
• Full-day Kindergarten
• Art, music, drama programs
• Special education
• Career Technical Education
NO funding for administrative costs : ”Moneys from the fund shall not be
used to pay superintendents’, principals’ or other administrators’ salaries
or other compensation”, by law proudly passed by Citizen lawmakers
FUNDS: Personal incomes above $250K per person or $500K per married couple,
and from corporations by way of reinstatement to 2010 levels. This new funding
has nothing to do with local property taxes or district levies. Only those at top of
the income-ladder (estimate 5% population) will be impacted.

In 2019, Reclaim Idaho volunteers became Citizen Lawmakers passing
Medicaid Expansion into law for Idaho residents. Now in 2020, we’re
working to increase State funding for K-12 Education a R E A L I T Y !!

103

Case 1:20-cv-00268-BLW Document 9-2 Filed 06/21/20 Page 10 of 10

Urgent Action needed by Educators
to help Reclaim Idaho
put new State funding for K-12
on November ballot

1- Print 2 copies of petition at www.reclaimidaho.org (need all 5 pages)
2- Ask another registered voter to help you. Each will sign a petition using
black or blue ink. Next, print your legal name & address (where registered
for voting) in a very legible manner (4th grade skill level)
3- Find 11 friends to sign your petition (with good social distancing). Tell
them they will helping your school receive an additional $14,400 +/for your classroom (based on the average of 22 students x $600 each).
This is a dream that can come true for you J
4- Call our local co-ordinator (title?) Linda Larson at (208) 255-XXXX or email
her at larson.linda.f@gmail.com to set-up time for delivering to her home
in south Sandpoint (very convenient location )
5- Sign in front of Linda to verify the signatures. A table is set-up on her
outside walkway for good distancing. She’ll notorize petition at no charge.
6- Deadline is Wed, April 29 to give to Linda in order for her to deliver to
elections office by Thursday, April 30

Reclaim Idaho
here with some final pitch

104

Reclaim Idaho Exhibit L
2nd Supplemental Declaration of Luke Mayville

105

Case 1:20-cv-00268-BLW Document 10 Filed 06/22/20 Page 1 of 3

Deborah A. Ferguson
C r a i g H . Durham
FERGUSON DURHAM, PLLC
223 N. 6th Street, Suite 325
B o i se , I d a ho 83702
T: (208) 724 -2617
F : ( 2 0 8 ) 9 0 6-8663
d a f @ f e r g usondurham .com
chd@fergusondurham.com
Attorneys for Plaintiffs
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, a political action
committee, and LUKE MAYVILLE,

Plaintiffs,
v.
LAWERENCE DENNEY, in his official
capacity as Idaho Secretary of State;
BRADLEY LITTLE, in his official
capacity as Governor of Idaho

Case No. 1:20-cv-00268-BLW

SECOND SUPPLEMENTAL
DECLARATION OF LUKE
MAYVILLE IN SUPPORT
OF MOTION FOR
PRELIMINARY
INJUNCTION

Defendants.

I, Luke Mayville, having first been duly sworn upon oath, declare as follows:
1.

My name is Luke Mayville, and I am a Co-founder of Reclaim Idaho, the plaintiff in this

case. This is my second supplemental declaration in support of a preliminary injunction.

Second Supplemental Declaration of Luke Mayville

1

106

Case 1:20-cv-00268-BLW Document 10 Filed 06/22/20 Page 2 of 3

2.

Today I learned that of the 10,593 petition signatures that have been verified to date and

returned to Reclaim Idaho, none were verified from Ada County.
3.

Reclaim Idaho dropped its first batch of signatures off at the Ada County Clerk’s office

on November 18, 2019.
4.

Reclaim Idaho then dropped off four more subsequent batches of signatures on the

following dates: December 17, 2019, January 22, 2020, February 4, 2020, and in March 11,
2020.
5.

Lynn Lockhart, an employee of the Ada County Clerk’s office provided me with the

dates the signatures were dropped off by Reclaim Idaho at the Ada County clerk’s office.
6.

I estimate that approximately 10,000 petition signatures have been turned in by Reclaim

Idaho so far. Of that number, approximately 2,000 were turned in last year in November and
December 2019.
7.

To date, Ada County has not returned any verified petitions to Reclaim Idaho.

8.

I called the Ada County Clerk’s office to ask how many signatures had been verified to

date and was advised to submit an Idaho Public Records request in order to obtain that
information.

Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the foregoing is true and correct.
EXECUTED ON this 22nd day of June 2020.

/s/Luke Mayville

Second Supplemental Declaration of Luke Mayville

2

107

Case 1:20-cv-00268-BLW Document 10 Filed 06/22/20 Page 3 of 3

CERTIFICATE OF SERVICE
I hereby certify on this 22nd day of June, 2020, I filed the foregoing electronically
through the CM/ECF system, which caused the following parties or counsel to be served by
electronic means, as more fully reflected on the Notice of Electronic Filing

Robert A. Berry
Megan Ann Larrondo
robert.berry@ag.idaho.gov
megan.larrondo@ag.idaho.gov
Attorneys for Defendants
/s/ Deborah A. Ferguson

Second Supplemental Declaration of Luke Mayville

3

108

Reclaim Idaho Exhibit M
Governor Little’s April 1, 2020 Proclamation
Modifying Idaho Election Laws

109

110

111

112

113

114

115

116

Reclaim Idaho Exhibit N
Status Report on Compliance with Court’s June 30 Order

117

Case 1:20-cv-00268-BLW Document 25 Filed 07/10/20 Page 1 of 4

Deborah A. Ferguson
C r a i g H . Durham
FERGUSON DURHAM, PLLC
223 N. 6th Street, Suite 325
B o i se , I d a ho 83702
T: (208) 724 -2617
F : ( 2 0 8 ) 9 0 6-8663
d a f @ f e r g usondurham .com
chd@fergusondurham.com
Attorneys for Plaintiffs
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, a political action
committee registered with the Idaho
Secretary of State,
Plaintiff,
v.

Case No. 1:20-cv-00268-BLW
STATUS REPORT ON
COMPLIANCE WITH
COURT’S JUNE 30 TH
ORDER

BRAD LITTLE, in his official capacity as
the Governor of Idaho, and LAWERENCE
DENNEY, in his official capacity as Idaho’s
Secretary of State,
Defendants.

STATUS REPORT ON COMPLIANCE WITH COURT’S JUNE 30 TH ORDER-

1

118

Case 1:20-cv-00268-BLW Document 25 Filed 07/10/20 Page 2 of 4

Counsel for Reclaim Idaho, along with their client Luke Mayville, met and conferred on
the phone with Mr. Robert Berry, counsel for the State, to present Reclaim Idaho’s plan for
collection and submission of authentic e-signatures as set forth in the Court’s orders dated June
30th (Dkt. 19), and June 26th, (Dkt. 14). These meetings occurred on July 1, July 3, and July 7. In
addition, a fourth meet and confer was scheduled by agreement for July 8. Immediately prior to
that final and fourth meeting the undersigned provided counsel for the State with a written
summary of the plan presented by Reclaim Idaho and responses to the State’s concerns that had
been discussed with him. A copy of that letter is attached as Exhibit A. Reclaim Idaho’s plan as
set forth in Exhibit A details the process established, and in bolded font, the changes made by
Reclaim Idaho in response to the concerns raised on behalf of the State.
The particulars of the plan had already been discussed with counsel for the State at the
previous meet and confer meetings. Throughout these conferences, counsel reviewed and
referred to the visual example of Reclaim Idaho’s proposed landing page and the DocuSign
process to walk counsel through the experience of signing the petition electronically in great
detail. These documents are attached to Luke Mayville’s Declaration (Dkt. 2-2).
After counsel for the State received this written summary, counsel and Luke Mayville
waited an hour on July 8 for counsel to join the final meet and confer, but the State never joined
the call. Instead, on the following day the State filed its “Notice Re: Dkt. 19” (Dkt. 23) which
now lists myriad new concerns that were never voiced. As set forth in Luke Mayville’s Fourth
Declaration, many of these could have been easily addressed had the State raised them. Now
they have been.
Yesterday’s “Notice” is much like the State’s choice to wait until the deadline to decide
on a remedy by June 26, and then instead file its Notice [that it did not intend to choose] and
2

119

Case 1:20-cv-00268-BLW Document 25 Filed 07/10/20 Page 3 of 4

Motion to Stay (Dkt.16). At no time during these discussions did the State make any alternative
electronic signature gathering proposals for Reclaim Idaho to consider. And in the end it has not
accepted a single part of the process Reclaim Idaho has proposed. Reclaim Idaho’s good faith
effort to reach an agreement on these matter is outlined in the correspondence attached as Exhibit
A. Further, Luke Mayville addresses the latest scattershot of the State’s complaints in his fourth
declaration. Attached to his declaration as Exhibits 1 and 2 are two DocuSign white papers:
Electronic Signatures and Transactions in the United States and Court Support for Electronic
Signatures in the United States which provide the Court with further information about the
common usage and reliability of electronic signatures.
Accordingly, Reclaim Idaho will proceed as the Court has directed under these
circumstances, and according to the plan it has developed as set forth in Exhibit A.
RESPECTFULLY SUBMITTED on this 10th day of July 2020.
/s/
Deborah A. Ferguson
Craig H. Durham
Attorneys for Plaintiff

STATUS REPORT ON COMPLIANCE WITH COURT’S JUNE 30 TH ORDER-

3

120

Case 1:20-cv-00268-BLW Document 25 Filed 07/10/20 Page 4 of 4

CERTIFICATE OF SERVICE
I hereby certify on this 10th day of July, 2020, I filed the foregoing electronically through
the CM/ECF system, which caused the following parties or counsel to be served by electronic
means, as more fully reflected on the Notice of Electronic Filing

Robert A. Berry
Megan Ann Larrondo
robert.berry@ag.idaho.gov
megan.larrondo@ag.idaho.gov
Attorneys for Defendants
/s/ Deborah A. Ferguson

STATUS REPORT ON COMPLIANCE WITH COURT’S JUNE 30 TH ORDER-

4

121

Case 1:20-cv-00268-BLW Document 25-1 Filed 07/10/20 Page 1 of 5

Exhibit A to Status Report

1

122

Case 1:20-cv-00268-BLW Document 25-1 Filed 07/10/20 Page 2 of 5

FERGUSON DURHAM, PLLC
Deborah A. Ferguson
Craig H. Durham
Email: daf@fergusondurham.com
chd@fergusondurham.com

223 North 6th Street, Suite 325
Boise, Idaho 83702

Telephone
(208) 484-2253
Facsimile
(208) 906-8663

July 8, 2020
Via email
Robert Berry
Deputy Attorney General
Civil Litigation Division
Re: Reclaim Idaho v. Gov. Bradley Little and Secretary of State Lawerence Denney,
Case No. 20-cv-00268- BLW
Dear Robert:
Today will be our fourth meet and confer meeting to address the State’s concerns over Reclaim
Idaho’s plan for collection and submission of authentic e-signatures as set forth in the Court’s
orders dated June 30th (Dkt. 19), and June 26th, (Dkt. 14). We have already addressed these
points with you at our numerous meet and confer meetings, but wanted to provide the written
summary as well as we have discussed a lot of detailed information.
•

Collection of signatures
o Reclaim Idaho will establish a dedicated website for on-line signature collection.
Note: As you requested, we have confirmed the website will be secure, with
encryption built into it. It will be connected through https:// as opposed to
http://.
o The landing page will ask for support to place the issue on the ballot to increase
funding for K-12 education. The page will provide a link for the person to read
the full text at this initial juncture. The potential signers will see the full screen
and the long and short titles. They will have the option of clicking a “start” button
that will take them to the bottom of the page , or they can scroll to the bottom
manually. Note: As you requested, at any point they can scroll up and down
to see the full text of the entire initiative. In sum, the first page, with the short
and long titles ballot titles will be easily viewable to all signers. Moreover,
2

123

Case 1:20-cv-00268-BLW Document 25-1 Filed 07/10/20 Page 3 of 5

Reclaim can commit to sharing a link on the landing page where potential
signers can review the full petition before entering their information, in
response to your request for this feature.
o Before a person can proceed, they will be required to check a box verifying that
they are a registered voter and that they have not previously signed this petition.
Note: In response to your concerns about informing potential signers that
they are leaving Reclaim Idaho’s landing page, we modified the language
above the form to specifically indicate Docusign’s involvement in the process
as follows, with the following message: “Please fill out the form below. After
you fill out the form, you will be redirected to a DocuSign form where you
will sign the official petition.”
o If the person elects to proceed, they will enter their name, voter registration
address, city and zip code, last 4 digits of their social security number, and their
email address. Note: The person will not be asked to enter their driver’s
license number. Docusign has informed Reclaim that a driver’s license is not
essential for meeting industry standards. In light of that, and the fact that
such a requirement would overly restrict the pool of registered voters who
are eligible to sign, there appears no need for this requirement.
o They will hit 'next' and be directed to a PDF of the petition that looks exactly like
the paper version except that: 1. It will have only one signature line, 2. It will
have fields for the last 4 digits of their SSN and the county where the elector
resides, and 3. The circulator statement will have additional wording due to the
on-line nature. Note: This PDF document will contain the Short and Long
Ballot titles, which the person can read in full before signing the initiative as
you have requested.
o All of the fields in the PDF document will populate from the information
provided by the person on the landing page and they will be asked to confirm the
information and authorize the placing of their signature on the petition. If they
elect to proceed, a cursive version of their signature will be affixed to the
signature field. Note: You have also expressed concerns about the ability to
cancel the transaction, should someone chose to do so. There is also a
separate button to cancel the transaction in the event a person declines to
sign.
o If a transaction is cancelled no information is retained. Note: In response to your
concern over the data entered by individuals who chose not to sign, no signer
data will be retained, or even accessed by Docusign.
o A few notes on authentication:

3

124

Case 1:20-cv-00268-BLW Document 25-1 Filed 07/10/20 Page 4 of 5

•

§

The DocuSign form will capture the person’s IP address and GPS location.
The form will also capture the person’s intent to sign by requiring that
they check a box confirming their intention to provide an electronic
signature. These three factors (IP address, GPS location, and intent to
sign) all provide additional authentication. Note: Taken together with
the requirement to provide the last 4 digits of a social security
number, these measures will place Reclaim Idaho’s petition well
above industry standards for authentication.

§

For every signature Reclaim Idaho collects, it will have on file a certificate
of completion. This certificate is a legally binding document that provides
an audit trail in case the authenticity of a signature needs to be reviewed.
The audit trail includes a time stamp for when the person signed along
with their GPS location and IP address. Note: As set forth above,
Reclaim Idaho will provide the Secretary of State with a certificate for
each e-signature collected if requested, once a protective order is in
place. Should the Secretary of State decide to review the authenticity
of any signature, he can do so by reviewing the audit trail.

Submission and verification of signatures
o Each signer’s name, address, and city or zip code will be collected in CSV file
format. This is the same information the county clerks currently are provided in
connection with initiative petitions (absent a wet signature). It will be formatted
as a spread sheet and be organized as follows:
First name/Last name/ street address/ city/ zip code
Note: You requested that the county clerks also be provided with the last
four digits of the social security number of each signer. Reclaim declines this
request for several reasons. First, the clerks have never been provided this
information on petitions and have no practical use for it. Second, you have
indicated that the State may have a duty to release this information in
response to a Public Records Act request. According to our research the
petition becomes an official public record pursuant to IC § 34-1806, as we
have previously discussed with you. As such, we do not want to include these
public identifiers beyond the information required by statute and
inadvertently expose it to disclosure.
However, to address your concerns and make the process as transparent as
possible, we will provide this information to the State once a protective order
is in place, if requested. This simple measure should protect the State from
an obligation to disclose the last four digits of the social security numbers as
a public record, as currently it is our understanding that the current
exemptions upon which the Secretary of State relies -IC § 106 (25) and (34) would not protect this information from disclosure.

4

125

Case 1:20-cv-00268-BLW Document 25-1 Filed 07/10/20 Page 5 of 5

o Reclaim Idaho will submit CSV files to each county via email, containing only
the signatures collected in that county. County clerks will then verify whether
each signer is a registered voter at the provided address. Clerks will also match a
Legislative District to each signer, as they have always done. If this information
cannot be confirmed the clerk will strike the signature, just as they have done in
the past. Note: Because the information will be provided in a typewritten
spread sheet, this should facilitate an easier and faster review than the
handwritten entries usually provided.
o In order to further lighten the burden on county clerks, Reclaim Idaho will submit
signatures periodically throughout the 48-day drive. At the close of each week
during the signature drive, Reclaim Idaho intends to email to each county a CSV
file containing all signatures collected from signers in that county during the
previous seven days.
o Reclaim Idaho will take the following measures to meet the highest industry
standards for verifying the identity and authenticity of each signature.
§

§

Reclaim Idaho’s DocuSign form will confirm each signer’s intent to sign
and their consent to do business electronically (these are the essential
measures that must be taken to ensure that signatures are authentic and
legally binding under the ESIGN Act).
For every signature Reclaim Idaho collects, it will store a certificate of
completion. This certificate is a legally binding document that provides an
audit trail. The audit trail includes a time stamp for when the person
signed along with their GPS location and IP address.

Thank you for working with us on compliance with the Court’s orders.
Very truly yours,
/s/
Deborah A. Ferguson

5

126

Reclaim Idaho Exhibit O
Fourth Supplemental Declaration of Luke Mayville in Support
of Motion for Preliminary Injunction

127

Case 1:20-cv-00268-BLW Document 25-2 Filed 07/10/20 Page 1 of 4

Deborah A. Ferguson
C r a i g H . Durham
FERGUSON DURHAM, PLLC
223 N. 6th Street, Suite 325
B o i se , I d a ho 83702
T: (208) 724 -2617
F : ( 2 0 8 ) 9 0 6-8663
d a f @ f e r g usondurham .com
chd@fergusondurham.com
Attorneys for Plaintiffs
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
RECLAIM IDAHO, a political action
committee, and LUKE MAYVILLE,

Plaintiffs,
v.
LAWERENCE DENNEY, in his official
capacity as Idaho Secretary of State;
BRADLEY LITTLE, in his official
capacity as Governor of Idaho

Case No. 1:20-cv-00268-BLW

FOURTH DECLARATION
OF LUKE MAYVILLE

Defendants.

I, Luke Mayville, having first been duly sworn upon oath, declare as follows:
1.

My name is Luke Mayville, and I am a Co-founder of Reclaim Idaho, and a

plaintiff in this case. This is the fourth declaration I have provided to the Court. My prior
declarations were my first declaration (Dkt. 2-2), my supplemental declaration (Dkt. 9-2), and
my second supplemental declaration (Dkt. 10).

Fourth Declaration of Luke Mayville

1

128

Case 1:20-cv-00268-BLW Document 25-2 Filed 07/10/20 Page 2 of 4

2.

Prior to our first meet and confer with counsel for Governor Little and Secretary

of State Denney, Reclaim Idaho developed a process and protocol for the collection, verification,
and submission of electronic signatures. That process and protocol was developed in cooperation
with DocuSign, the nation’s leading company for execution of electronic signatures on legal
documents.
3.

Attached as Exhibits 1 and 2 to this declaration are two of DocuSign’s white

papers: Court Support for Electronic Signatures in the United States and Electronic Signatures
and Transactions in the United States. These provide useful information about the reliability and
common use of electronic signatures.
4.

During several meetings with counsel for the State, Reclaim Idaho received the

State’s input and adjusted our process and protocol in response to the State’s concerns.
Unfortunately, on July 9th the State submitted to this Court several complaints regarding our
process and protocol that the State did not mention during our multiple meetings. Had the State
chose instead to discuss these complaints with Reclaim Idaho, each complaint would have been
readily answered. Below I will provide answers to the State’s most significant complaints.
5.

The State argues that our online petition form was “developed in a matter of days”

and is therefore unlikely to detect fraud. The truth is that the form we are using is an industrystandard form supplied by DocuSign. DocuSign forms have been officially certified by the
Federal Risk and Authorization Management Program (FedRAMP), a government-wide service
of the United States federal government that vets technology providers for security and risk.
DocuSign forms that closely resemble our form are now used by 800 federal, State, and local
government agencies, including the Federal Communications Commission (FCC), the State of
North Carolina, the Nevada Department of Transportation, and 400 California cities.

Fourth Declaration of Luke Mayville

2

129

Case 1:20-cv-00268-BLW Document 25-2 Filed 07/10/20 Page 3 of 4

6.

The State suggests that the language of the petition that is provided on our online

form is not accurate and may not comply with Idaho law. This is a perplexing suggestion,
considering that the format of our online petition is identical in every aspect to the physical
petition.
7.

The State claims that our compressed schedule for meeting and conferring did not

provide the State adequate time to evaluate a number of important issues with our process and
protocol. The State then mentions several questions that have gone unanswered due to our
compressed schedule. Yet, each of the State’s unanswered questions were not raised by the State
during any of our several meetings. Furthermore, each question listed is easily answerable.
8.

The State asks: Has DocuSign ever accepted signatures for a ballot initiative?

Yes. To give a recent example, DocuSign has accepted signatures for at least two different ballot
initiatives in the State of Massachusetts.
9.

Has DocuSign accepted signatures from persons it has no prior information

about? Yes. It is common practice for DocuSign to accept signatures from persons without prior
information.
10.

The State asks: How is DocuSign being compensated? Reclaim Idaho has signed

a contract for $50,162.50. To date, nearly 1,000 contributors have made donations to help cover
this expense.
11.

It is regretful that the State appears to doubt the very possibility of an industry

standard for the authentication of electronic signatures. Reclaim Idaho has diligently worked to
develop a process and protocol that meets the highest industry standards. Over the course of
several meetings with the State, we received the State’s input and made adjustments in response
to reasonable concerns regarding security, authentication, and transparency.

Fourth Declaration of Luke Mayville

3

130

Case 1:20-cv-00268-BLW Document 25-2 Filed 07/10/20 Page 4 of 4

Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury that the foregoing is true and correct.
EXECUTED ON this 10th day of July 2020.

/s/Luke Mayville

CERTIFICATE OF SERVICE
I hereby certify on this 10th day of July, 2020, I filed the foregoing electronically through
the CM/ECF system, which caused the following parties or counsel to be served by electronic
means, as more fully reflected on the Notice of Electronic Filing

Robert A. Berry
Megan Ann Larrondo
robert.berry@ag.idaho.gov
megan.larrondo@ag.idaho.gov
Attorneys for Defendants
/s/ Deborah A. Ferguson

Fourth Declaration of Luke Mayville

4

131

Case 1:20-cv-00268-BLW Document 25-3 Filed 07/10/20 Page 1 of 9

Court support
for electronic
signatures in the
United States

A DocuSign White Paper

EXHIBIT 1
132

Case 1:20-cv-00268-BLW Document 25-3 Filed 07/10/20 Page 2 of 9
DocuSign Court Support for Electronic Signatures in the United States

Table of Contents
Overview of applicable case law 

3

DocuSign eSignature audit trail relied upon as key evidence

4

IO Moonwalkers, Inc. v. Banc of Am. Merch. Servs., LLC (2018) 

4

Alliant Credit Union v. Abrego (2018) 

4

Obi v. Exeter Health Resources, Inc. (2019)

5

In re Henriquez (2016) 

5

Designs for Health, Inc. v. Miller (2019) 

5

ADHY Investments Properties, LLC v. Garrison Lifestyle Pierce Hill LLC (2013)

5

DocuSign eSignature acknowledged as legally binding

6

Perez-Tejada v. Mattress Firm, Inc. (2019) 

6

Guidotti v. Legal Helpers Debt Resolution, LLC (2014)

6

Woods v. Vector Mktg. Corp. (2014) 

6

Newton v. Am. Debt Servs. (2012) 

7

Pavlov v. Debt Resolvers USA, Inc. (2010) 

7

Use of e-signature for court filings 

8

Thomas v. Credit Mgmt., LP (2018) 

8

In re Mayfield (2016) 

8

Saechao v. Landry’s Inc. (2016) 

8

Derrick Fenley v. Rite Aid Corp. (2014)

8

Use of DocuSign for class actions and related matters 

9

Joseph v. Velocity, the Greatest Phone Company Ever, Inc. (2019)

9

Weckesser v. Knight Enters. S.E., LLC (2018) 

9

United States v. Real Prop. Located at 6340 Logan St. (2018) 

9

Titus v. The Martin-Brower Company, LLC (2018) 

9

Brandenburg v. Cousin Vinny’s Pizza, LLC (2017) 

9

In re Anthem, Inc. Data Breach Litig. (2017) 

9

133

Case 1:20-cv-00268-BLW Document 25-3 Filed 07/10/20 Page 3 of 9
DocuSign Court Support for Electronic Signatures in the United States

Overview of applicable case law
Background: electronic signatures are well established as legally binding
Judicial opinions addressing a challenge to the legality of e-signatures in the United States are relatively rare.
This is likely a function of the widespread adoption of electronic signatures (over one billion signing transactions
with DocuSign alone) combined with the effectiveness of the Uniform Electronic Transactions Act (UETA) and
the Electronic Signatures in Global and National Commerce Act (ESIGN) in confirming their legal validity around
the start of the millennium.
For the vast majority of use cases, and in nearly all jurisdictions, a properly executed electronic signature carries
the same legal effect as a “wet” signature. Indeed, as the court declared in Keller v. Pfizer, Inc., 2018 WL 5841865
(M.D. Pa. Nov. 8, 2018):
“Plaintiff’s argument that she should not be bound by the arbitration agreement simply because
she did not sign a physical paper contract is as archaic today as the notion that James Joyce is
unlawfully obscene.”

Analysis of U.S. case law involving DocuSign
DocuSign surveyed reported cases across all United States jurisdictions (through June 2019) where the court
indicated that the DocuSign eSignature service was used. In none of these rulings was a DocuSign signature
denied the same legal effect as a paper-and-ink signature for any use case covered by ESIGN.
DocuSign also surveyed published court orders specifying the use of DocuSign as an approved means of
participating in certain kinds of legal proceedings; several such court orders have appeared from 2017 to 2019.
In effect, these cases and court orders fall into four categories:
1 Cases where a DocuSign signature was ruled legally binding in the face of a direct challenge
by a signer, underscoring the evidentiary value of the DocuSign audit trail, which effectively logs
the who, what, when, and how of the signing
2 Cases in which the court acknowledged that DocuSign was used to create a binding contract,
although the electronic signature was not central to the issues of enforceability for the underlying
agreement in dispute
3 Cases where electronically signed court filings were deemed inadmissible based on local
court rules specifically requiring a paper-based process or other procedural requirements (such
use cases are expressly excluded from ESIGN)
4 Court orders approving DocuSign as an accepted methodology for participation in certain
legal proceedings, including class actions and settlements, Fair Labor Standards Act (FLSA)
collective actions, and the interlocutory sale of real property
Below are brief summaries of these opinions and court orders, categorized as described above.

This white paper was most recently updated in June 2019. It is offered for general information purposes only; it is not intended as legal advice and is not a substitute for professional legal advice.

134

3

Case 1:20-cv-00268-BLW Document 25-3 Filed 07/10/20 Page 4 of 9
DocuSign Court Support for Electronic Signatures in the United States

DocuSign eSignature audit trail relied upon as key evidence
In these opinions, the DocuSign audit trail was relied upon as evidence of a binding, enforceable
agreement in the face of allegations by a party that it did not actually sign the agreements or did not
intend to be bound by the terms contained therein.
IO Moonwalkers, Inc. v. Banc
of Am. Merch. Servs., LLC
814 S.E.2d 583 (N.C. Ct. App. 2018)

Court affirmed summary
judgment that plaintiff had
ratified the agreement, relying
on DocuSign audit trail as
evidence of intent.

In this business banking dispute, the CEO of plaintiff IO Moonwalkers
asserted that he had not signed defendant’s agreement for credit card
services. The North Carolina Court of Appeals affirmed the lower court’s
grant of summary judgment against plaintiff on the basis that he had
ratified the agreement. In so doing, the court relied on the DocuSign audit
trail showing that someone with access to the corporate email account
had accessed, signed, and reviewed the agreement at specific times:
“Were this a more traditional contract negotiation, in which
the parties had mailed proposed contracts back and forth, a
sworn affidavit stating that Moonwalkers never reviewed or
signed the contracts might be sufficient to create a genuine
issue of material fact…But this case is different because
[defendant] presented evidence from the DocuSign records…
Simply put, the electronic trail created by DocuSign provides
information that would not have been available before the
digital age….” (at 586-587)
As plaintiff had ratified the agreement, the court ruled, there was no need
to rule on any further question of the signer’s identity. The court also
noted that plaintiff’s CEO had used DocuSign previously and was thus
familiar with the eSignature process, suggesting the additional value of
using an industry-leading signature service.

Alliant Credit Union v. Abrego
No. 76669-4-1, 2018 Wash. App. LEXIS 2964
(Ct. App. Dec. 31, 2018)

Allegation of forged DocuSign
eSignature for an auto loan
was not enough to create
a genuine issue of material
fact as to the existence of an
enforceable contract.

In this unpublished opinion, the Washington Court of Appeals affirmed
summary judgment for plaintiff on a breach of contract claim over
defendant’s default on a 2014 auto loan. Defendant issued a series
of allegations challenging the existence of a valid loan, including that
the e-signature had somehow been forged. The court highlighted the
extensive authentication process employed by DocuSign, agreeing
that no genuine issue of material fact exists as to the existence of an
enforceable agreement.

135

4

Case 1:20-cv-00268-BLW Document 25-3 Filed 07/10/20 Page 5 of 9
DocuSign Court Support for Electronic Signatures in the United States

Obi v. Exeter Health
Resources, Inc.
WL2142498 (D.N.H. Ct. 2019)

Plaintiff’s claim of forgery
was rejected in light of the
fact that she had reviewed
and executed the documents
from her DocuSign account,
creating a binding and
enforceable contract.
In re Henriquez
559 B.R. 900 (Bankr. C.D. Cal. 2016)

Court relied on DocuSign audit
trail as evidence of the signer’s
intent to be bound by the
terms of the agreement.

Designs for Health, Inc.
v. Miller
187 Conn. App. 1 (2019)

Evidence that defendant had
DocuSigned an agreement
containing a forum selection
clause was sufficient to
establish the court’s personal
jurisdiction over defendant.
ADHY Investments
Properties, LLC v. Garrison
Lifestyle Pierce Hill LLC
41 Misc. 3d 1211(A) (N.Y. Sup. Ct. 2013)

DocuSigned agreement,
including arbitration clause,
was ratified by plaintiff,
rendering moot the question
of whether his agent had
signed the agreement without
proper authorization.

In a breach of contract claim in the context of employment at a hospital,
Plaintiff Dr. Obi alleged that one or another of the defendants had “forged”
her signature onto a Placement Order, even though she did not challenge
the authenticity of her signature on an overarching Client Services
Agreement. In an unpublished opinion, the U.S. District Court for the
District of New Hampshire granted summary judgment to the defendants,
finding the plaintiff’s “somewhat vague claim” of forgery to be “wholly
unsupported by the record,” as she had reviewed and signed the relevant
documents via her DocuSign account.

In this bankruptcy matter, the court ordered the payment of legal fees
to plaintiff (i.e. did not except them from discharge), rejecting Defendant
Henriquez’s argument that he had believed he would only need to pay if
plaintiff had been successful in modifying a loan. The court relied, in part,
on the DocuSign audit trail showing when plaintiff accessed and signed
the documents—including initialing each page—in concluding that he
was well on notice that he would need to pay even if the loan modification
were unsuccessful.
In this breach of contract matter pertaining to an agreement to sell
plaintiff’s health care products, the Connecticut trial court granted
dismissal on the basis that plaintiff had not met its burden to establish the
court’s personal jurisdiction over defendant. The appellate court reversed
the dismissal in light of the forum selection clause in the DocuSigned
agreement, finding that the DocuSign Certificate of Completion and other
evidence provided by plaintiff met its prima facie burden to establish
personal jurisdiction over defendant, who (the court noted) had used
DocuSign previously to sign agreements.

Garrison Lifestyle sought to enforce a contractual requirement to
arbitrate after ADHY refused to close on the purchase of real properties
won in a successful bid on Auction.com. ADHY claimed that its principal
did not sign the sales agreements, which contained a requirement to
arbitrate. To reach its decision, the New York state trial court reviewed
Auction.com’s practice of using DocuSign to secure signatures for the
relevant contracts. The court reasoned that, although petitioner did not
sign the agreements (his assistant did), petitioner ratified or adopted as
his own the acts of his agent, his assistant.

136

5

Case 1:20-cv-00268-BLW Document 25-3 Filed 07/10/20 Page 6 of 9
DocuSign Court Support for Electronic Signatures in the United States

DocuSign eSignature acknowledged as legally binding
In these opinions, the use of DocuSign eSignature was not central to the dispute over
enforceability of the contract terms but was acknowledged by the court as part of the facts
surrounding the legal agreement.
Perez-Tejada v. Mattress
Firm, Inc.
2019 WL 830450 (D. Mass. February 21,
2019)

Arbitration clause in an
employment agreement was
part of a binding contract
executed using DocuSign.

Guidotti v. Legal Helpers Debt
Resolution, LLC
74 F. Supp. 3d 699 (D.N.J. Dec. 3, 2014)

DocuSign had been used
to form a binding contract,
although the arbitration
provision of the underlying
agreement was struck down
as unconscionable.

Woods v. Vector Mktg. Corp.
2014 U.S. Dist. LEXIS 121165 (N.D. Cal. Aug.
28, 2014)

Arbitration clause in a sales
representation agreement
ruled an enforceable part of
a binding contract executed
using DocuSign.

In this effort by plaintiffs to initiate an overtime wages class action
against their employer, defendant Mattress Firm, Inc. was granted its
motion to compel individual arbitration instead. All but one plaintiff had
accepted the arbitration clause via a DocuSign eSignature process.
The remaining plaintiff had accepted the terms via inaction, after
multiple warnings that failing to affirmatively opt out of the provision
would indicate acceptance. Applying Massachusetts law, the court
found that the arbitration provision was not unconscionable and met
other requirements for an enforceable agreement.
In a customer’s dispute with various related debt resolution services, the
trial court denied defendant’s motion to compel arbitration, after which,
the case went to the Third Circuit Court of Appeals. The court did not
question that a binding contract had been formed but found that there
were real questions about whether defendants had presented plaintiff
with an agreement to arbitrate. The appeals court vacated the order
denying arbitration and remanded the case to the trial court to oversee
limited discovery relating to defendant’s motion to compel arbitration.
After additional discovery and briefing, the trial court found the arbitration
requirements to be unconscionable and thereby unenforceable. However,
the court agreed that when plaintiff signed agreements using DocuSign, a
binding contract was formed.
Plaintiff Woods and others sought to bring a class action over alleged
failures to pay minimum wages. Defendant Vector argued that the
court should enforce the agreement to arbitrate (on an individual basis)
contained in the contracts signed by plaintiffs. The federal trial court
reasoned that because the defendant’s Sales Representative Agreement
(SRA) included an agreement to arbitrate disputes on an individual basis,
defendant’s motion to compel arbitration should be granted. In reaching
its decision, the court reviewed defendant’s onboarding process and
determined that the SRA, which plaintiffs had signed using DocuSign,
resulted in binding contracts that the court should enforce.

137

6

Case 1:20-cv-00268-BLW Document 25-3 Filed 07/10/20 Page 7 of 9
DocuSign Court Support for Electronic Signatures in the United States

Newton v. Am. Debt Servs.
854 F.Supp.2d 712 (N.D. Cal. 2012)

DocuSign had been used
to form a binding contract,
although the arbitration
provision of the underlying
agreement was struck down
as unconscionable.

Pavlov v. Debt Resolvers
USA, Inc.
907 N.Y.S.2d 798 (N.Y. Civ. Ct. 2010)

DocuSign had been used
to form a binding contract,
although the underlying
agreement was unenforceable
due to defendant’s lack of a
required service license.

Plaintiff Newton alleged that American Debt Services (ADS) had promised
to cut her credit card debt in half but never contacted her creditors and
did not settle any of her debts. Newton brought several claims and sought
to establish a class action. ADS sought to compel arbitration based on
Newton’s DocuSigned agreement. Newton challenged the validity of the
agreement, arguing she did not see or read the agreement to arbitrate, so
it should not apply or, alternatively, should be voided for unconscionability.
Citing the ESIGN Act and noting that an electronic signature that
complies with the Act is legally binding, the federal court for the Northern
District of California found that Newton “assented to the contract and the
arbitration clause, and that the arbitration clause is binding on all parties
to the contract.” However, the court refused to enforce the arbitration
clause on grounds of unconscionability.
Plaintiff Pavlov sought a refund of money he paid to a debt resolution
service, Debt Resolvers, which argued that Pavlov was not entitled to
a refund because the agreement he signed using DocuSign did not
permit him to obtain one. The New York City Civil Court found that the
parties, who used DocuSign to apply signatures to some or all of their
agreements, had formed a binding contract. However, the court voided
the contract as unlawful because defendant provides services that
require a license in NY, and defendant was not licensed.

138

7

Case 1:20-cv-00268-BLW Document 25-3 Filed 07/10/20 Page 8 of 9
DocuSign Court Support for Electronic Signatures in the United States

Use of e-signature for court filings
As indicated above, court filings are expressly not covered under ESIGN. Whether electronic signatures
are appropriate to use for documents filed in court may depend on local court and evidentiary rules that,
as these opinions show, litigating parties should always heed.
Thomas v. Credit Mgmt., LP
2018 U.S. Dist. LEXIS 83685 (N.D. Ind.
May 17, 2018)

While the DocuSign audit trail
may have provided sufficient
evidence of the date of
signature of a declaration, it
could not overcome statutory
requirement for “under
penalty of perjury” language.
In re Mayfield
Nos. 16-22134-D-7, UST-1, 2016 Bankr.
LEXIS 2613 (Bankr. E.D. Cal. July 15, 2016)

DocuSign could not be used
to satisfy local court rule
requiring debtor’s counsel to
maintain and provide original
signed documents, excluding
“software-generated”
electronic signatures.

In a case alleging violations of the Fair Debt Collection Practices Act,
plaintiff submitted a DocuSigned affidavit from her sister in support of her
motion for summary judgment. Defendant challenged the admissibility of
the affidavit as undated and unsworn. The court evaluated the affidavit
under 28 U.S.C. § 1746 (“Unsworn declarations under penalty of perjury”)
and ruled that, although the DocuSign audit trail provided evidence of
the date of signature, the declaration was nonetheless inadmissible as it
lacked the requisite language indicating that it had been signed “under
penalty of perjury.”

Counsel for the debtor seeking bankruptcy status filed various documents
to the court with client signatures via DocuSign. The court penalized
counsel for not adhering to Local Bankruptcy Court Rules 9004-1(c)
(1) (C) and (D), which, it said, require that counsel maintain “originally
signed” paper court documents rather than exclusively rely on “softwaregenerated electronic signature.” Though the court acknowledged that,
under ESIGN, DocuSign and other electronic signature services may
be appropriately used in various commercial and other transactions, it
determined that “they do not comply with this court’s local rule." (Note:
Judge Bardwil goes on to suggest that an electronic signature may be
more easily forged than a paper-based signature. This comment may
best be regarded as dictum; it was not based on expert testimony about
electronic signatures and was not required for the ruling.)

See also:
Saechao v. Landry’s Inc.

Derrick Fenley v. Rite Aid Corp.

No. C 15-00815 WHA, 2016 U.S. Dist. LEXIS 33409 (N.D. Cal. Mar. 15, 2016)

2014 Cal. Super. LEXIS 156 (Cal. Super. Ct. July 2014)

DocuSign could not be used to satisfy court
rules for a declaration filed in the context of a
class action.

DocuSigned declarations may meet California
Code of Civil Procedure requirements that they
be “subscribed” (signed with one’s own hand),
but California Rules of Court require declarants to
sign a printed document first.

139

8

Case 1:20-cv-00268-BLW Document 25-3 Filed 07/10/20 Page 9 of 9
DocuSign Court Support for Electronic Signatures in the United States

Use of DocuSign for class actions and related matters
Despite the general limitation of using electronic signatures in the context of court filings, the court
orders below reflect the approved use of DocuSign for participation in class actions, FLSA collective
actions, and related legal actions.
Joseph v. Velocity, the Greatest Phone
Company Ever, Inc.
Case No. 3:18-cv-01174 (S.D. Ohio Jan. 14, 2019)

Approved the use of DocuSign to opt in
to a class action.
United States v. Real Prop. Located at
6340 Logan St.
No. 2:16-CV-02259-KJM-CKD, 2018 U.S. Dist. LEXIS 19061
(E.D. Cal. Jan. 23, 2018)

Approved the use of DocuSign in the context
of interlocutory sale of real property.

Weckesser v. Knight Enters. S.E., LLC
Civil Action No. 2:16-cv-02053-RMG, 2018 U.S. Dist. LEXIS 144981
(D.S.C. Aug. 27, 2018)

Approved the use of DocuSign to participate
in collective actions under the FLSA.

Titus v. The Martin-Brower Company, LLC
Case No. 2:17-cv-00558-JAM-GGH (E.D. Cal. Feb. 27, 2018)

Approved the use of DocuSign to participate
in class action settlement agreement.

Brandenburg v. Cousin Vinny’s Pizza, LLC

In re Anthem, Inc. Data Breach Litig.

No. 3:16-cv-516, 2017 U.S. Dist. LEXIS 129955 (S.D. Ohio Aug 14, 2017)

No. 15-MD-02617-LHK, 2017 U.S. Dist. LEXIS 137281
(N.D. Cal. Aug. 25, 2017)

Approved the use of DocuSign to participate
in collective actions under the FLSA.

Approved the use of DocuSign to participate
in class action settlement agreement.

Visit the DocuSign E-Signature Legality Guide to learn about current electronic signature laws, local legal
systems, and technology preferences for countries around the world.

About DocuSign
DocuSign helps organizations connect and automate how they prepare, sign, act on, and manage agreements. As part of the
DocuSign Agreement Cloud, DocuSign offers eSignature: the world’s #1 way to sign electronically on practically any device, from
almost anywhere, at any time. Today, more than 500,000 customers and hundreds of millions of users in over 180 countries use
DocuSign to accelerate the process of doing business and to simplify people’s lives.

Court Support_WPHM071519LEGPUBUS.pdf

DocuSign, Inc.
221 Main Street, Suite 1550
San Francisco, CA 94105

For more information
sales@docusign.com
+1-877-720-2040

docusign.com

140

9

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 1 of 21

Whitepaper

Electronic
signatures
and
The
digital claims
transactions in
imperative
the
United
States
To remain in the game, insurers must

transform
their
experience.
An overview
ofcustomers’
key legislation
and legal factors.

A DocuSign eBook

EXHIBIT 2
141

1

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 2 of 21
DocuSign Electronic signatures and transactions in the United States

Table of contents
Introduction

3

Part 1: Legislation

4

Federal law: The Electronic Signatures in Global and National Commerce Act (ESIGN)

4

State law: Uniform Electronic Transaction Act (UETA)

6

Part 2: Electronic contracting in practice

10

Common methods of electronic contracting

10

Common considerations about electronic contracting

12

Appendix A: Notable case law

14

Appendix B: Outlier states – Illinois, New York, and Washington

17

Appendix C: Comparison of ESIGN and UETA

20

This whitepaper was drafted by the staff of DocuSign, Inc. and most recently updated in August 2019.
It is intended as educational material only and is not a substitute for professional legal advice.
© 2017-2019. All rights reserved.

142

2

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 3 of 21
DocuSign Electronic signatures and transactions in the United States

Introduction
Electronic signatures are common in the United States, but confusion
still persists regarding the law at a state and federal level. This document
provides an overview of:
1 Legislation enabling electronic signature usage.
2 Key legal factors related to electronic transactions.
What is an electronic contract?
Before addressing the specifics of electronic signature legislation, it may be helpful to
first emphasize one point: under U.S. law, it is absolutely possible to form a contract
electronically. The ESIGN Act and UETA (discussed below) have helped cement this
conclusion, but in most scenarios, this would have been true even without this legislation.
Electronic contracting is essentially contracting, and contract law fundamentals apply.
Any contract, electronic or not, requires:
– An offer
– Acceptance
– Consideration (some promised exchange of value)
– No defenses (a contract, electronic or not, will not be enforced if a successful defense
can be raised; for example, if an element of the contract is unconscionable or violates
public policy, or if one of the contracting parties is too young to create a contract)
The most important contribution of ESIGN and UETA is establishing that electronic records
satisfy the legal requirement that certain documents be in writing.

143

3

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 4 of 21
DocuSign Electronic signatures and transactions in the United States

Part 1: Legislation
Federal Law: The Electronic Signatures in Global and
National Commerce Act (ESIGN)
On October 1, 2000, the ESIGN Act became effective in the United States and is codified at
15 USC § 7001. ESIGN implements a national uniform standard for all electronic transactions
and encourages the use of electronic signatures, electronic contracts, and electronic
records by providing legal certainty for these instruments when parties comply with its
standards. ESIGN preempts any state laws to the extent they aren’t consistent with it.
The ESIGN Act establishes that electronic communication and contracts are equivalent to
their paper counterparts. At a high level, the key elements are:
– A contract may not be denied legal effect or enforceability solely because of
its electronic form.
– If a law requires a record to be in writing, an electronic record satisfies the law.
– If a law requires a signature, an electronic signature satisfies the law.
ESIGN is intentionally neutral regarding the type of technology used, and even goes so
far as to specifically preempt any state law that prescribes specific technology.

General rule regarding electronic transactions
and records
ESIGN provides as follows:
“(1) a signature, contract, or other record relating
to such transaction may not be denied legal effect,
validity, or enforceability solely because it is in
electronic form; and (2) a contract relating to such
transaction may not be denied legal effect, validity, or
enforceability solely because an electronic signature
or electronic record was used in its formation.”
This establishes a baseline rule that electronic transactions
are no less valid than their paper counterparts. Still courts
that have examined ESIGN have consistently confirmed its
broad effect.1 Examples of relevant case law are provided
in Appendix A to this document.

1

Electronic signatures
Electronic signature is defined in ESIGN as “an electronic
sound, symbol, or process, attached to or logically
associated with a contract or other record and executed or
adopted by a person with the intent to sign the record.”
The broad definition of “electronic signature” was intended
to allow many types of technology and methods for signing
electronically. An electronic signature can be nearly
anything produced by electronic means (for example, a
symbol, result, or consequence) that has been created
in order to demonstrate a party’s intent to sign an
electronic record.

See, for example, Specht v. Netscape Comm’cns Corp., 306 F.3d 17, 26 n.11 (2d Cir. 2002) (assessing whether clicking to download software created enforceable agreement to arbitrate,
and noting that the matter of whether “the agreement is a ‘written provision’ despite being provided to users in a downloadable electronic form… has been settled by [the ESIGN Act],”
although ultimately finding that consumers clicking “yes” in the context presented in that case did not manifest assent to license terms).

144

4

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 5 of 21
DocuSign Electronic signatures and transactions in the United States

Examples of electronic signing include:
– Entering a password or personal information
number (PIN)2
– Typing a name where indicated (or prompted) via
computer keyboard3
– Responding to telephone keypad instructions (for
example, press 3 to agree or 5 to hear this menu again)4
– Clicking a button or checkbox

5

– Responding to an email thread in a manner that
manifests assent6
It is important to note that while all of these methods (and
potentially many others) are equally valid as signatures
under ESIGN, they are not necessarily as useful in the
context of enforcing an agreement. See the section
titled “Common Methods of Electronic Contracting” for a
discussion of some of the distinctions between electronic
signature methods.

Consumer disclosures
In some transactions between businesses and consumers,
the business has a statutory obligation to provide
information to the consumer in writing (for example, Truthin-Lending-Act disclosures). ESIGN permits businesses to
make these disclosures electronically, so long as they meet
the requirements set out in the Act.
Where a consumer would otherwise be entitled to receive
information in writing, electronic information will satisfy the
requirement, so long as the consumer:
– Is provided clear and conspicuous notice of the
consumer’s ability to receive the information on paper.
– Is provided with information about the hardware and
software needed to access the information electronically.
– Affirmatively consents to receive the information
electronically.
Consumers must provide this consent in a manner
that “reasonably demonstrates” that the consumer
can access information in the electronic form that will
be used to provide the relevant information.7 A literal

reading of ESIGN indicates that the consent itself must
reasonably demonstrate the consumer’s ability to access
the information, but the legislative history indicates that
the requirement might also be met by the consumer
responding affirmatively to a provider’s question about their
ability to access, or by showing that the consumer actually
accessed the relevant information electronically.8
If there is a change to the hardware or software
requirements to access the relevant information that
creates a material risk whereby a consumer could
lose access to the information, the consumer must be
notified of the new requirements and of their right to
withdraw consent to receive the information electronically.
The reasonable demonstration requirement discussed
above must also be met with respect to the new
system requirements.
Though consumers may withdraw consent to receive
information electronically, such withdrawal does not
affect the legal effectiveness of any transactions
already completed.
Also, while it is advisable to comply with the consumer
disclosure requirements set out in ESIGN to the extent
they apply, ESIGN states that a failure to meet those
requirements will not render any contract invalid or
unenforceable solely on that ground.

Electronic records
ESIGN provides that if any other law requires contracts or
other records to be retained, that requirement may be met
by retaining an electronic record of the applicable contract
or record—so long as the electronic record accurately
reflects the contract or other record and the record
remains accessible to those entitled to access it in a form
that can be accurately reproduced for later reference.
If a contract or record is required by law to be in writing
(for example, if it is subject to the Statute of Frauds),
ESIGN permits it to be completed electronically so long as
the electronic record is in a form that can be retained and
accurately reproduced by all parties who are entitled to
retain the contract or record for future reference.

2 See, for example, the Internal Revenue Service (“IRS”) Fact Sheet 2011-07 (http://www.irs.gov/uac/Taxpayers-Who-File- Electronically-Must-Use-e-Signatures), explaining the use of a
PIN as e-signature on a tax return.
3 See, for example, Haywood Securities, Inc. v. Ehrlich, 149 P.3d 738 (Ariz. 2007).
4 See, for example, opinion number 04-08-15 of the Office of the General Counsel of New York, issued August 18, 2004, interpreting ESIGN to allow a life insurance agent to have an
applicant sign a life insurance application by the entry of their Social Security number into an interactive voice response (IVR) system using a telephone keypad. http://www.dfs.ny.gov/
insurance/ ogco2004/rg040815.htm
5 See, for example, United States v. Hair, 178 Fed. Appx 879, 882 n.3 (11th Cir. 2006).
6 See, for example, Int’l Casings Grp., Inc. v. Premium Standard Farms, Inc., 358 F.Supp.2d 863, 873 (W.D.Mo. 2005).
7 15 USC §7001 (c)(1)(C)(ii).
8 146 Cong. Rec. S5282 (daily ed. June 16, 2000) (colloquy between Senators Abraham and McCain).

145

5

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 6 of 21
DocuSign Electronic signatures and transactions in the United States

State Law: Uniform Electronic Transactions Act (UETA)
The Uniform Electronic Transactions Act (UETA) was adopted in 1999 by the
National Conference of Commissioners on Uniform State Law.
Forty-seven states, the District of Columbia, Puerto Rico, and the Virgin Islands have
adopted UETA.9 Most of these states have made few, if any, modifications to the model
law (the most notable in terms of exceptions being California).
Only three states, New York, Illinois, and Washington, have maintained their own
independently developed laws (which pre-date UETA), but all three have amended or
interpreted them to be consistent with UETA in their effect. A discussion of each of
these “outlier” state laws is set out in Appendix B.
Despite the slight differences among the states, there is enough consistency to permit
most businesses to adopt a single process for electronically signing agreements across
the country.

Preemption—which law applies?
As noted above, ESIGN preempts state laws (including those representing an adoption of
UETA) to whatever extent such laws are inconsistent with ESIGN.
ESIGN also specifically preempts inconsistent state laws that are technology-centric.
This eliminated or forced modification of state laws containing specific digital signature
requirements which could be met only with the use of PKI-based digital certificates.
Although ESIGN and UETA provisions are similar, there are a handful of differences. Perhaps
most notably, ESIGN includes additional requirements for contracting with consumers
(discussed above) and is different in scope from UETA. ESIGN applies to “any transaction
in or affecting interstate commerce,” whereas UETA only encompasses transactions arising
out of business, commercial, and governmental matters.
In practice, the requirements of the state and federal laws are so similar that businesses
generally need not determine which law applies, because they can easily comply with both.
See Appendix C for an in-depth analysis of how ESIGN and UETA differ.

9 Uniform Law Commission, http://www.uniformlaws.org/Act.aspx?title=Electronic%20Transactions%20Act

146

6

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 7 of 21
DocuSign Electronic signatures and transactions in the United States

Exceptions to ESIGN and UETA, and the role of other laws
While ESIGN and UETA generally promote electronic contracting, a few
categories of documents are excluded from the legislation. This does
not mean these documents may not be completed electronically.
It simply means that they are not covered by ESIGN and/or UETA.
As discussed on the next page, many of the documents not covered
by ESIGN and UETA may be electronically completed under other
legislation specific to those documents.

Exceptions
ESIGN does not apply to contracts governed by:
– Laws overseeing the creation and execution of wills, codicils, or
testamentary trust.
– Laws overseeing adoption, divorce, or other matters of family law.
– The Uniform Commercial Code, as in effect in any U.S. state, other
than sections 1-107 and 1-206 and Articles 2 (Sale of Goods) and 2A
(Leases of Goods)

Does state law ever apply to electronic
transactions?

The ESIGN Act applies to “any transaction in
or affecting interstate commerce” (emphasis
added). This raises the question of what kind of
transactions would not fall into its reach. The
courts have historically taken a very broad view as
to what “affects” interstate commerce, including
many transactions where all parties are located in
the same state. For example, if a transaction is part
of a “class” of transactions that affect interstate
commerce, the entire class can be regulated, even
if many of the individual transactions occur solely
in one state.11 Even the local real estate market has
been found to be within the scope of the federal
government’s power to regulate commerce.12
In theory, it is possible that a transaction could exist
that does not affect interstate commerce and thus
would not be subject to ESIGN, but for practical
purposes, it will likely apply to most contracts
entered by companies.

In addition, ESIGN does not apply to:
– Court orders or notices, nor official court documents (including briefs,
pleadings, and other writings), required to be executed in connection
with court proceedings (as these types of documents generally are
governed by court rules, and many courts permit electronically
signed documents pursuant to their court rules10)
– Any notice of:
· The cancellation or termination of utility services (including water,
heat, and power)
· Default, acceleration, repossession, foreclosure, or eviction, or
the right to cure, under a credit agreement secured by, or a rental
agreement for, a primary residence of an individual.
· The cancellation or termination of health insurance/benefits or life
insurance benefits (excluding annuities)
· Recall of a product, or material failure of a product, that risks
endangering health or safety.
– Any document required to accompany any transportation or
handling of hazardous materials, pesticides, or other toxic
or dangerous materials.
Most state electronic signature laws (whether or not modeled on UETA)
contain similar exceptions.

10 See, for example, the “Administrative Procedures for Filing, Signing, and Verifying” provided by the U.S. District Court for the Western District of Virginia at http://www.vawd.uscourts.gov/
media/3355/ecfprocedures.pdf, permitting electronic attorney signatures.
11 See Perez v. United States, 402 U.S. 146 (1971) (sustaining the application of a federal “loan-sharking” law to a local culprit because the practice of loan-sharking, in general, impacted
interstate commerce).
12 Russell v. United States, 471 U.S. 858, 862 (1985) (holding that an apartment rental “unquestionably” affects interstate commerce, and that “the local rental of an apartment unit is merely
an element of a much broader commercial market in real estate”).

147

7

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 8 of 21
DocuSign Electronic signatures and transactions in the United States

UCC exclusions and transferable records
One of the more notable exceptions in both ESIGN and UETA are contracts governed by
the Uniform Commercial Code (UCC), other than sections 1-107 and 1-206 and Articles 2
(Sale of Goods) and 2A (Leases of Goods). This exclusion reflects the fact that the UCC
had already been revised to include provisions for electronic processes for the categories
of transactions excluded.
The following table summarizes the Articles of the UCC and how electronic records
relate to each:
UCC Code

Electronic Records Use

Example Transaction

Article 1. General Provisions

N/A

General

§ 1-10713 (renunciation)

Covered by ESIGN/UETA

Waiver of rights after a breach of contract

§ 1-206 (statute of frauds for personal
property other than “goods”)

Covered by ESIGN/UETA

Sale of personal property other than goods
(for example, IP)

Article 2. Sales

Covered by ESIGN/UETA

Sales contract

Article 2A. Leases

Covered by ESIGN/UETA

Lease agreements

Article 3. Negotiable Instruments

Duplicated in ESIGN Title 2, and UETA § 16

Mortgage notes

Article 4. Bank Deposits

N/A

Checks

Article 4A. Funds Transfers

N/A

EFT systems

Article 5. Letters of Credit

Allowed under UCC Art. 5-104

Bank letter of credit

Article 6. Bulk Transfers

N/A

Liquidation notice

Article 7. Warehouse Receipts/Bill of Lading
and Other Documents of Title

Allowed under Rev. Art. 7-102

Vehicle title

Article 8. Investment Securities

N/A

Securities

Article 9. Secured Transactions

Allowed under Rev. Art. 9-105

Chattel paper

14

15

As noted in the chart above, UCC provisions permit electronic records for certain document
types. For example, section 9-105 sets out the rule for electronic chattel paper, including a
list of requirements for the electronic system employed to evidence the transfer of interests
in the chattel paper. The UCC stipulates that if the system enables such management of the
note in electronic format, the electronic record shall have the same rights and defenses as
equivalent paper records under the UCC.

13 This section was renumbered as section 1-306 following the 2001 amendments to Article 1 of the UCC. See http://www.uniformlaws.org/shared/docs/ucc1/ucc1_am01.pdf
14 This section was removed from the UCC in the 2001 revision to Article 1, but the provision still exists in many states’ adoption of the UCC.
15 See discussion of the revisions to Article 7 dealing with electronic records at http://www.uniformlaws.org/ActSummary.aspx?title=UCC%20Article%207,%20Documents%20of%20
Title%20%282003%29. The revisions have been adopted by most states.

148

8

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 9 of 21
DocuSign Electronic signatures and transactions in the United States

Government exclusions
ESIGN generally applies to government actors, but some
special provisions apply to them.
ESIGN permits federal and state agencies with rulemaking
authority to interpret the Act in connection with statutes
they administer. However, any such “regulation, order,
or guidance” issued by an agency must be “consistent”
with the general principles of ESIGN, may not impose
additional requirements, and must be supported by a
substantial justification. Agencies are permitted to require
retention of paper records only if doing so is essential to
attaining a compelling governmental interest relating to law
enforcement or national security.
Some agencies have interpreted ESIGN as expressly
excluding government filings. For example, the SEC
released guidance in 2001 indicating that it did not
believe ESIGN applied to SEC filings, but nonetheless
authorized the use of electronic records and signatures
for most purposes.16

In practice, government agencies take a variety of
approaches to electronic records, with some agencies
accepting nearly everything electronically, and others
accepting only selected documents, or establishing
regulations that require special treatment of certain
documents. For example, the IRS has adopted a framework
for the use of electronic signatures by Income Verification
Express Services Participants, permitting electronic
signatures on forms 4506-T and 4506T-EZ. The framework
involves, among other things, taking steps to authenticate
the signer, obtain their consent, and obtain third-party
verification of the quality of the electronic signature
process.17 The IRS also permits a number of other forms to
be submitted with electronic signatures, including individual
income tax returns, which may be signed using a PIN.18
ESIGN also permits government actors to impose
specific technical requirements in order to do business
electronically with them as a market participant (for
example, government procurement standards). This is
discussed further in Part 2 below.

16 Application of the Electronic Signatures in Global and National Commerce Act to Record Retention Requirements Pertaining to Issuers Under the Securities Act of 1933, Securities
Exchange Act of 1934 and Regulation S-T, 66 FR 33175 (June 21, 2001).
17 Accessed at https://www.irs.gov/individuals/income-verification-express-services-ives-electronic-signature-requirements.
18 IRS Publication 1345.

149

9

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 10 of 21
DocuSign Electronic signatures and transactions in the United States

Part 2: Electronic contracting in practice
Common methods of electronic contracting
Clickwrap
With “clickwrap” agreements, end users are required to
click a button or checkbox indicating their agreement
to a set of terms before being able to proceed with an
electronic transaction or gaining access to services or
products.19 Courts generally enforce clickwrap agreements
even when the user has not read the contract terms,
because clicking indicates that the user had actual and
constructive knowledge that certain agreement terms
apply to the offered products and services.20
In determining whether to enforce a clickwrap agreement,
a court may scrutinize a website’s design, how the button is
labeled (for example, “continue” or “next” versus “I Agree”),
use of all caps, use of colors or formatting that encourage
or dissuade action, font size, important terms being
visually obscured by advertisements, or even what the
“reasonable Internet user” would conclude were the terms
of the agreement.21 These and other considerations should
be taken into account when implementing a clickwrap
process, especially as clickwrap is most often employed
with contracts of adhesion – “take-it-or-leave-it” contracts
which are not negotiable by the customer. Nevertheless, for
the right use case, an appropriately configured clickwrap
solution can be a highly effective way to achieve a valid,
binding, admissible and enforceable agreement.22

Browsewrap
“Browsewrap” terms are typically posted on a website and
accessible via a hyperlink. These agreements may not
involve an electronic signature at all, but instead rely on
some action of the user (like continuing to visit the website)
to demonstrate “acceptance” of the terms.
While the enforceability of browsewrap is much less
certain than clickwrap, it may be considered “accepted”
when the end user (1) has actual and constructive notice
of the applicable terms; and (2) takes some action to avail
herself of the products and services that are subject to
those terms.23 Enforceability will turn on the particular
facts, particularly the extent to which the website operator
provided notice of the terms.
For example, in Nguyen v. Barnes & Noble, Inc.,24 the court
found that the plaintiff had not agreed to the arbitration
provision in Barnes & Noble’s browse-wrap agreement,
because Barnes & Noble “did not position any notice even
of the existence of its ‘Terms of Use’ in a location where
website users would necessarily see it, and certainly did
not give notice that those Terms of Use applied, except
within the Terms of Use” (emphasis in original). Conversely,
in Cairo, Inc. v. Crossmedia Services, Inc.,25 the court
determined that users had actual and constructive notice
because they were presented with text that read: “[b]y
continuing past this page and/or using this site, you agree
to abide by the [t]erms of [u]se for this site…”

19 Kwan, et. al., v. Clearwire Corporation, No. C09-1392JLR, 2011 U.S. Dist. LEXIS 150145, at *1 (W.D. Wash. Dec. 28, 2011).
20 See, generally, I-Systems, Inc. v. Software, Inc. Quantum Management Systems, LLC, No. 02-1951 (JRT/FLN), 2005 U.S. Dist. LEXIS 47592 (D. Minn. Mar. 7 2005).
21 See Berkson v. GoGo LLC, 97 F.Supp.3d 359 (E.D.N.Y. 2015) (establishing general principles for enforceability of internet agreements: (1) the evidence must show that the user had
notice of the agreement, (2) the link to the terms is located where users are likely to see it and (3) a “user is encouraged by the design and content of the website and the agreement’s
webpage to examine the terms clearly available through hyperlinkage.”) In this case, the court required that “the offeror must show that a reasonable person in the position of the
consumer would have known what he was assenting to” and accordingly distinguished the noticeably smaller hyperlink for the contract terms from the large, colored “Sign In” button.
22 See The Effectiveness of Clickwrap for Legally Enforceable Agreements, available at https://www.docusign.com/sites/default/files/resource_event_files/Click-Legality-Whitepaper-USMay-2019.pdf.
23 Specht v. Netscape Communications Corp., 306 F.3d 17, 25 (2d Cir. 2002) citing Windsor Mills, 25 Cal App. 3d at 992 (2001) quoting Restatement (Second) of Contracts §19 (1981). See
also, Register.com, Inc. v. Verio, Inc., 356 F.3d 393, 429 (2d Cir. 2004) (holding that provisions disclosed solely through browse-wrap agreements are typically enforced if the website
user had actual and constructive knowledge of the site’s terms and conditions, and has manifested assent to them).
24 Nguyen v. Barnes & Noble, Inc., No. 8:12-cv-0812-JST (RNBx), 2012 U.S. Dist. LEXIS 122455 (C.D. Cal. Aug. 28, 2012).
25 Cairo, Inc. v. Crossmedia Services, Inc., No. 04-04825, 2005 U.S. Dist. LEXIS 8450 (N.D. Cal. Apr. 1, 2005).

150

10

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 11 of 21
DocuSign Electronic signatures and transactions in the United States

Signing with an electronic signature system
The method of electronic signature that most closely
resembles the familiar paper contracting process is signing
with an electronic signature system. Documents are
prepared by the sender within the system, then presented
to the intended signer. The signer may then review the
document and will be prompted to sign in the appropriate
location(s). The form of the signature may be a free-form
mark made with a stylus or touch screen, or may be a text
version of the person’s name, in a font selected by them as
part of the signing process.
Case law is strongly in support of the validity of this type
of process, with a range of reported cases confirming the
legally binding effect of electronically signed agreements.26
Further, the breadth of evidence collected by this process
has been shown in a number of cases to be of dispositive
legal value even in the face of a party’s sworn allegations
that they did not sign the agreements in question, leading
to summary judgment for the party seeking to enforce
the agreement.27

26 See, for example, Newton v. American Debt Service, 854 F.Supp.2d 712 (N.D. Cal. Feb 22, 2012) (finding the plaintiff had entered into a binding contract that she had signed using
DocuSign, though declining to enforce an underlying provision of the contract on other grounds).
27 See, for example, IO Moonwalkers, Inc. v. Banc of Am. Merch. Servs., LLC, 814 S.E.2d 583 (N.C. Ct. App. 2018) (affirming summary judgment that plaintiff had ratified the agreement in
question, relying on DocuSign audit trail as evidence of intent).

151

11

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 12 of 21
DocuSign Electronic signatures and transactions in the United States

Common considerations about electronic contracting
Most of the factors that may arise in enforcing and
interpreting electronic agreements are not unique to the
electronic sphere. However, they may manifest themselves
somewhat differently, or cause more concern than they
would otherwise, because lawyers and judges may
be less familiar with the technology.
The following sections attempt to shed some light on
common considerations raised by attorneys about
electronic signature.

Admissibility as evidence
It is important to begin by emphasizing that electronic
records are absolutely admissible as evidence. Like any
evidence, they must be authenticated, or the parties must
agree to their authenticity.
In the federal court system, Federal Rules of Evidence
901 and 902 govern authentication. Courts have
permitted electronic data to be admitted under Fed. R.
Evid. 901(b)(4), which allows authentication through
distinctive characteristics of the document (“Appearance,
contents, substance, internal patterns, or other distinctive
characteristics, taken in conjunction with circumstances”),28
and Fed. R. Evid. 902(7), which allows business emails to
be self-authenticating with information showing the origin
of the transmission or other identifying marks (for example,
company logos and email addresses).29
Confusion sometimes arises in connection with
requirements that an “original” document be produced,
since the concept of an “original” is not very meaningful
in the electronic context. Fortunately, this is addressed in
Fed. R. Evid. 1001(d), which provides in pertinent part that
“For electronically stored information, ‘original’ means any
printout—or other output readable by sight—if it accurately
reflects the information.”

Delivery: when an electronic record is “sent”
and “received”
ESIGN is largely silent regarding delivery of electronic
records; however, UETA provides a set of default rules that
can be modified by agreement of the parties.
An electronic record is considered “sent” when the following
criteria are met:
– The record is addressed or directed to an information
processing system designated or used by the recipient
for receiving records of the type transmitted and from
which the recipient is able retrieve the record.
– The information is in a form the recipient’s system is
capable of processing.
– The information enters an information system outside
the sender’s control or, if the sender and the recipient
are using the same system, enters a part of the system
under the recipient’s control.30
An electronic record is considered “received” when the
following criteria are met:
– It actually arrives at a system to which the recipient has
access for retrieving the record.
– The system has been designated or actually used by the
recipient for receipt of the type of record in question.
– The system is capable of processing the record.
It is not necessary for the recipient to actually open
or view the electronic record in order for it to be
considered received.31
UETA also provides that if one of the parties to a
transmission is aware that a record was not actually sent or
actually received, even though it met the criteria of UETA’s
default rules, then the effect of the electronic record
and its transmission is determined by other law.32 This
provision cannot be modified by agreement of the parties.
A few states have expanded on this provision, adding that

28 United States v. Safavian, 435 F. Supp. 2d 36, 40 (D.D.C. 2006), rev’d on other grounds, 528 F.3d 957 (D.C. Cir. 2008) (admitting emails based on the email addresses contained in the “to”
and “from” fields, and other identifiable material such as the subject matter, signatures, and other personal and professional references).
29 Scheuplein v. City of W. Covina, No. B206203, 2009 Cal. App. Unpub. LEXIS 7805, at *26–27 (Cal. Ct. App. 2d Dist. Sept. 29, 2009) (finding emails to be authenticated when
accompanied with a declaration that the emails were retrieved from the company’s computers and the printouts were accurate representations of the retrieved messages).
30 UETA §15(a).
31 UETA §15(e).
32 UETA §15(f).

152

12

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 13 of 21
DocuSign Electronic signatures and transactions in the United States

a “bounceback” message will automatically prevent a
message from being deemed sent or received.33
Most judicial decisions considering delivery of information
via email, whether or not they relied on the UETA rules,
have determined that if the sender’s business records
establish that an email was transmitted to the correct email
address, a “rebuttable presumption” of delivery arises.34

Proving the identity of the signer
As with any contract, an electronic contract will not be
enforced if the identity of the party to the contract cannot
be established. This can be challenging when parties are
contracting remotely, either through electronic means, or
by mail.
The identity of the signer is an evidentiary issue, and can
be proven in a variety of ways.35 For example, in Zulkiewski
v. Am. Gen. Life Ins. Co., the court found that the insurance
company’s authentication process, which involved
association with an email address, and knowledge of
certain personal information (for example, mother’s maiden
name) were sufficient to establish the identity of the signer.
Electronic security may also play a role in establishing
identity. For example, in Kerr v. Dillard Store Services,
the court declined to enforce an arbitration agreement
purportedly signed by the plaintiff, because the defendant
“did not have adequate procedures to maintain the security
of intranet passwords, to restrict authorized access to
the screen which permitted electronic execution of the
arbitration agreement, to determine whether electronic
signatures were genuine or to determine who opened
individual emails.”36
Similarly, in Ruiz v. Moss Brothers, the employer was unable
to enforce an arbitration agreement where the court found
that they failed to demonstrate how an electronically
signed document had been generated, leaving it unclear
whether reasonable measures were in place to verify the
signer’s identity.37
It is worth noting that, although there are potential pitfalls
with an electronic signature process, it is often still superior
to a paper-based system from an evidentiary standpoint.

An electronic signature will frequently be associated
with an email address, IP, or other elements associated
with the signer, where a contract sent by mail will only be
associated with a physical location (where others may
reside) and a written signature (which may be forged).

Using electronic signatures with
government agencies
ESIGN is made applicable to federal and state
governments.38 In practice, however, government agencies
often decline to accept electronic records, or impose
additional requirements upon them.39 ESIGN does not
grant a right to make electronic filings with the government,
and it permits agencies to interpret ESIGN through the
issuance of regulations. Some agencies have chosen
to impose specific technical requirements, such as the
use of public key cryptography, upon the agency’s use of
electronic signatures.
Over time, government agencies appear to be moving
toward greater acceptance of electronic contracting and
electronic signatures, though they are generally doing so
more slowly than the private sector.
That said, the federal government appears poised to
leap forward in its adoption of electronic signatures. On
December 20, 2018, the 21st Century Integrated Digital
Experience Act (“21st Century IDEA”) was signed into
federal law. The Act requires all executive agencies to
modernize their websites, forms, and processes for
improved user experience and compliance with appropriate
legal standards. It specifically requires that, “[n]ot later
than 180 days after the date of enactment of this Act, the
head of each executive agency shall submit to the Director
and the appropriate congressional committees a plan to
accelerate the use of electronic signatures standards
established under the Electronic Signatures in Global and
National Commerce Act (15 U.S.C. 7001 et seq.).”40
The 21st Century IDEA can be seen as a strong
endorsement of the value of modern digital services,
including electronic signature, for a broad range of
government use cases.41

33 See, for example, Pa. Stat. Ann., tit. 73 § 2260.115.
34 See, for example, American Boat Co., Inc. v. Unknown Sunken Barge, 418 F.3d 910, 914 (8th Cir. 2005) (holding that the same presumption of delivery applicable to paper
communications should apply to email); Kennell v. Gates, 215 F.3d 825, 829 (8th Cir.2000) (absent evidence to the contrary, emails properly dispatched via a generally reliable method
are presumed delivered and received).
35 Zulkiewski v. Am. Gen. Life Ins. Co., No. 299025, 2012 Mich. App. LEXIS 1086 (Mich. Ct. App. June 12, 2012).
36 Kerr v Dillard Store Services, Inc., 2009 WL 385863 (D. Kan. Feb. 17, 2009).
37 Ruiz v. Moss Bros. Auto Group, Inc. (2014) 232 Cal. App. 4th 836.
38 15 U.S.C. § 7004.
39 For example, the Food and Drug Administration has released regulations regarding electronic creation, maintenance, and submission of information subject to FDA regulations, which are
set out at 21 CFR Part 11.
40 21st Century IDEA Act, Public Law 115-336, Sec. 5, available at https://www.congress.gov/bill/115th-congress/house-bill/5759/text].
41 For more information on the 21st Century IDEA Act, see https://www.docusign.com/21st-century-idea-act].

153

13

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 14 of 21
DocuSign Electronic signatures and transactions in the United States

Appendix A
Notable case law
For a summary of all U.S. case law addressing the use of the DocuSign eSignature service,
see the DocuSign white paper “Court Support for the Use of Electronic Signatures in the
United States.”42
For a summary of key case law surrounding clickwrap agreements, see the DocuSign white
paper “The Effectiveness of Clickwrap for Legally Enforceable Agreements.”43
Below are examples of instructive case law addressing a range of issues related to
electronic contracting.

Signed writing requirements
Buckles Management,
LLC v. InvestorDigs, LLC

No. 10-cv-00508-LTB-BNB,
728 F.Supp.2d (D. Colo. 2010)
Though email may be sufficient
to meet the signed writing
requirement under the statute
of frauds, in this case it did
not qualify as an electronic
signature under ESIGN
because the sender did
not intend to be bound by
the terms.

Kaufman v. American
Family Mut. Ins. Co.

No. 05–cv–02311–WDM–MEH,
2007 WL 437641 (D. Colo.
2007)
An automated signature on a
written letter could meet the
statute of fraud requirement,
precluding dismissal.

Barwick v. GEICO

2011 Ark. 128 (Ark. 2011)
The plain language of
Arkansas UETA authorized
the use of electronic records
and signatures to satisfy the
requirement under Arkansas
insurance law that medical
benefits coverage could
only be rejected by a
signed “writing.”

Naldi v. Grunberg

80 A.D.3d 1 (N.Y. App. Div. 1st
Dep’t 2010)

Johnson v. Astrue

No. CIV S-08-0182 GGH
2009 U.S. Dist. LEXIS
130558 (E.D. Cal. June 18,
2009)
Electronic signatures are
not “rubber stamp signatures”
as prohibited in the Code of
Federal Regulations and,
as such, electronic signatures
meet the requirements for
submitting examination
reports under CFR for
disability insurance claimants.

New York Statute of Frauds
may be satisfied by an
electronic writing and
electronic signature because,
among other reasons, the
Electronic Signatures
and Records Act (ESRA)
incorporated the substantive
provisions of ESIGN, which
allow for such electronic
records and signatures.

42 “Court Support for Electronic Signatures in the United States” is available at https://www.docusign.com/white-papers/court-support-for-electronic-signatures-in-the-united-states.
43 White paper is available at https://www.docusign.com/white-papers/the-effectiveness-of-clickwrap-for-legally-enforceable-agreements.

154

14

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 15 of 21
DocuSign Electronic signatures and transactions in the United States

Attribution of electronic signature and proof of consent
Espejo v. Southern
California Permanente
Medical Group

Kerr v. Dillard Store
Services

Use of a unique username
and password is sufficient
to establish the identity of
the signer in the context
of an employee arbitration
agreement.

Court declined to enforce
an arbitration agreement
because the defendant “did
not have adequate procedures
to maintain the security
of intranet passwords, to
restrict authorized access to
the screen which permitted
electronic execution…, to
determine whether electronic
signatures were genuine or
to determine who opened
individual emails.”

246 Cal. App. 4th 1047
(2016)

Labajo vs. Best Buy
Stores L.P.

478 F.Supp.2d 523 (2007)
Although a valid electronic
signature existed, it was not
clear whether the signer
had actual knowledge of
the contract terms to which
the signature purportedly
evidenced agreement.

No. 07-2604-KHV, 2009
WL 385863 (D. Kan. Feb. 17,
2009)

Ruiz v. Moss Bros. Auto
Group, Inc.

232 Cal. App. 4th 836 (2014)

Court declined to enforce
an employee arbitration
agreement where the
employer failed to
demonstrate how the
employee was authenticated
and how the record was
produced and maintained.

Zulkiewski v. Am. Gen. Life
Ins. Co.

No. 299025, 2012 Mich. App.
LEXIS 1086 (Mich. Ct. App.
June 12, 2012)

Adams v. Superior Court
[Adams v. Quicksilver,
Inc.]

No. G042012 2010 Cal. App.
Unpub. LEXIS 1236 (Cal. App.
4th Dist. Feb. 22, 2010)
An electronic signature
could not be attributed to an
employee because the system
used did not have sufficient
controls (that is, it did not
require a password, the record
could be modified after the
fact, it did not include an audit
trail, etc.).

An insurance company’s
authentication process, which
involved association with an
email address and knowledge
of certain personal information
(for example, mother’s maiden
name), was sufficient to
establish the identity
of the signer.

Email as electronic signature
JBB Investment Partners
Ltd. v. Fair
232 Cal. App. 4th 974 Cal: (Court of Appeal, 1st
Appellate Dist., 2nd Div.
2014)

Although a typed name in an
email may be an electronic
signature, it must meet
the other elements of an
“electronic signature” under
UETA; in this case, there was
no evidence of intent to sign.

Int’l Casings Grp., Inc. v.
Premium Standard Farms
Inc.

358 F.Supp.2d 863, 873 (W.D.
Mo. 2005)
Email messages including
“a header with the name of
the sender” were sufficient
to satisfy the signature
requirement under
Missouri’s version of the
UCC and UETA.

Cunningham v. Zurich Am.
Ins. Co.

352 S.W.3d 519, 530 (Tex.
App. 2011)

Court declined to hold the
mere sending of an email
containing a signature block to
be an enforceable electronic
signature “when no evidence
suggests that the information
was typed purposefully rather
than generated automatically,
that [the sender] intended the
typing of her name to be her
signature, or that the parties
had previously agreed that
this action would constitute
a signature.”

155

15

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 16 of 21
DocuSign Electronic signatures and transactions in the United States

Admissibility of electronic evidence
Hook v. Intelius, 10-CV239(MTT)

Lorraine v. Markel
American Ins. Co.

Screenshots regenerated
from archive data (not actual
images) were deemed
admissible and offered
probative value in enforcing
an online agreement.

Established generally that
electronic evidence can be
admitted, subject to a
showing of reliability.44

2011 U.S. Dist. LEXIS 31879
(M.D. Ga. Mar. 28, 2011)

241 F.R.D. 534, 538
(D. Md. 2007)

Delivery of electronic records.
Roling v. E*Trade Sec. LLC

860 F. Supp. 2d 1035, 1043
(N.D. Cal. 2012)
Court found that an
email notice sent within a
reasonable time before
a fee increase was
sufficient notice.

In re Leventhal

No. 10 B 12257, 2012 WL
1067568 (Bankr. N.D. Ill. Mar.
22, 2012)
Court extended to email
the concept that “a properly
addressed item mailed to
someone is presumed to have
been received.”

Abdullah v. Am. Exp. Co.

No. 3:12-CV-1037-J-34MCR,
2012 WL 6867675 (M.D. Fla.
Dec. 19, 2012)

Court found, based on
presented evidence showing
proper delivery of email to
the plaintiff, that “a rebuttable
presumption was created that
Plaintiff received that email.”

Ball ex rel. Hedstrom v.
Kotter

746 F. Supp. 2d 940, 953 n.
10 (N.D. Ill. 2010)

SEC v. Global Online
Direct, Inc.

No. 1:07-cv-0767-WSD, 2007
WL 4258231 (N.D. Ga. Nov.
29, 2007)

Email notices to investors are
appropriate if the process
creates a reasonable
expectation that the investors
will (1) receive notice, (2)
understand what it relates to,
and (3) make a knowing and
deliberate decision to read or
disregard the communication.

Court found presumption that,
because no evidence was
presented to the contrary, the
plaintiff had received and had
knowledge of information
sent to him by the defendant
via email.

44 For more information on the case, see http://www.lexisnexis.com/applieddiscovery/LawLibrary/whitePapers/ADI_WP_LorraineVMarkel.pdf.

156

16

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 17 of 21
DocuSign Electronic signatures and transactions in the United States

Appendix B
Outlier states: Illinois, New York, and Washington
Illinois, New York, and Washington have not adopted UETA, but have passed their own
legislation to support ecommerce. Each state’s law is summarized below.

Illinois
The Illinois legislature adopted the Electronic Commerce
Security Act45 (ECSA) in 1998. Although it has not been
updated to mirror the language of UETA or ESIGN, it is
similar to both in its approach. Most importantly, the ECSA
provides that electronic records and signatures shall not
be denied legal effect, validity, or enforceability solely on
the grounds that they are in electronic form.
ECSA also explicitly provides for the admission of
electronic records and signatures as evidence in legal
proceedings, prohibiting the denial of admissibility on the
sole basis that the record or signature is in electronic form.
The ECSA states that it aims to “facilitate electronic
communications by means of reliable electronic records,”
“facilitate and promote electronic commerce, by eliminating
barriers resulting from uncertainties over writing and
signature requirements,” “minimize the incidence of forged
electronic records, intentional and unintentional alteration
of records, and fraud in electronic commerce,” and
“promote public confidence in the integrity and reliability of
electronic records and electronic commerce.”46
The exceptions to the ECSA are somewhat different than
those to ESIGN and UETA. As with the other signature
laws, this does not mean that electronic signatures are
prohibited, but they must be supported by some other law
or common law principle. The exceptions to ECSA are:
(1)When it would be “clearly inconsistent with the
manifest intent of the lawmaking body or repugnant to
the context of the same rule of law[.]” (the “manifest
intent” referred to in the Act requires more than a mere
showing of a requirement of a “signature” or that the
document be “signed”)

(2)The “creation or execution of a will or trust, living
will, or healthcare power of attorney”
(3)“[A]ny record that serves as a unique and
transferable instrument of rights and obligations”
The law goes on, however, to state that electronic signature
may suffice under the ECSA for a negotiable instrument or
other conveyance when an electronic version of the record
exists, is “stored and transferred in a manner that allows
for the existence of only one unique, identifiable, and
unalterable original”; and “can be possessed by only one
person, and which cannot be copied except in a form that
is readily identifiable as a copy.”
Furthermore, ECSA differs from ESIGN and UETA in
its narrower definition of electronic signature and its
distinct definition of electronic and digital signatures.
An electronic signature is defined as “a signature in
electronic form attached to or logically associated with
an electronic record.”
A digital signature is defined as:
[A] type of electronic signature created by
transformingan electronic record using a message
digest function and encrypting the resulting
transformation with asymmetric cryptosystem using
the signer’s private key such that any person has the
initial untransformed electronic record, the encrypted
transformation, and the signer’s corresponding
public key can accurately determine whether the
transformation was created using the private key and
whether the initial electronic record has been altered
since the transformation was made. A digital signature
is a security procedure.

45 5 ILCS 175.
46 5 ILCS 175/1-105.

157

17

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 18 of 21
DocuSign Electronic signatures and transactions in the United States

Although ECSA includes an extensive discussion of digital
signatures, they are not required for enforceability or
admissibility into evidence. Like many states, Illinois may
require digital signatures in some cases when contracting
directly with the government or submitting documentation
to government agencies.

New York
New York adopted the Electronic Signatures and
Records Act (ESRA) in 2000. ESRA is technology neutral,
supports use of electronic signature and electronic
records for business and personal use, and provides for
the admissibility of electronic records into evidence. As
described on the website of the New York State Office of
Information Technology Services (ITS), “[ESRA] provides
that ‘signatures’ made via electronic means will be legally
binding just as hand-written signatures now are…. There is
now no doubt that electronic records have the same legal
force as those produced in other formats such as paper
and microfilm.”
Similar to ESIGN, ESRA defines electronic signature as
“an electronic sound, symbol, or process attached to or
logically associated with an electronic record and executed
or adopted by a person with intent to sign the record.”
ESRA originally did not apply to electronic transactions
involving transfer of title due to death or incompetence,
or to the appointment of fiduciaries, but the legislature
expanded the scope of ESRA to include such transactions
in 2012. As noted on the ITS website sited above:
“Effective September 23, 2012, ESRA will allow the use
and acceptance of electronic signatures and records with
conveyances and other instruments recordable under
Article Nine of the Real Property Law, and permit recording
officers to electronically accept for recording or filing
digitized paper documents or electronic records of real
property instruments such as deeds, mortgages and notes,
and accompanying documents.”
In the case of Naldi v. Grunberg,47 the New York Appellate
Division confirmed that the New York Statute of Frauds
may be satisfied by an electronic writing and electronic
signature because, among other reasons, ESRA has
incorporated the substantive provisions of the ESIGN Act.

47 80 A.D.3d 1 (NY App Div 2010).

158

18

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 19 of 21
DocuSign Electronic signatures and transactions in the United States

Washington
From 1997 to mid-2019, electronic signatures in
Washington were primarily governed by the Washington
Electronic Authentication Act (WEAA). The state repealed
WEAA in its entirety effective July 28, 2019, essentially
finding the law outdated (in the context of a legal
and business climate that has actively embraced
e-signature) and confusing (in light of inconsistencies
across Washington state law arising from evolving
e-signature provisions).
While the repeal of WEAA arguably leaves Washington
without a singular overlay statute regarding electronic
signatures, it is plainly not intended to negatively impact
e-signature acceptance or enforceability in the state.
The totality of legislative and judicial activity manifests
Washington’s recognition of ESIGN and alignment with the
federal law’s core principles:
– A broad definition of “electronic signature.”
– The legal equivalency of electronic and wet signatures.
– Technology neutrality, that is, a lack of any legal
preference for any particular e-signature methodology
over any other.
Passed well before UETA or ESIGN, WEAA was originally
limited in scope, conferring legal enforceability only
on “digital signatures” (electronic signatures that use
PKI-based digital certificates) and establishing standards
for Certificate Authorities (entities that create and maintain
digital certificates).48 The emphasis on digital certificates
was intended to encourage the public to become more
comfortable with electronic commerce.49 However, the
use of digital certificates failed to emerge as a standard
means of transacting business, mostly due to the common
consensus that the limited extra assurance provided by
digital certificates was not worth the added time, expense,
and hassle of requiring signers to procure them.50
In 1999 and 2011, amendments to WEAA were passed with
the intent of expanding the scope of the law to embrace
a broader range of electronic signatures and to relax
restrictions on government agencies that previously had
limited their acceptance to only digital signatures.51

Then, in 2015, came new e-signature legislation, embodied
in the Revised Code of Washington (RCW) as 19.360.000
et seq. This new law formally recognized that ESIGN
“applies to federal and state transactions, including certain
government transactions, in or affecting interstate or
foreign commerce relating to [Washington] state.”52 While
the law still allows state and local agencies to decide
whether to accept electronic signatures for particular
government use cases, it nonetheless affirms that
electronic signatures carry the same force and effect
as wet signatures.53 Notably, the definition of “electronic
signature” in RCW 19.360.03054 is identical to that in
ESIGN, which created a discrepancy in Washington
state law between this definition and the legacy
definition in WEAA.
The 2019 bill that repealed WEAA, according to state
congressional reports, “cleans up confusion in existing
law”55 and recognizes the fact that the “[p]rivate sector has
put [WEAA] out of business.”56 The bill also amends several
other Washington statutes that previously referenced
different sections of WEAA (for example, RCW 43.07.120,
RCW 43.07.173, RCW 48.185.005, RCW 58.09.050, RCW
58.09.110).57 Some of these amendments insert a definition
of “electronic signature” into the amended statutes by
referring the reader to RCW 19.360.030 (where the ESIGN
definition of “electronic signature” was formally adopted).
Though Washington e-signature law has taken an atypical
approach, its consistent trend toward recognizing and
aligning with ESIGN provides a compelling legal foundation
for the continued full recognition of electronic signatures
for private intrastate transactions—just as ESIGN ensures
the legality of e-signatures for transactions affecting
interstate and foreign commerce.
As for state and local government use cases, RCW
19.360.000 et seq. still controls; it declares that wherever
the use of a written signature is authorized or required by a
state or local agency, an electronic signature may be used
with the same force and effect as a wet signature unless
specifically provided otherwise by law or agency rule.58

48 Stephanie Curry, Washington’s Electronic Signature Act: An Anachronism in the New Millennium, 88 Wash. L. Rev. 559 (2013), available at http://digital.law.washington.edu/dspace-law/
bitstream/handle/1773.1/1252/88WLR559.pdf?sequence=1
49 Id.
50 Id.
51 Id.
52 RCW 19.360.010, available at https://app.leg.wa.gov/RCW/default.aspx?cite=19.360.010
53 RCW 19.360.020, available at https://app.leg.wa.gov/RCW/default.aspx?cite=19.360.020
54 RCW 19.360.030, available at https://app.leg.wa.gov/RCW/default.aspx?cite=19.360.030
55 H.B. Rep. No. 1908 (2015), available at http://lawfilesext.leg.wa.gov/biennium/2019-20/Pdf/Bill%20Reports/House/1908%20HBR%20PL%2019.pdf
56 H.B. Rep. No. 5501 (2019), available at http://lawfilesext.leg.wa.gov/biennium/2019- 20/Pdf/Bill%20Reports/Senate/5501%20SBR%20APS%2019.pdf
57 Id.
58 RCW 19.360.020, available at https://app.leg.wa.gov/RCW/default.aspx?cite=19.360.020

159

19

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 20 of 21
DocuSign Electronic signatures and transactions in the United States

Appendix C
Comparison of ESIGN and UETA
(as drafted by the Uniform Law Commission)
1 Excluded state laws
ESIGN explicitly excludes more state laws from its reach,
but UETA gives the states the flexibility to exclude
additional state laws. Compare ESIGN 103 with UETA
3(a)-(c).

2 Government affairs
UETA covers government affairs, rather than just the
commercial transactions covered by ESIGN. Compare
ESIGN 101(a), 106(13) and UETA 2(16). Its inclusion
of government affairs would appear to provide the
state’s agencies with the enabling legislation that they
may need should they choose to conduct their own
business electronically. Because many state statutes
and regulations implicitly or explicitly require that
the government conduct its business in writing, and
the enabling legislation for state agencies is silent
with respect to electronic activity, UETA provides an
essential foundation for the transition to e-government.

3 Consumer protections
UETA does not contain explicit consumer protection
provisions as set forth in section 103 of ESIGN, but
it leaves in place existing consumer protection laws
and makes clear that they will still apply in electronic
transactions (UETA 5(b), (e); 8(a), (b), (d)(1)-(2); 15).
ESIGN anticipates some of the consumer problems
unique to electronic transactions, and deals with them
explicitly, while UETA does not.

5 Electronic agents
UETA is clearer and more specific with respect to this
topic. Compare ESIGN 101(h) and UETA 14.

6 Insurance
ESIGN provides a liability exemption for agents or
brokers; see ESIGN 1010(j). UETA does not.

7 Record retention
ESIGN forbids states to impose written record keeping
requirements on persons required to keep records of
particular transactions, unless the requirement of a
written record serves a compelling government interest
related to national security or public safety (ESIGN
101(b)(1); 101(d)(1); 101(d)(3); 101(d)(4); 102(c); 104(c)(1);
104(b)(3)(B)). UETA would permit states to require paper
record keeping, but only if they pass a law after UETA is
enacted specifically permitting the same (UETA 7(c)(d);
12(f); 12(a)(1)-(2); 12(d)-(e)). Given the preemptive
effect of ESIGN, any such after-adopted legislation
would probably have to meet ESIGN’s test for written
record requirements.

4 Record retention
UETA enables parties who are required to keep written
records to have an agent keep the records for them
(UETA 12(c)). ESIGN lacks such a provision.

160

20

Case 1:20-cv-00268-BLW Document 25-4 Filed 07/10/20 Page 21 of 21
DocuSign Electronic signatures and transactions in the United States

8 Additional provisions
ESIGN does not contain provisions addressing the
following issues, which are addressed in UETA:
– Temporal application, that is, what transactions the
statute will apply to (UETA 4)
– Parties’ ability to vary some of the terms of UETA by
agreement (UETA 5, 8(d), 10(4), 15(g))
– Attribution of electronic signatures (UETA 9(a)-(b))
– Change or error in electronically conducted transactions
(UETA 10)
– Rules governing the time and place of sending and
receipt of electronic records (UETA 15)
– Admissibility of electronic records and signatures as
evidence (UETA 13)

9 Transferable records
ESIGN limits transferable records to notes secured by
real estate, while UETA would apply to a broader
range of commercial paper. Compare ESIGN Title II
and UETA 16.

10 Federally mandated vs. voluntary state
e-procurement
ESIGN appears to require government entities to use
or accept electronic records and signatures in the
procurement process where they engage in transactions
affecting interstate or foreign commerce with private
parties who choose to conduct business electronically
(except with respect to a contract to which the state is a
party). See ESIGN 101(b)(2).
In other words, ESIGN appears to require that state
governments accept electronic records and signatures
on all documents related to procurement processes
except for contracts to which the state is a party (ESIGN
101(b)(2); 102(b); 104(b)(4)). This follows because ESIGN
indicates implicitly in section 101(b)(2) that states are
required to accept electronic records or signatures
except with respect to contracts to which states are

parties. Furthermore, ESIGN explicitly exempts state
procurement from only one of the two requirements
that it imposes on states that have not adopted UETA
and want to specify alternative means of conducting
electronic transactions (see ESIGN 102(b)) and only one
of the three requirements imposed on states exercising
their interpretive authority by interpreting their laws
and regulations in light of ESIGN. See ESIGN 104(b)(4).
Both of these explicit exemptions for state procurement
extend only to ESIGN’s requirement that states adhere
to technological neutrality. Thus, provisions of state
procurement laws mandating the use of written
documents “relating to” procurement transactions
are preempted to the same extent as other laws and
regulations requiring written documents, except to the
extent that they apply to contracts entered by a state
and/or specify the technology to be used in the conduct
of the procurement process.
By comparison, UETA gives states the option to use and
accept electronic records in such circumstances (UETA
5(a)(c), 18). Therefore, UETA provides states with far
more flexibility in determining the degree to which they
want to conduct business transactions electronically,
and the time frame during which they will migrate to
electronic commerce.

11 Enabling e-government
In addition, optional provisions of UETA, which do
not appear in ESIGN, pertain specifically to states’
creation and retention of their own electronic records,
conversion of their written records to electronic
records, acceptance and distribution of electronic
records, and the interoperability of systems adopted
by state governments to facilitate e-government (UETA
17-19). While section 17 of UETA does not appear to
be appropriate because it could result in multiple
interpretations of records retention laws by different
agencies, sections 18 and 19 may provide needed
guidance to state agencies faced with questions
about their authority to conduct their own business
electronically after UETA.

About DocuSign
DocuSign helps organizations connect and automate how they prepare, sign, act on, and manage agreements.
As part of the DocuSign Agreement Cloud, DocuSign offers eSignature: the world’s #1 way to sign electronically
on practically any device, from almost anywhere, at any time. Today, more than 500,000 customers and
hundreds of millions of users in over 180 countries use DocuSign to accelerate the process of doing business
and to simplify people’s lives.

2019.12.26

DocuSign, Inc.
221 Main Street, Suite 1550
San Francisco, CA 94105

For more information
sales@docusign.com
+1-877-720-2040

docusign.com

161

21

Case 1:20-cv-00268-BLW Document 25-3 Filed 07/10/20 Page 9 of 9
DocuSign Court Support for Electronic Signatures in the United States

Use of DocuSign for class actions and related matters
Despite the general limitation of using electronic signatures in the context of court filings, the court
orders below reflect the approved use of DocuSign for participation in class actions, FLSA collective
actions, and related legal actions.
Joseph v. Velocity, the Greatest Phone
Company Ever, Inc.
Case No. 3:18-cv-01174 (S.D. Ohio Jan. 14, 2019)

Approved the use of DocuSign to opt in
to a class action.
United States v. Real Prop. Located at
6340 Logan St.
No. 2:16-CV-02259-KJM-CKD, 2018 U.S. Dist. LEXIS 19061
(E.D. Cal. Jan. 23, 2018)

Approved the use of DocuSign in the context
of interlocutory sale of real property.

Weckesser v. Knight Enters. S.E., LLC
Civil Action No. 2:16-cv-02053-RMG, 2018 U.S. Dist. LEXIS 144981
(D.S.C. Aug. 27, 2018)

Approved the use of DocuSign to participate
in collective actions under the FLSA.

Titus v. The Martin-Brower Company, LLC
Case No. 2:17-cv-00558-JAM-GGH (E.D. Cal. Feb. 27, 2018)

Approved the use of DocuSign to participate
in class action settlement agreement.

Brandenburg v. Cousin Vinny’s Pizza, LLC

In re Anthem, Inc. Data Breach Litig.

No. 3:16-cv-516, 2017 U.S. Dist. LEXIS 129955 (S.D. Ohio Aug 14, 2017)

No. 15-MD-02617-LHK, 2017 U.S. Dist. LEXIS 137281
(N.D. Cal. Aug. 25, 2017)

Approved the use of DocuSign to participate
in collective actions under the FLSA.

Approved the use of DocuSign to participate
in class action settlement agreement.

Visit the DocuSign E-Signature Legality Guide to learn about current electronic signature laws, local legal
systems, and technology preferences for countries around the world.

About DocuSign
DocuSign helps organizations connect and automate how they prepare, sign, act on, and manage agreements. As part of the
DocuSign Agreement Cloud, DocuSign offers eSignature: the world’s #1 way to sign electronically on practically any device, from
almost anywhere, at any time. Today, more than 500,000 customers and hundreds of millions of users in over 180 countries use
DocuSign to accelerate the process of doing business and to simplify people’s lives.

Court Support_WPHM071519LEGPUBUS.pdf

DocuSign, Inc.
221 Main Street, Suite 1550
San Francisco, CA 94105

For more information
sales@docusign.com
+1-877-720-2040

docusign.com

162

9

Reclaim Idaho Exhibit P
Court of Appeals Order Denying Emergency Stay and Dissent

163

Case: 20-35584, 07/09/2020, ID: 11747404, DktEntry: 14-1, Page 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUL 9 2020
MOLLY C. DWYER, CLERK

RECLAIM IDAHO, an Idaho political
action committee; LUKE MAYVILLE,
Plaintiffs-Appellees,
v.
BRAD LITTLE, in his official capacity as
Governor of Idaho; LAWERENCE
DENNY, in his official capacity as Idaho
Secretary of State,

No.

20-35584

U.S. COURT OF APPEALS

D.C. No. 1:20-cv-00268-BLW
District of Idaho,
Boise
ORDER

Defendants-Appellants.
Before: THOMAS, Chief Judge, SCHROEDER and CALLAHAN, Circuit Judges.
Appellants’ motion (Docket Entry No. 2) to stay the district court’s June 26,
2020 and June 30, 2020 orders pending appeal is denied. See Nken v. Holder, 556
U.S. 418, 425–26 (2009).
The court sua sponte expedites this appeal. The opening brief is due July 17,
2020. The answering brief is due July 29, 2020. The optional reply brief is due
August 3, 2020.
No streamlined extensions of time will be approved. See 9th Cir. R. 312.2(a)(1). No written motions for extensions of time under Ninth Circuit Rule 312.2(b) will be granted absent extraordinary and compelling circumstances.

164

Case: 20-35584, 07/09/2020, ID: 11747404, DktEntry: 14-1, Page 2 of 2

The Clerk shall place this case on the calendar for August 2020. See 9th Cir.
Gen. Order 3.3(g).

165

Case: 20-35584, 07/09/2020, ID: 11747404, DktEntry: 14-2, Page 1 of 2

CALLAHAN, Circuit Judge, dissenting:
I respectfully dissent.

The appellants have demonstrated the requisite

likelihood of success on the merits and probability of irreparable harm to warrant a
stay pending appeal, and the remaining stay factors weigh in their favor. See Nken
v. Holder, 556 U.S. 418, 425–26 (2009).
The appellants have made a substantial showing that the district court
exceeded its authority by awarding relief that effectively rewrites Idaho’s election
laws, particularly its law designed to protect against fraud in the initiative process.
See Purcell v. Gonzalez, 549 U.S. 1, 4 (2006) (explaining that states have a vital
interest in regulating their election processes); see also Republican Nat’l Comm. v.
Democratic Nat’l Comm., 140 S. Ct. 1205, 1207 (2020) (reiterating that the Supreme
Court “has repeatedly emphasized that lower federal courts should ordinarily not
alter the election rules on the eve of an election”). The district court cannot create
by judicial fiat a process for electronic signature gathering that is not otherwise
permitted under Idaho’s laws. That is up to the state’s legislature.
The appellants also have made a substantial showing that the appellees failed
to act with the necessary diligence to trigger the heightened standard of review
applied by the district court. See Angle v. Miller, 673 F.3d 1122, 1133–34 (9th Cir.
2012).

166

Case: 20-35584, 07/09/2020, ID: 11747404, DktEntry: 14-2, Page 2 of 2

The remaining factors support granting the stay as well. See Abbott v. Perez,
138 S. Ct. 2305, 2324 (2018) (explaining that absent a constitutional violation, an
injunction that bars a “State from conducting [its] elections pursuant to a statute
enacted by the Legislature . . . would seriously and irreparably harm the State”);
Purcell, 549 U.S. at 4 (“A State indisputably has a compelling interest in preserving
the integrity of its election process.”).
Accordingly, I would grant the appellants’ motion to stay.

167

Reclaim Idaho Exhibit Q
Notice of Oral Argument Scheduled for August 10, 2020

168

United States Court of Appeals for the Ninth Circuit
Calendar for Old Federal Building, Anchorage Alaska
Oral Argument Notice
Note: Calendar entries may change up until the hearing date.
Please remember to check the docket report for updates. Case
synopses are prepared by court staff for the convenience of the
reader.
2020-08-10 9:30 am Herbert A. Ross Historic Courtroom, Old Federal Building, Anchorage Alaska
Case No.

Title

Nature Origin

Time
/ Side

19-30045

USA v. Colter O'Dell - Appeal from conviction for being a felon in
possession of a firearm. [3:17-cr-00145-TMB-1]

Criminal

AK

Subm.

19-30088

USA v. Gerardo Valenzuela - Appeal from sentence for theft of bank
funds. [3:11-cr-00074-TMB-1]

Criminal

AK

Subm.

19-30211

USA v. Michael Moore, Jr. - Appeal from conviction for conspiracy to
commit credit union robbery, armed robbery of a credit union, and
brandishing a firearm in furtherance of a credit union robbery.
[3:18-cr-00040-SLG-1]

Criminal

AK

Subm.

18-30126

USA v. Zerisenay Gebregiorgis - Appeal from conviction and
sentence for conspiracy to distribute heroin and methamphetamine.
[1:17-cr-00003-TMB-1]

Criminal

AK

Subm.

18-72796
19-70403

Denge Gahano v. William Barr - A citizen of Ethiopia and U.S.
lawful permanent resident challenges: 1) an agency decision
finding him removable for an aggravated felony and denying relief
from removal; and 2) denying a motion for reconsideration.

Immigration

BIA

15 min

20-35584

Reclaim Idaho v. Brad Little - An appeal from the district court's order
granting a motion preliminary injunction brought by Reclaim Idaho, a
volunteer-run political action committee that is seeking to place a citizen
initiative on the November 2020 general election ballot.
[1:20-cv-00268-BLW]

ID

20 min

Civil

Location Address
Old Federal Building
605 West 4th Avenue
Anchorage AK 99501-2253

169

Reclaim Idaho’s Exhibit R
Selected Excerpts from the Oral Argument Transcript

170

(44 of 90)

Case: 20-35584, 07/07/2020, ID: 11743817, DktEntry: 11-3, Page 18 of 53

17

1

reading these -- these cases, reading Angle and other cases

2

about initiatives when they arise in the context of the

3

government, state legislatures making it more difficult and then

4

the courts grasping -- you know, looking at, you know, how

5

severe is this burden.

6

Well, we have got a totally different paradigm here.

7

I mean, the burden with the stay-at-home order subject to

8

criminal misdemeanor penalties is -- is absolute.

9

It's -- it's -- it's severe.

So I don't think there is

10

any -- any doubt that this has inflicted just an incredible

11

burden and really made it impossible for Reclaim Idaho to

12

continue to get this important initiative on the ballot.

13

THE COURT:

All right.

One of the comments that were

14

made in the briefing was that the governor did not make an

15

exception for First Amendment activities.

16

I guess I was a little skeptical whether that would

17

have made any difference because just people -- well, I mean,

18

maybe it's belied by the fact that people were willing to go out

19

and protest, obviously, after the Black Lives Matter issue

20

arose.

21

than to take to the streets to protest something as dramatic as

22

what occurred in Minneapolis.

23

But it's a little bit different to collect signatures

(Inaudible) had exempted First Amendment activity from

24

his stay-at-home order?

25

MS. FERGUSON:

In all candor, no.

I don't think so.

171

(45 of 90)

Case: 20-35584, 07/07/2020, ID: 11743817, DktEntry: 11-3, Page 19 of 53

18

1

I think that -- but I think the important take-home message is

2

that these volunteers shouldn't have to choose between their

3

physical safety and perhaps their life or expressing their First

4

Amendment rights.

5

accommodation made for these extraordinary circumstances, and we

6

don't have to have one or the other.

7

I think there -- there should be a reasonable

THE COURT:

One other question:

In terms of

8

irreparable harm, you know, it's -- I guess I'm echoing a

9

Chicago Cubs fan:

10

Wait until next year.

You know, why can't we just wait until 2022?

Being

11

from -- an ISU fan, the Idaho State Bengals pretty much we say

12

that every year as well.

13

up the mantle then?

14

argument that it's irreparable injury that you're suffering?

15

But why not wait until 2022 and pick

Why does that not kind of undermine your

MS. FERGUSON:

Well, it is irreparable because it's a

16

violation of our constitutional rights.

17

inherently is.

18

extreme burden.

And that just

And this is an extreme -- a severe violation, an

19

In terms of, on a practical matter, why not wait until

20

the next general election, two more years, this is a -- an issue

21

that Reclaim volunteers feels incredibly passionate about, as --

22

as witnessed by their diligence.

23

talking about cuts that will take place, education.

24
25

And the governor is already

So if we're already in last place in the country, we
feel that the need for this initiative is more pressing now than

172

(46 of 90)

Case: 20-35584, 07/07/2020, ID: 11743817, DktEntry: 11-3, Page 20 of 53

1

ever.

2

our favorite sports teams, let's wait until next year.

3

19

And the response should not be, you know, like some of

THE COURT:

And I guess thinking about my analogy and

4

how bad the analogy was, assuming that you're successful in

5

getting it on the ballot, it passes, and it, in fact, has the

6

effect of law, presumably it will change the funding for

7

education and all the children attending school.

8

that by two years means a -- two classes will leave the Idaho

9

public schools without the funding that your group thinks should

10

And delaying

be made available.

11

So I assume maybe that's part of the argument, as

12

well, is the loss of a few years is a real loss for children of

13

Idaho.

14
15

MS. FERGUSON:

All -- all

children of Idaho who attend public schools K through 12.

16

THE COURT:

17

MS. FERGUSON:

18

That's -- that's correct.

time.

All right.
And I think I will just reserve my

I think I have about 5 minutes remaining.

19

THE COURT:

Yes, you do.

20

All right.

Then, Mr. Berry.

21

MR. BERRY:

Thank you, Your Honor, Counsel.

22

You know, as a starting point, I just wanted to go

That's great.

23

back up to the signature verification.

24

about how many signatures would be rejected or accepted.

25

Phil McGrane has a different point of view.

There was a question
And

If you look at

173

(73 of 90)

Case: 20-35584, 07/07/2020, ID: 11743817, DktEntry: 11-3, Page 47 of 53

1

46

So since the state had the ability and, in fact, had

2

demonstrated that through the way it had conducted the most

3

recent primary election, there -- I think there has been

4

a -- there is a likelihood of success on the merits for the

5

plaintiffs; and therefore, some remedy has to be considered.

6

Addressing the other requirements under Rule 65, I

7

would indicate that clearly the irreparable harm standard -- we

8

had the discussion during oral argument about why not wait until

9

2022.

And I think the real answer lies in the fact that the

10

plaintiffs want -- seek a change in the law concerning the

11

funding of public education.

12

where one could say that justice delayed would be justice

13

denied, or perhaps a constitutional delay in protecting a

14

constitutional right is a true denial of that right.

15

And this is one of those instances

Two classes, presumably, two years -- a delay in this

16

process by two years will affect tens of thousands of Idaho

17

students, which has been the plaintiffs' concern here.

18

therefore, it strikes right at the heart of their advocacy under

19

the First Amendment.

20

And

The third requirement, I see no real harm to others,

21

as we discussed here.

22

compelling in any way that the state approve what the proponents

23

of the initiative seek.

24

rights to have something placed on a ballot for the Idaho

25

citizens to vote on is -- is what needs to be protected.

This is not an issue in which I am

I am simply indicating that their

174

And

